<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                        _________________________

     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  ROBERT B. ADERHOLT, Alabama            MICHAEL M. HONDA, California
  JOHN R. CARTER, Texas                  CHAKA FATTAH, Pennsylvania
  JAIME HERRERA BEUTLER, Washington      JOSE E. SERRANO, New York
  MARTHA ROBY, Alabama                   DEREK KILMER, Washington
  DAVID W. JOLLY, Florida
  STEVEN M. PALAZZO, Mississippi

 
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                           ________________

                                  PART 5

                                                                   Page
  Department of Commerce.......................................       1
                                                                      
  Ocean Worlds................................................       65
                                                                     
  National Aeronautics and Space Administration..............       121
                                                               
  National Science Foundation................................       205
  
  
  
  
                                                                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
                                  

                           ____________________

          Printed for the use of the Committee on Appropriations

                           ___________________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-501                      WASHINGTON: 2016
  
  



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey                NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                        MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                 PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                          JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                        ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                            DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                              LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                            SAM FARR, California
  TOM COLE, Oklahoma                                 CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida                         SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania                      BARBARA LEE, California
  TOM GRAVES, Georgia                                MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                                BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                             STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska                         TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida                          C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee                  DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington                  HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                               CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California                       MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                              DEREK KILMER, Washington
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2017

                              ----------                             

                                        Tuesday, February 23, 2016.

                         DEPARTMENT OF COMMERCE

                                WITNESS

HON. PENNY PRITZKER, SECRETARY, DEPARTMENT OF COMMERCE
    Mr. Culberson.  The first hearing of the Commerce, Justice, 
Science Appropriations Subcommittee will come to order. It is a 
privilege to have with us today the Secretary of Commerce, 
Penny Pritzker.
    We have begun our work expeditiously this year. Chairman 
Rogers has tasked us and each subcommittee to get started early 
to get our work done as quickly as possible because we have a 
budget agreement and a favorable forecast for the Senate, we 
hope, Mr. Chairman to get all 12 appropriations bills done 
separately, and hope that they will come not only to the floor 
of the House separately, but to the floor of the Senate 
separately, and we hope at the end of the year separately be 
considered by the Congress.
    And in keeping with that task, Mr. Chairman, and to keep 
our schedule moving quickly, we are going to follow the 5-
minute rule for questions, and I certainly will not cut anybody 
off mid-sentence. I will recognize members in order of 
seniority based on who is present at the beginning of the 
hearing, and going back and forth, of course, between parties. 
For late comers, I will recognize those members in the order 
that you arrive, and continue to go back and forth between the 
parties until all members are recognized.
    And this subcommittee, in particular, has a long history. 
As you know, Chairman Rogers has told me many times, this is 
one of your favorite subcommittees. The jurisdiction of this 
subcommittee encompasses so many good things that we do in 
helping keep the American people safe, and enforcing our laws, 
and ensuring that the nation's trade--as the Secretary of 
Commerce will talk to us about here in a minute--looking after 
the nation's farmers and workers with the NOAA satellites. We 
also, of course, have jurisdiction over NASA and the National 
Science Foundation.
    About everywhere you look, the work of this subcommittee is 
just pure good, and it is one that is a real privilege for me 
to chair. It is the one committee I truly wanted to chair when 
I came on Appropriations, and I thank you for the trust you 
have invested in me, Chairman Rogers, it is a real privilege. 
And we are delighted to start with you today, Madam Secretary. 
It is a privilege to have a chance for you to talk to us about 
the President's 2017 Department of Commerce Budget request.
    And as we all know, the Department of Commerce has a number 
of important functions including the administration of 
America's patent and trademark laws; preparing for and 
conducting the Decennial Census; enforcing our trade laws; 
forecasting the weather; managing our fisheries; and protecting 
and exploring our oceans; and mapping and cataloging the 
immense mineral wealth that lies beneath the ocean under 
America's exclusive economic zone, which, in fact, encompasses 
about--if you look at the entire EEZ, it is about 50 percent of 
America lies under the nation's oceans, and there is vast 
mineral wealth out there, and that is a key part of your 
responsibility, Madam Secretary.
    Now, we on the committee--I know many of the members here 
share my concern that the budget request you have submitted to 
us includes nearly a half-billion-dollars in discretionary 
spending increases, and more than $2 billion in new mandatory 
spending. Frankly, they are just gimmicks. Including such 
things as a $10 barrel tax on oil, which is not likely to 
happen.
    So it is important that we focus on the realities that we 
will actually be able to handle this year in our tight budget 
environment, and recognize that we are simply not going to be 
raising taxes on the American people. And so to that extent, 
the President's budget request is not realistic, and that also 
makes our job on this committee more difficult. But we do 
appreciate the work that you do, Madam Secretary, have a duty 
to our constituents to ensure that their hard-earned tax 
dollars are spent wisely, and we will make certain that those 
tax dollars are spent to enforce the law as written by 
Congress.
    We will also be focusing, in particular, in our hearing 
today about making sure that we are protecting the Internet 
from foreign governments; ensuring that the 2020 census is 
going to cost less than the census that was conducted in 2010. 
We want to make certain, Madam Secretary, that the weather 
satellite program meets their cost and schedule timelines. And 
something of particular interest to me and to my predecessor, 
Frank Wolf, we want to make sure that we are strengthening 
cyber and information technology security at the Department of 
Commerce.
    But before we proceed, I would like to recognize my 
colleague and good friend, Mr. Honda, for any remarks that he 
would like to make.
    Mr. Honda. Thank you, Mr. Chairman.
    As we start the FY 17 process, let me start by saying how 
grateful I am for my chairman's leadership last year and how I 
look forward to working with him and my colleagues on this 
committee to build upon last year's successes and craft a 
strong CJS appropriation--one that promotes strong economic 
growth, robust innovation, and societal equity.
    Welcome, Madam Secretary, and thank you for testifying 
today, and thank you for your commitment to smart, effective 
Federal investments in business and innovation.
    I think it is fitting that my first hearing as ranking 
member of this subcommittee is with the Secretary of Commerce. 
My district is Silicon Valley in California.
    It is a region known for its strong, innovative, high-tech 
economy that has reshaped the world we live in, and it is also 
a region that is dealing with the challenges and inequity that 
accompany the great opportunities of our 21st century economy. 
And I am pleased that the President's budget includes robust 
support for our nation's priorities to promote new era 
manufacturing, which I am sure you are very interested in; 
investment in American companies; and quality data that our 
government's businesses and researchers rely upon, as we know.
    As we prepare our market to be a leader in today's global 
data-driven economy, we must ensure that our investments and 
programs lift up all Americans across this nation, and reach 
those who have been historically left behind. As we grow 
public/private partnerships to invest in advanced 
manufacturing, we must also grow partnerships to invest in our 
minority youth entrepreneurs.
    As we ensure that we accurately and cost effectively count 
each and every American, we must especially ensure that we 
count all of our small, immigrant and rural populations as well 
as those in the territories. A strong American economy is one 
that is felt by all, and I believe that the President's budget 
does just that.
    So thank you again for joining us this morning, Madam 
Secretary, and I look forward to hearing your responses to 
questions asked by my chairman and my colleagues here today.
    Mr. Culberson. Thank you, Mr. Honda. It is my privilege to 
recognize the chairman of the full committee, the gentleman 
from Kentucky, Mr. Rogers.
    The Chairman. Thank you, Mr. Chairman. You do a great job 
here, by the way.
    Mr. Culberson. Thank you.
    The Chairman. Madam Secretary, thank you for being with us. 
We appreciate your taking the time to justify your budget 
request.
    As you know, last year we all reached an agreement setting 
discretionary caps for both 2016 and 2017. I am proud that we 
crafted an omnibus bill for 2016, that adhered to the terms of 
that bipartisan agreement. It's not always easy to live within 
your means, but it is necessary and responsible. That is why I 
am disappointed that the President has chosen to put forth a 
budget request for your department that is filled with gimmicks 
in order to side skirt the very same budget caps that he signed 
into law last year.
    The budget you have put before us requests $2 billion in 
new mandatory funding, making this budget effectively DOA. I 
mean, we owe over $19 trillion, growing like a weed, but we 
only appropriate a little less than one-third of Federal 
spending. Federal spending is going to be $400 trillion; we 
only appropriate $100 trillion of that.
    When I came here, we appropriated two-thirds, now it is 
one-third. In the last 5 years, in an effort to get at the 
spending problem that we have, we have cut discretionary 
spending by almost $200 billion over the last 5 years, and that 
is an achievement, big time. But, in the meantime, the 
mandatory spending has grown like a weed and the public is 
alarmed, frightened, scared, frustrated, mad. And yet here you 
come with a $2 billion increase in mandatory funding as if you 
didn't know that would make me mad.
    For fiscal 2017, you have requested $9.73 billion in 
discretionary; that is a 5 percent increase over the previous 
year. That number proposes increases for nearly every agency, 
every program at your department. Given current law under the 
bipartisan budget agreement, that is unrealistic, to say the 
very least.
    It is the job of this committee to ensure that the programs 
that serve taxpayers well, are funded responsibly. Innovation 
and job creation are essential to growing the national, 
regional, and State economies, and despite this unrealistic 
budget submission, your agency does do a lot of great work, 
including in my home State of Kentucky.
    Over the last 7 years, we have been hit with the war on 
coal; the loss of over 10,000 coal jobs in my district alone. 
That is just coal jobs, that does not mention convenience 
stores, and truck drivers, and grocery stores, and restaurants, 
and the like.
    We are in a depression in my part of the world. They 
shuttered the AK Steel plant in Ashland. Regions like 
Appalachia--and we are not alone--that have been forced to try 
to diversify their economies as a result of the hostile 
regulatory environment of this administration and emerging 
energy technologies and have had to think creatively and 
strategically about what we do next to live.
    From the grassroots level, I have worked with our outgoing 
governor, Governor Beshear, and now the new governor, Bevin, on 
a regional community development initiative that we have dubbed 
SOAR, Shaping Our Appalachian Region. It is an effort to try to 
diversify the economy, to bring new ways to create jobs to 
replace those we lost.
    Last summer, your assistant secretary for economic 
development, Jay Williams, came down to our area to address the 
second annual SOAR summit conference; almost 2,000 people. 
During his remarks, he shared lessons learned from serving as 
the Mayor of Youngstown, Ohio, and explained how our 
communities can leverage Economic Development Administration 
resources to help create those jobs and opportunities that we 
desperately need for new businesses across the Appalachian 
region. And I deeply appreciated the time he has spent with us, 
two years in a row, frankly.
    As he mentioned, Commerce has many programs that have 
helped, and continue to help, these struggling coal mining 
communities. For fiscal 2017, the President's budget proposes 
to continue to fund what he calls the Power Plus Program, but 
does not include a specific funding amount, or propose to 
continue funding the Assistance to Coal Communities program 
within EDA. That is despite the fact that Congress has included 
clear direction in the last three omnibus bills to support coal 
communities.
    I would be remiss if I did not mention--even though it is 
outside your purview--that I continue to believe that Power 
Plus is toothless without regulatory relief for these coal 
mining communities. The war on coal continues. I look forward 
to hearing your plan for those important programs in the 
future.
    Additionally, the U.S. steel market has been flooded by 
cheap imports from around the world; they are dumping steel on 
us. That illegal dumping of steel in America has put many of 
the U.S. steel makers in jeopardy, like AK Steel in Ashland 
which is going to close. Across the country, steel companies 
are closing facilities and sending their employees home. The 
President's budget requests an increase for the International 
Trade Administration, but only a small portion is targeted 
toward enforcement and compliance.
    With this continuous increasing pressure on U.S. steel 
companies, I am very troubled by the allocation of the 
requested budget increase. I would like to hear about how you 
plan to address the unfair policies that countries like China 
are today pursuing to the detriment and death, frankly, of U.S. 
manufacturers in this country and their workers.
    We have many challenges ahead of us, I look forward to 
working with you throughout the process. Thank you for joining 
us, we wish you well. I yield.
    Mr. Culberson. Madam Secretary, we appreciate your 
testimony today, and the written statement that you have will 
be entered into the record. And I would ask, if you could, to 
please keep your opening statement to 5 minutes so we will have 
additional time for questions.

         DEPARTMENT OF COMMERCE FISCAL YEAR 2017 BUDGET REQUEST

    Secretary Pritzker. Absolutely. First of all, Chairman 
Rogers, Chairman Culberson, Ranking Member Honda, and the 
Members of the Subcommittee, thank you for the opportunity to 
lay out the priorities for the President Obama's fiscal year 
2017 budget request for the Department of Commerce.
    Building on your strong support over the last 3 years, this 
request will enable the Department of Commerce to serve as an 
effective voice for business in the Federal Government; 
continue our work with the private sector on policy 
development; and help firms of all sizes enter new markets.
    Our fiscal year 2017 budget request provides $9.7 billion 
in discretionary funding to support our core priorities under 
our open-for-business agenda, while also allowing us to make 
our department more efficient.
    This agenda is focused on four key priorities--promoting 
trade and investment; spurring innovation and entrepreneurship; 
gathering and acting on environmental intelligence; and fueling 
a data-driven economy. Today I want to highlight just a few key 
initiatives under each of these areas.
    First, the budget request will enable our department to 
better serve American businesses as they seek to access the 96 
percent of potential customers who live beyond our borders. 
Increasing trade and investment is critical to growing our 
economy. Nearly 10 million U.S. jobs are supported by exports.
    This budget request will allow us to expand the footprint 
of our foreign trade specialists to help American companies 
navigate exporting into new markets. It will strengthen our 
team's ability to enforce trade laws that protect U.S. 
industries from unfair trade practices, and ensure foreign 
governments' compliance with the international trade 
agreements. We are also requesting funding to expand Select 
USA, the first ever whole of government effort to facilitate 
business investment to and within the United States.
    Second, the budget request will also increase investment in 
the National Network for Manufacturing Innovation, which was 
established to ensure America's global leadership in 
manufacturing.
    Each institute has a unique focus, but a common goal: to 
create, showcase, and bring new made-in-America capabilities in 
manufacturing processes from lab to market in the near term. 
The Department of Commerce oversees the network of the seven 
existing institutes, and we have the unique authority to 
establish new institutes in technologies areas selected by 
industry.
    Another key piece of our agenda is ensuring that 
communities and businesses have the information they need to 
prosper in a changing environment. This budget request supports 
the National Oceanic and Atmospheric Administration's core 
missions that promote more resilient communities, including 
fostering healthy marine resources, and improving forecasting 
accuracy, and lead times for severe weather.
    To ensure NOAA retains a robust observational 
infrastructure, the budget also provides $2.3 billion to fully 
fund the next generation of weather and environmental 
satellites, including the Polar Follow On Satellite Program.
    Finally, recognizing that data powers the 21st century 
economy, the census bureau is committed to achieving a 2020 
census that is both accurate and efficient, with the goal of 
keeping the per household cost below that of the 2010 Decennial 
Census.
    Investing wisely now in preparation for the 2020 census 
will potentially save American taxpayers more than $5 billion. 
To achieve these savings, this request provides a $1.6 billion 
to develop, test, and implement the innovative design methods.
    The fiscal year 2017 budget request furthers priority 
programs that have a strong return on investment for American 
taxpayers. Ultimately, these priorities are only a small piece 
of the Commerce department's work to develop and implement 
policies that support economic growth, enhance our country's 
competitiveness, and strengthen America's businesses both at 
home and abroad.
    I look forward to answering your questions today, and thank 
you for having me.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    
    
    Mr. Culberson. Thank you, Madam Secretary. It is very 
important for you as you go forward today from our hearing to 
take to heart what Chairman Rogers has said, and that is that 
this $2 billion increase in mandatory spending that you are 
assuming in your request is simply not going to happen, and it 
does make our job far more difficult; and that is the root of 
the problem that the American people face. The massive 
increases in mandatory spending are driving the annual deficit 
and the debt right through the roof.
    So it is very disappointing and frustrating to see the 
increase that the administration has recommended through you to 
this subcommittee includes $2 billion in new mandatory spending 
that are simply not going to happen, and as Chairman Rogers 
pointed out, breaks the budget agreement.

                          INTERNET GOVERNANCE

    I also want to mention something to you that is of 
particular interest and that I hear a lot about from my 
constituents, and that is Internet governance. We all have a 
keen interest in protecting the integrity of the Internet. My 
predecessor, Frank Wolf, was one of the first out of the gate 
to recognize the threat of Chinese cyber espionage. Frank, 
quite correctly, spotted the problem that Chinese were creating 
early on, and I was proud to support him in that effort to 
protect the agencies under the jurisdiction of this 
subcommittee from cyber attacks by the Chinese.
    So we are all becoming--the whole country's increasingly 
aware of the threat of cyber espionage. And the committee, in 
the last couple of appropriations bills, has included language 
prohibiting the Department of Commerce from relinquishing 
responsibility for the Internet Domain Name System to any other 
country. Yet, despite these Congressional limitations, the 
Obama administration continues to plan to transition this 
responsibility to the global stakeholder community.
    And I noted that at the Chinese government's world Internet 
conference, China appeared to move back towards their original 
belief that Internet governance is the responsibility of 
governments, which is a tenet not acceptable in a final 
Internet transition plan. We have had a very successful system 
in the United States of the private sector maintaining that 
responsibility. The Department of Commerce has overseen that, 
and we have put very specific language in last year's bill and 
in the 2016 bill prohibiting the transfer of that 
responsibility out of the Department of Commerce.
    Since the Chinese seem to want to make the governance of 
the Internet the responsibility of government, I wonder if you 
could talk to us about why you believe the Obama administration 
and the Department of Commerce believe it is a good idea for 
the Chinese to have a say in how the Internet is administered.
    Secretary Pritzker. Mr. Chairman, first of all, let me 
start with the fundamental premise I think you and I agree on, 
which is the stability and security of the Internet, and the 
domain name system is of paramount importance.
    The Department intends, you know, a rigorous review of the 
IANA transition proposal, which we have not received a proposal 
yet. When we think about the proposal, we believe that there 
are a number of issues that would be absolutely paramount for 
us to even consider any kind of transition.
    First, a system would have to support and enhance a multi-
stakeholder model.
    Second, it would have to maintain the security, stability, 
and resiliency of the Internet's domain name system.
    Third, it would need to meet the needs of our global 
customers.
    And, finally, it would have to ensure that we would have an 
open and free Internet.
    And as it relates to ICANN itself, the governance of ICANN 
would have to be structured in a way that there could be no 
government leadership of that organization. So we share that 
fundamental principle.
    There is no transition anticipated before the end of this 
fiscal year. We are expecting to see a plan proposal in mid-
March, and, of course, when we receive that plan we will work 
very closely with Congress throughout that entire process.
    Mr. Culberson. But of course, you recognize that we have 
prohibited any effort to move towards such a transition?
    Secretary Pritzker. I understand----
    Mr. Culberson. This fiscal year.
    Secretary Pritzker [continuing]. I understand the language 
that has been put in appropriations. And so what we are going 
to do is receive a plan and then we will talk with you about 
it.
    Mr. Culberson. I just really want to drive that home 
because the whole concept of a free, and open, and thriving 
Internet is completely inconsistent with the way the Chinese 
government approaches these things, and we want to keep the 
control of those Internet domain names here in the United 
States in the hands of the private sector has worked very, very 
well, so that it does continue to be free and secure.
    How would you ensure, for example--if I could, the last 
question and then I will go to Mr. Honda--talk to us about how 
you would even begin to protect and address cyber security and 
privacy concerns, which is something of keen interest to all of 
us?
    Secretary Pritzker. Well, the domain name system and cyber 
security are two different issues. As it relates to cyber 
security, that is a paramount importance to the entire 
administration, it is something that we have been working very 
carefully and very closely on.
    For our department, one of the things that we have done is 
really make sure that we have installed the Einstein 3A system, 
run by the Department of Homeland Security, throughout our 
entire department to protect ourselves. And I am happy to talk 
more about each bureau and what they are doing.
    Mr. Culberson. Well, in particular what I was driving at, 
is your understanding of what this proposal would be, what 
would be the role of foreign governments in the----
    Secretary Pritzker. We are not looking to have a role of 
foreign governments. That is--forgive me--when I talk about the 
multi-stakeholder process, it is a process where it is not lead 
by governments but instead lead by the stakeholders in the 
Internet community.
    Mr. Culberson. OK. Thank you.
    Mr. Honda.

             NATIONAL NETWORK FOR MANUFACTURING INNOVATION

    Mr. Honda. Thank you, Mr. Chairman. I have a question about 
the National Network for Manufacturing Innovation, better known 
as NNMI hubs. I believe that there are about seven of these 
industry-led public/private advanced manufacturing centers 
across this nation. In fact, my home of Silicon Valley was 
recently selected as a site for a new center on developing 
flexible hybrid electronics. And that is with the Department of 
Defense.
    This center, which focuses on developing this potentially 
game-changing technology, took about $75 million in investment 
from DOD and raised over a quarter of a billion dollars from 
industry to build an innovation hub. And being from Silicon 
Valley, I fully appreciate how important it is that we focus on 
advanced manufacturing and potentially game-changing 
technologies to ensure that the next Silicon Valley is located 
right here in the U.S.
    The vision of this network of advanced manufacturing hubs 
was to link all of them together through NIST to develop an 
innovation echo system across this country. In the fiscal year 
2016 budget, NIST was given funding to coordinate this network 
and to establish NIST centers through an open call to agencies. 
Now until fiscal year 2016, only the DOE and DOD had the funds 
to raise the seed money for these hubs.
    Now with last year's appropriations, other agencies now 
have the ability to compete for these seed funds to establish 
an advanced manufacturing center focusing on their 
technologies.
    The questions I have are, what is the current status of the 
NNMI network in this role in linking these centers and 
establishing new ones? What are some of the successes from the 
seven NNMI centers so far? And what is your view of the role of 
the agencies in industry--agencies and industry/academia and 
the long-term success and sustainability of these hubs?
    And then in your opinion, would these centers develop 
without seed funding from the agencies? And you may want to 
talk a little bit about the source of the seed funding and its 
anticipated, you know, growth in the next couple years.
    Secretary Pritzker. Well, first of all, I want to thank the 
committee for their support of the role of NIST in helping to 
set up the network as well as to authorize us to do our very 
first institute at the Department of Commerce.
    You gave us $5 million for coordination which we are 
setting up the advance manufacturing national program office. 
And we, in fact, completed a review of all of the network, an 
annual report of the network, as well as we produced a strategy 
which we have recently distributed to all of you for what the 
network intends to accomplish.
    You know, the successes of the seven existing institutes 
vary depending upon their age, the oldest being about three 
years old. I went and I have actually visited three of them 
myself. If you take the oldest, which is in Youngstown, Ohio, 
that does 3D printing, it is extraordinary what is happening 
there. It is, in fact, not just extraordinary what is happening 
there, it is a really by virtue of your creating the network, 
what is happening in other parts of the country, for example, 
in Texas, in 3D printing is really amazing.
    So they started with 60 different participants, and today 
they have somewhere about 140. The institute in Youngstown, 
Ohio, has now partnered with University of Texas in El Paso, 
to--because El Paso has the greatest number of 3D printers. My 
point is, what you all are funding and are seeding with 
taxpayer dollars, I am a huge fan as a private sector person of 
this program, because as Congressman Honda said, most of the 
institutes are funded with some taxpayer dollars, the minimum 
requirement a 1 to 1 match, most are matched much more than 1 
to 1 by the private sector, local government, and the 
universities, and the education partners.
    It is also not just a big company game, but, in fact, I 
spent--I talked with one small business who is making some of 
the powders that are used in additive manufacturing. They said 
we never would have had the gumption to build a new $70 million 
plant to create these additive materials if this institute had 
not been created. I am simply giving you the example of one, I 
mean I could go chapter and verse on these things, but we do 
not have time today.
    In terms of the role of academics, it is really critical 
that the private sector and the academia partner together 
because the academic world is really great at research, but 
often you need some help to go from research to market, that is 
the whole goal of the NNMIs. And they are playing an absolutely 
important role in doing the primary research, but they need the 
catalysts to the private sector to get those potential products 
out of the laboratory into the marketplace.
    Seed funding is essential. I talked to--in each of the 
venues that I visited, the leadership in those communities told 
me we would never have come together organically, but it was 
the Federal government's wisdom to do these programs that was a 
catalyst for us to bring together. It is not just in one local 
city, they bring together regions and then now are partnering 
in different parts of the country. It is very exciting what you 
all have unleashed, and I think it is, you know, an 
extraordinary public/private partnership.
    Mr. Honda. Mr. Chairman, if I just may. It may be of 
interest to you, map out where a lot of these centers are, or 
the participating entities are with the centers so that members 
will see how, you know, how it affects their own communities 
and the participation of that so that it does not sound like it 
is just that one spot, but it is shared.
    Secretary Pritzker. I think that is a really good point, 
and I think if we map that and then follow it over several 
years, you will see then the role of the network is to expand. 
So the 3D printing is not just in Youngstown, Ohio, but it is 
in Texas and in other places, or you take composite materials--
--
    Mr. Honda. Sure.
    Secretary Pritzker [continuing]. Or the different--the 
seven or eight different----
    Mr. Honda. Yes. So, Mr. Chairman, as to answer the 
question, so what do I get out of it? Kind of an answer----
    Secretary Pritzker. Exactly. For everybody.
    Mr. Honda. Probably the last question I asked was the 
anticipated buildup, because of this process, what impact does 
that have in the future--this budget and in the future?
    Secretary Pritzker. Well, in our budget, we have asked for 
$22 million to do--you authorized us to do at least one 
institute, last year we asked for additional funding so that we 
could do at least another institute. And the first one that we 
are working on, we have just put out the FFO. And what is 
unique, if you recall me saying in my opening comments, is we 
at the Department of Commerce for our advanced manufacturing 
institutes, the private sector will determine the technology 
that we choose to fund, which I think is different than 
Department of Energy or Department of Defense where they are 
picking the technologies. And then what we are asking for in 
our budget is the ability to grow the number of institutes.
    When you talk about the $2 billion of mandatory funding 
going forward, that is over a ten year period, and it is to 
stand up 27 institutes. That is what we had put in the budget.
    Mr. Culberson. Thank you, Madam Secretary.
    Mr. Rogers.

                                  SOAR

    The Chairman. Madam Secretary, I mentioned earlier about 
SOAR, the economic development group we put together with the 
governor. I visited last--couple weeks ago, I took the chairman 
of the FCC to two of the poorest counties in the country, very 
small counties, but where the local telephone co-op had 
installed high-capacity, high-speed cable--a remarkable thing 
in that small community. The FCC chairman was flabbergasted.
    But one byproduct of that is, the Teleco guy told us that 
he has 150 people now working out of their homes, doing things 
for Hertz Rent A Car, and Hyatt Regency, and whatever. Those 
are jobs they can do at home even if they are homebound. So one 
of the major goals of SOAR is to lay 4,300 miles of high-
capacity, high-speed cable, statewide, starting in eastern 
Kentucky.
    So, Mr. Honda, in competition with your Silicon Valley, 
there is going to be Silicon Holler.
    Mr. Honda. Mr. Chairman, we really do invite that. And 
maybe he can look at cyber security as one of the hubs for the 
area.
    The Chairman. At any rate, I welcome your help in that. It 
is an exciting thing, and it is beginning to pay fruit. And it 
is through the work of your department and ARC, and EDA and 
others, that we are trying to climb a very steep mountain.

           INTERNATIONAL TRADE ADMINISTRATION--STEEL DUMPING

    Let me briefly get back to the steel layoffs. Just before 
Christmas, AK Steel in Ashland temporarily laid off 700 
employees in a very poor area. And those jobs are going to be 
almost impossible to replace, at least in the short term, until 
we get Silicon Holler going good.
    Several of the steel companies around the country, in 
response to the dumping that has been showered upon them, 
several of them joined together and filed a complaint with the 
International Trade Administration and the International Trade 
Commission, accusing China, India, Italy, South Korea, and 
Taiwan of purposefully undervaluing their corrosion-resistant 
steel imports in order to increase market share in the U.S. It 
is blatant, plain, open, purposeful, intended.
    In the fiscal 2016 omnibus bill, we provided increased 
funding for the International Trade Administration's 
enforcement and compliance division. How is that working out? 
Can we hope to see some result out of that?
    Secretary Pritzker. Do you want me to answer?
    The Chairman. Please.
    Secretary Pritzker. Yes, Mr. Chairman, first of all, I 
share your concern about the steel industry and the effects 
that unfair trade is having on communities throughout our 
country.
    First, the money, thank you very much for the additional 
resources in fiscal year 2016. I think the goal is to hire 37 
additional enforcement officers. We have our pedal to the metal 
to try and get these folks on board. It is a very, very high 
priority for us because we have--on our anti-dumping and 
countervailing duty efforts, we have over 300 orders in place, 
of which 149 relate to steel products. So this is a huge 
problem.
    In fiscal year 2015, there were 62 anti-dumping and 
countervailing duty investigations initiated, of which about 40 
were related to steel. And that is the highest number of cases 
we have had in any one year in the last 15 years. So we are 
seeing what your communities are feeling, and we are reacting 
as quickly as we can, we thank you with the additional 
resources to address these challenges.
    The other thing that we are doing is--a couple things I 
want you to know that personally I have been doing. We hold the 
joint JCCT meeting with the Chinese. In November, I personally 
raised this with the vice premier about the dumping that is 
coming from China and the over capacity that exists in their 
country. I talked to a number of their economic officers as 
well.
    We are now--and the vice premier has agreed, we are going 
to have a JCCT steel--say that three times fast--JCCT steel 
dialog is coming up in May, as well we are having--have, we are 
working in the OECD with our trading partners on steel over 
capacity.
    So we are working on a multi-lateral level, at a bilateral 
level, we are doing our enforcement with as much of the 
resources that you have given us. It is very troubling what is 
happening to our steel industry. And steel capacity globally 
needs to be reduced.
    And the other thing that we are doing--and I have spoken 
with the CEOs of a number of our steel producers--is to work to 
make sure that we have complete information as to what is 
happening so that when cases are brought, we can be as thorough 
as possible in prosecuting them.
    The Chairman. Time is of the essence.
    Secretary Pritzker. It absolutely is. I could not agree 
with you more, Mr. Chairman.
    The Chairman. People are getting laid off every day, and 
these companies are closing down. And unless something is done 
rather quickly, you are not going to have a steel industry in 
the United States of America.
    Secretary Pritzker. I am very worried about it. We are 
using all the resources that we have, we are very focused on 
the tools that we have in our tool chest.
    The Chairman. Thank you very much.
    Secretary Pritzker. Thank you, Mr. Chairman.

         ENFORCEMENT ACTIONS AGAINST STEEL DUMPING IN THE U.S.

    Mr. Culberson. To follow up on that very quickly, Madam 
Secretary, what specific enforcement actions have you taken? 
You talked to the Chinese Premier, you are worried about it. I 
think Chairman Rogers raises a very good question, we certainly 
hear it in the presidential campaign, it is resonating with the 
American people. You have a tool kit at your disposal, this 
committee has given you the resources you need. What specific 
enforcement action have you taken against Chinese companies 
dumping steel in the United States?
    Secretary Pritzker. Chairman Culberson, what we do is 
really several things when it comes to enforcement. First thing 
we do is--writ large and then I will talk about steel--is work 
with companies with whatever trade barriers that they are 
facing.
    In the case of steel, this is working with the Chinese to 
say you need to cut capacity. And, you know, the challenge will 
be, will they cut capacity fast enough to have our steel 
industry be able to survive? They have cut it some, but it is 
not fast enough at this stage. So there is the working with 
them.
    There is our anti-dumping and countervailing duty effort, 
which is where we basically assess the situation and then if 
there is found to be dumping, and/or unfair subsidation then we 
put tariffs and duties on those goods and products. And as I 
said, fully half of the orders we have outstanding, 149 are on 
steel products coming in from outside the United States.
    And then finally, we support the U.S. trade representative 
in WTO litigation. Because we are so familiar with working with 
the companies on their particular issues, we use our expertise 
to help the U.S. trade rep bring new cases.
    And in the customs bill, which you all supported, there is 
now additional resources in the ITEC, and hopefully through the 
appropriations, the U.S. trade rep will get another $3 million 
to continue to pursue more within the WTO context.
    Mr. Culberson. What I was driving at is, you know, talking 
to the Chinese does not help, working with them does not help, 
they are not likely to do this of their own free will. When 
have you dropped the hammer on them and actually hit them with 
a tariff?
    Secretary Pritzker. Well, we do it----
    Mr. Culberson. That is what I am asking.
    Secretary Pritzker. Well----
    Mr. Culberson. Give the American people and Chairman Rogers 
some good news here.
    Secretary Pritzker. Oh, lots. I mean, we have probably--
last year I think we did, what, about 40 new tariff cases, or 
something to that effect. I will get you the exact number 
because I do not--please do not misquote--I do not want to give 
you the wrong numbers. But we had more, as I said, more tariff 
cases last year than we have had in 15 years, and of those, we 
had 62, to be precise 41 were steel cases. And I think, you 
know, the vast, vast, vast majority of those we found, you 
know, where we were--we had to put tariffs in place because 
there was dumping.
    [The information follows:]

     Question: Inform Chairmen Rogers and Culberson of specific steps 
DOC has taken to sanction China
    Response: Information on steel trade enforcement case shared with 
Chairmen Rogers and Culberson staff on 3/2/2016. Phone call to 
Culberson on ZTE matter on 3/7/2016.

    Mr. Culberson. That was the point of my question----
    Secretary Pritzker. I am sorry. Yes----
    Mr. Culberson [continuing]. Because Chairman Rogers is 
exactly right, time is of the essence. These American jobs are 
disappearing and the Chinese will--they do not pay much 
attention to anything else.
    Secretary Pritzker. Thank you, Chairman Culberson.
    Mr. Culberson. Thank you very much.
    Mr. Jolly.
    Secretary Pritzker. We are pursuing this, and I will get 
you, Chairman Rogers, the exact number of new duties that we 
put in place over the last 12 months in the steel industry.
    [The information follows:]

    To Clarify:
          For Calendar year 2015, there were 65 AD/CVD investigations 
        initiated, of which 45 were of steel-related products.
          For Fiscal Year 2015, there were 62 AD/CVD investigations 
        initiated, of which 41 were of steel-related products.
          In terms of new duties, there were 31 new AD/CVD orders in 
        Fiscal Year 2015. The correct number of tariffs/orders put in 
        place ``in the last 12 months'' is 16.

    Secretary Pritzker. What you have done by giving us 
additional resources is allowing us to investigate allegations 
more thoroughly, so that if there is dumping, we can put the 
duties in place. So we are very focused on this issue.
    Mr. Culberson. And we will be paying close attention, Mr. 
Chairman, and aggressively watching this. Thank you.
    Mr. Jolly.

                        HANGAR SPACE AT MACDILL

    Mr. Jolly. Thank you, Mr. Chairman. Chairman Rogers, 
Chairman Culberson, thank you for your support of some of the 
Gulf Coast of Florida's priorities in the last year. Madam 
Secretary, thank you for being here. I want to shift a little 
bit to a couple NOAA priorities.
    One in particular that I know is of strong interest, 
concern to your department to the leadership at NOAA, and that 
is the notification in the last few weeks by our friends at the 
6th Air Mobility Wing at MacDill, that they need their hangar 
space back for some KC 135s coming in and what that means for 
the disposition of the Hurricane Hunters and the NOAA fleet 
that, frankly, my predecessor was very instrumental in working 
with the department to make sure they were accommodated at 
MacDill.
    I know the department and NOAA leadership has visited with 
at least two airfields in the area, one at Saint Petersburg/
Clearwater Airport, which is in my district. It shares ramp 
space with the Coast Guard station. My understanding is there 
is ramp space, there is hangar space, there is office space for 
your 100 employees there, and that might be a feasible 
alternative. I know the Tampa Airport also has land and ramp 
space. I'm not sure about their hangar and office space 
available. NOAA leadership has been there.
    My question for you really is from your perspective and 
that of NOAA leadership, what you see as the options, the 
requirements, the budget, the timeline. I know MacDill and the 
Air Mobility Wing is suggesting no later than about this time 
next year. They need the hangar space back at MacDill, so I was 
hoping you could comment on what you believe the options are 
and, obviously, as well as whether or not resources are there 
for any potential move.
    Secretary Pritzker. Well, thank you very much. You know, as 
you mentioned, we have about 110 highly skilled employees in 
your--in the area who support our Hurricane Hunters, and it is 
very important to us to try and find a solution either at 
MacDill or in that area because we feel that we might lose 50 
percent or more of our highly skilled, trained workforce if we 
were forced to move.
    So, first, we are working close with the Air Force. We are 
looking at the options. We don't have a specific option right 
now that I can say we are going this direction or that 
direction, but what we will do is keep you very much apprised 
of it. But it is a priority for us to keep our skilled 
workforce, and so a massive move someplace else is--it would be 
a real--one, it would be expensive at a time when, as Chairman 
Culberson said, we are, you know, no one's flush with money.
    And two is we have great people and we want to keep our 
people. So we are trying to figure that out within those 
parameters. So I have set out the priorities, but I don't have 
the solution.
    Mr. Jolly. Sure. Do you know, among the options, the 
posture of the department, if you will, or of NOAA leadership, 
whether to move within the area to an airfield that actually 
has existing facilities? To me, that would seem fairly 
seamless. I know there has been planning and design at MacDill 
to build a hangar, but that would be a multi-year project.
    And maybe if you could also share--and I apologize, I don't 
know the answer to this, kind of a color of money question--
would Commerce ever be involved in bricks and mortar 
infrastructure on a DOD facility, or do you rely just on 
leasing either at a DOD facility or at a private airfield like 
Saint Pete/Clearwater or the Tampa Airport?
    Secretary Pritzker. I can't--Congressman, I can't give you 
the specifics of whether we would spend money on DOD airfield 
or not. What I would say is the way I would look at this is to 
say what is the most cost effective solution for the taxpayer?
    Recognizing that I do not want to lose the talent that we 
have because finding new talent, would be a disaster too. I 
think we have to weigh all those issues. You may know more 
specifics in terms of what the specific alternatives are. The 
team is working on it and have committed to get back to me. And 
as soon as we have our alternatives, we will work closely with 
you to make sure you understand how we are thinking about it.
    Mr. Jolly. Sure. And I appreciate that and I realize it is 
an issue for--that you rely on NOAA leadership for some 
direction on that. I will tell you, it is obviously of great 
concern to our area, I know it is of great concern to NOAA to 
keep the Hurricane Hunters regionally in that area, it is a 
strong concern and priority of mine as well.
    And to the extent that our Chairman would work with me 
throughout this cycle, I want to make sure if there are 
resource issues or other impediments to keeping them in the 
Tampa Bay Area where, geographically, I think it makes sense to 
keep them both for your workforce as well as for the missions 
that they run. I want to make sure that this subcommittee is a 
partner with you on that.

                      THIRD-PARTY DATA COLLECTION

    Two other quick items I will just lay on the record in case 
we do not have time for a second round is we have worked very 
closely with NOAA on third-party data collection for ensuring 
that the data involved and decisions regarding fishery closures 
in the Gulf is sufficient.
    This committee, together with the Senate, provided 
additional resources for additional third-party data, and I 
just want to lay on the record the intent, at least one part of 
the intent, of going into that was to bring the stakeholders to 
the table for the data collection at the beginning.
    And I know so much of it will rely on peer-reviewed science 
and academia, but the intent, the true intent, going back a 
year was to make sure that our recreational, our for-hire, and 
our commercial all feel as though they have a seat at the table 
at the beginning of the data collection process, not at the 
end.
    Secretary Pritzker. Congressman, we agree with using third-
party data, and we think it can help improve our stock 
assessments. And so our fiscal year 2016 priority has been to 
do, for example, red snapper evaluation, that is where we 
started and began.
    So one of the things I think March 2 and 3 in New Orleans, 
we are meeting with the private sector to talk about what our 
priorities are so that they can actually figure out how, with 
the data that they collect, to be able to support our efforts.
    Mr. Jolly. Sure.
    Secretary Pritzker. So I think, we are big believers in 
those kinds of partnerships and appreciate your support in that 
respect. And as it relates to the Hurricane Hunters, we will 
stay in close contact as to what we find out.
    Mr. Jolly. Thank you. And on that, I know we do have to 
rely on academia to get the peer reviewed science right, but I 
don't want us to lose sight of the fact that we want this 
sector stakeholders to be involved in that process as well. So, 
thank you.
    Secretary Pritzker. As you can tell, I am a big believer in 
the sector stakeholders being our partners.
    Mr. Jolly. Thank you.
    Mr. Culberson. Thank you, Mr. Jolly.
    Mr. Palazzo.

                            SHARED SERVICES

    Mr. Palazzo. Thank you, Mr. Chairman. Madam Secretary, 
thank you for taking the time to meet with us today and answer 
our questions. As you know, the administration has recognized 
the potential that shared services could be very beneficial for 
Federal agencies, both in terms of saving money, but also 
efficient delivery of services. I have seen this first hand in 
the private sector as well as in the public sector. I would 
like to agree that shared service is the way to go.
    I notice that the budget supports it also with $45 million 
for a shared service initiative, and that Commerce has actually 
put out an RFP as well. Could you elaborate on your efforts, 
and what phase are you now? You got certain sites 
geographically in mind? And just tell me more about it.
    Secretary Pritzker. Sure.
    Mr. Palazzo. I think it is a great idea.
    Secretary Pritzker. Absolutely. Well, first of all, we had 
a retreat--we have been working on shared services to try and 
bring this together for several years, or a couple of years. We 
had a retreat in February, early February, of all the 
leadership of the Department, and the outcry for--demand for 
this service, because we are really struggling with HR 
acquisitions and IT support in most of our bureaus.
    It is hard to attract the talent that we need in those 
bureaus, it is hard to get a service quality that befits the 
taxpayer. And so we are very grateful for NASA's support. I 
know the Stennis Center has been very, very helpful to us as we 
have been putting our plans together. Where we are, I think we 
are in phase 3--phase 3--of our process, where we are focused 
right now in putting together the HR component and going live 
this year.
    So it is a high, high priority for us. All of our bureau 
leaders unanimously agreed that we need to have shared services 
in HR acquisition and IT. And there is a fundamental view that 
by doing this that we will be able to have increased 
accountability, increased transparency, and increased 
productivity.
    So we are really committed to this effort, and I really 
appreciate the support that, as I said, NASA has given us 
through their shared services center in your district.
    Mr. Palazzo. Well, I am glad that you are consulting with 
other Federal agencies. I think there is a best practice out 
there for everything, and going and recreating the wheel, or 
having to struggle through, you know, alone is not necessary, 
because--and so I am happy to see that you are working with 
NASA. Because, I think, the same could be said for data 
consolidation.
    It seems like, you know, everybody is talking about data 
consolidation and--but there is actually Federal agencies that 
have done it, and have done it well, and I wish these other 
agencies would look to them for their best practices, and 
government sharing it across the board. But I do look forward 
to maybe hearing more from your office if you could provide 
someone to come brief me.
    Secretary Pritzker. Absolutely.
    Mr. Palazzo. I would like that.
    Secretary Pritzker. Happy to do that.

                 BUSINESS NEEDS FROM THE ADMINISTRATION

    Mr. Palazzo. Well, thank you. Also, you are the voice of 
businesses in the United States. What is--and I read your bio 
and your introduction, and so you have talked to a lot of 
businesses, large and I am assuming small as well, every 
category--what do they want out of this administration? What do 
they want to see Congress do? And I am from the private sector, 
I talk to a lot of businesses as well in my district, and I 
know what they are telling me, I am wondering what they are 
telling you, and what you are telling the administration.
    Secretary Pritzker. Well, you know, I hear a lot of 
different things, but there are some common themes. The first 
is, help us to sell our goods outside the United States. Help 
us to navigate these complicated countries where there is 
potential for our products. And so one of the things we have 
done is we have improved our market reports so that companies, 
large and small, but particularly small, you know, GE is going 
to figure this out, but the small company in any one of your 
districts needs more assistance. And, frankly, I ran companies 
that were more like those in your district and so that is one 
thing they want, help us do that.
    So we have done a number of things in terms of both people, 
which is why we are asking for more resources for our foreign 
commercial service, but also we have created tools to help 
companies navigate throughout the world.
    Second thing they ask for is, help us, we are struggling to 
find the workforce that can help us grow our companies. And so 
for the first time we made skilled workforce a priority of the 
Department of Commerce. And it does not mean--we are not trying 
to be the Department of Labor here, but what we are trying to 
make sure is that the voice of busines
    And the President listened to us and said the voice of 
business needs to be present in all of those grants, whether 
they are from the Department of Labor or other parts of our 
government. So that is a second area where we have been very 
active.
    The third is we need good information. Whether it is 
information coming from the American community survey or 
information coming from the weather service, we need actionable 
information that can help us make smart decisions. And so what 
we have done is we have created a data service within the 
Department of Commerce that is not only saving you money, and 
us money, and the taxpayer money in terms of producing data 
products because we are doing more efficiently with better 
quality people by centralizing that effort. But we are also 
getting better products out to the businesses in America so 
they can decide where to grow and how to grow. Those are just 
several things I have heard. I can go on and on.
    Mr. Palazzo. What about certainty and stability? You know, 
as a CPA, I like to be able to plan if I am going to make a 
capital investment or hire additional employees. And what I am 
hearing is that in this environment, people, they just can't do 
it, and it may be partly Congress, partly the administration. 
And, in addition, they are looking for tax relief and 
regulatory relief. Surely, you are hearing those themes as 
well.
    Secretary Pritzker. Of course. And so in terms of certainty 
and stability, that goes without saying. As we know, and I 
know-- I have 27 years in the private sector--business people 
are good at making decisions, risk-based decisions, on their 
products, but when you can't understand the landscape it is 
very hard to invest, and that is a big challenge.
    Particularly with this challenge that has been affecting 
the market, right, our public markets. I am not sure--well, 
let's just say that has, I think, given people a lot of pause 
for thought lately. In terms of tax policy, there is absolutely 
an interest in seeing business tax reform. There has been, 
since the day I walked in to my position and, obviously, tax 
policy sits with the Treasury but as part of the President's 
economic team, we have been trying to figure out how to work 
with Congress to do business tax reform. And that is, 
obviously, a much bigger conversation than probably we have 
time for right now. But those are issues that are absolutely on 
the front burner for businesses.
    Mr. Palazzo. Madam Secretary, thank you. I know my time has 
expired. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Madam Secretary.
    Judge Carter.

                             CYBER SECURITY

    Mr. Carter. Thank you, Mr. Chairman. Madam Secretary, I 
apologize for being late. We had weather delay, and that kept 
us sitting on the runway for a long time. But I am glad to be 
here, I am glad you are here with us today. Thank you for 
coming.
    I want to talk about something that, at least on the 
subcommittees that I serve on, seems to be mentioned almost 
every day and that is cyber security, cyber threats. You 
mentioned the formation of a commission on an ANSII national 
cyber security. What are some of the goals you have for this 
commission and how will they interact with DHS, who has 
important efforts in the same arena?
    Secretary Pritzker. Well, first of all, Congressman, thank 
you for being here. And the cyber commission is something that 
the administration announced about a week or ten days ago, and 
we at NIST provide the secretariat, if you will, for the 
commission, it is a bipartisan commission.
    And the goal is to address a number of issues over the 
next--that face us in terms of cyber security let's say over 
the next five years, it is not meant to be something for just 
this year. We play a important role at NIST, because first of 
all, we developed the cyber security framework. And the cyber 
security framework is both a language and a structure by which 
both the private sector and the public sector manage our cyber 
security.
    And it is extremely important, and we are seeing a massive 
take-up on our framework. And, in fact, one of the charges for 
us in the whole cyber security national action plan is for us 
to up--the framework is, I think, 18 months old, it is not that 
old--but is for us to continue to evolve it, to modify it.
    And the second thing that we are doing is working very 
closely with the chairman and vice chairman of this commission, 
Tom Donilon and Sam Palmisano, the former CEO of IBM, have said 
they are putting an agenda together and they asked us there to 
help them to, one, confirm this is a good agenda, but, two, 
then help operationalize the agenda. And our goal is to help 
make recommendations that, at the end of the day from the 
commission, that help both the private sector and the public 
sector.
    Mr. Carter. And this commission is made up of both 
government people and private sector folks?
    Secretary Pritzker. Yes, it is. And we absolutely made sure 
of that when the President was conceiving of the commission 
that the private sector as well as the public sector are 
represented.
    Mr. Carter. Well, I serve on this subcommittee, which 
almost everybody has a cyber issue in this subcommittee; 
chairman of Homeland Security, and we have a big cyber effort 
we have to deal with; and I am on defense, which, you know, it 
is cyber everywhere.
    I sometimes wonder if we--and I don't mean this in any way 
a criticism of this commission-- but if we do not continue to 
just keep adding more and more people, little pieces out there, 
and we are not all working together on that. And I would hope 
that anything new created would be at least communicating, not 
in silos, but communicating with others so that we really have 
a united effort in this fight.
    Secretary Pritzker. Congressman, the cyber commission is 
meant to be comprehensive, it is not meant to be siloed. The 
secretary of the Department of Homeland Security, he and I sat 
side-by-side with one another as this commission was being put 
together and announced. Our teams are working side-by-side with 
one another, and what we are trying--and our goal is not to 
have this be a little piece of the pie but instead a 
comprehensive look at what does the country need to do to deal 
with the challenges that we are facing.
    Given that the Internet, as it was created, was not meant 
to carry the trillions and trillions of dollars of financial 
instruments that it is carrying; the trillions of dollars of 
commerce that it is carrying the very sensitive Department of 
Defense data; and on, and on, and on. So now what do we do 
since this thing kind of grew by itself, now what do we do to 
protect ourselves? And that is kind of the charge that has been 
given to this commission.

                   PROTECTING THE DATA-DRIVEN ECONOMY

    Mr. Carter. Well, you know, many of us--and I don't know 
how much time I have got--many of us are concerned about the 
increasing intrusions pose--continue to build on I think our 
data-driven economy. How would we reassure the American people 
by what the efforts that you are putting together that 
everything possible is done--being done to protect the data-
driven economy? You can wake up in the middle of the night in 
cold sweats thinking about what could happen if they brought 
down the American data-driven economy.
    Secretary Pritzker. Absolutely. And, you know, your point 
that each of us has to do our part but that someone has to look 
at the whole, I think is absolutely right. And, you know, we at 
the Department of Commerce, our rule is to work with the 
digital economy on policy development. And that is one of the 
reasons in our budget we ask for funding for digital policy 
because, increasingly, the private sector is coming to the 
Department of Commerce and asking us to weigh in on whether it 
is issues of the open Internet, or issues of the Internet of 
things, or autonomous vehicles, or smart cities, or sensorized 
wearables, you know, privacy and national security issues as 
those come in contact with one another, the cyber security 
safe--you know, the U.S.-E.U. Safe Harbor, et cetera, et 
cetera.
    I think it is very important that we develop a policy--more 
policy standpoints about this, but then from the standpoint 
also of protection. At NIST, one of the things we did we just 
opened the National Cyber Security of Excellence where we are 
working with the private sector, 23 different private sector 
partners, to look at the cyber security of everything from a 
police car, think of all the information in a police car, to 
our electric grids.
    So this is a massive, as you point out, issue and requires 
us to bring both the science, the private sector together with 
the public sector. And we have to strengthen those engagements.
    Mr. Carter. Thank you for your answers, I appreciate it. 
Mr. Chairman.

               NIST: CYBERSECURITY AND FOREIGN NATIONALS

    Mr. Culberson. Thank you, Judge. Before I go to Mr. Honda, 
if I could very quickly, I want to bring to your attention, 
something I think I talked to you about last year. I know that 
the National Institute of Standards and Technology is 
responsible for creating the cyber security standards for the 
government, as well as you just mentioned the Cyber Commission 
at NIST is working with the private sector to see what those 
standards should be for everything from police cars to electric 
grid.
    I have to tell you, I just got this assignment last January 
and one of my first meetings was with the interim director at 
NIST last spring and he really worried me, because he came into 
my office and said very cavalierly that he was allowing foreign 
nationals to come into NIST headquarters with flash drives and 
laptop computers. He alarmed me so much because I know of the 
problem of foreign nationals coming in with--I think if you 
walk into the Pentagon with a flash drive, you go straight to 
prison, I believe. Judge, is that about right? And I was deeply 
concerned.
    So I asked the FBI to go out and meet with your folks out 
there at NIST. I understand from my committee staff that the 
FBI is satisfied that some improvements have been made. Could 
you talk to me a little bit about that? Because that is just 
unacceptable to allow foreign nationals with flash drives and 
laptops to walk into the center of where the United States 
Government is developing cyber security standards for the 
government and for police cars to the electric grid. I hope you 
have got a good handle on that.
    Secretary Pritzker. Well, Chairman Culberson, we take very 
seriously your concerns about the issue of foreign nationals at 
NIST and, frankly, we take very seriously the issue of cyber 
security as well.
    Look, the threat environment continues to change that we 
have to balance that and that primary with the issue of to 
solve some of the problems and technologies that we need to do, 
we need to work with the best and brightest around the world. 
And so there is a certain amount of openness and cooperation 
that is required in order for us to solve some of the cutting-
edge, global problems.
    Having said that, Director Willie May, in thinking about 
the challenges of our foreign nationals, ordered an internal 
review of how NIST manages its foreign guest researchers. And 
we have proactively initiated a number of improvements since 
our conversation last year.
    We have issued, first of all, an overarching set of 
policies based upon not only the review that you had us do with 
the FBI, but also we recruited a security expert to be on staff 
who has a counterintelligence background. Also the Deputy 
Director reviews all requests for certain workers from certain 
countries. We have also required that non-Federal researchers 
are readily ID'd on their emails, so we know whether someone 
is, you know, a Federal researcher or a guest researcher.
    We have also upgraded the physical security throughout our 
campus; cameras, access control, cipher locks, and things like 
that. And then we have done additional training of our NIST 
staff to make sure that they are sensitized to the potential 
challenges that a foreign worker could bring to our campuses.
    Mr. Culberson. One of the other things I asked you to do 
was to be sure that you involve the FBI on a regular basis to 
come out and conduct reviews to ensure that that level of 
security was satisfactory in the eyes of the FBI. I think the 
FBI is truly the gold standard when it comes to protecting this 
Nation against a cyber attack. Is the FBI still reviewing on an 
ongoing basis how you are handling this at NIST?
    Secretary Pritzker. I do not know, Mr. Chairman, when the 
last time the FBI was there, it has certainly been within the 
last year. I do not know precisely what they are doing, but I 
will look into it and we will get back to you.
    [The information follows:]

     Question: Let Chairman Culberson know when FBI last engaged with 
NIST
    Response: Department completed follow-up with Culberson staff on 3/
17/2016.

    Mr. Culberson. Thank you very much.
    Secretary Pritzker. Thank you.
    Mr. Culberson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Just off my time, I will comment about the FBI. You may 
call them illegal status, but in the Asian-American community 
they have made some arrests at work, at home, and held people 
in jail without due process and then after a few months they 
drop the charges. And these folks have been left without their 
character, their jobs, their reputation, everything else like 
that, not even with an ``I'm sorry.''
    So I think that we need to keep a rein on them and/or ask 
them what kind of training are they going through, because I 
think it is kind of a serious matter and it is getting our 
national attention.
    So I want to support our enforcement agencies, but I also 
want to support and make sure that our citizens in this country 
are protected against undue intrusions in the name of security. 
So I think that we have to be careful how we go about doing 
that.
    Thank you, Mr. Chairman.

                               SELECT USA

    Madam Secretary, the SelectUSA Program seeks to grow 
foreign direct investments, as we are talking a lot about jobs 
and everything else like that, and the foreign direct 
investment in the U.S. and create or maintain jobs here in the 
United States. So can you speak to the program's results since 
its creation in 2011 and how the additional funding would allow 
SelectUSA to expand its services?
    Secretary Pritzker. Thank you, Congressman.
    You know, SelectUSA's job is to communicate the benefits of 
investing into the United States. And the United States, as we 
know, has been ranked multiple years in a row as the number-one 
place for investment, and our job is to connect investors to 
investment opportunities in communities throughout our country. 
SelectUSA has helped facilitate over $17 billion worth of 
investments. What we have done is develop a strong team of 
investment promotion specialists that help navigate both the 
U.S. Government, as well as help introduce investors to the 
state or local economic development officers.
    We have held two investment summits to date, we have a 
third one coming this June. I invite all of you to attend, it 
is really terrific.
    Mr. Honda. Excuse me, where were they held, the two first 
ones?
    Secretary Pritzker. The first two, they are always held 
here to date in Washington, DC. The last one we had, over 2,000 
firms were represented who wanted to invest in the United 
States. I think we had, every state had economic development 
representation, officers represented. So it was terrific. As 
the economic development officers tell me, this is a target-
rich environment for them to find new investors into their 
states.
    Obviously, we do not prefer one state over another. Our job 
is to bring folks together. We have also led road shows to 
various countries and to the United States, including 14 events 
just in the last year.
    The additional funding, you asked what would that do. That 
would allow us to expand our services for investors and U.S. 
economic development officers in 14 additional focus markets. 
We have 32 markets total, we do not cover the 32 markets yet. 
And this would allow us to integrate the investment promotion 
into the U.S. and foreign commercial service apparatus.
    And, finally, it would allow us to create public-facing 
foreign direct investment data analytic tools, so it is easier 
for an investor to figure out where they should put their plant 
or investment as it relates to, let's say, supply chain or our 
infrastructure or our talent pool, et cetera.
    Mr. Honda. To follow up on that, you said that you do not 
choose sites for them, but in our country we have depressed 
areas like our chairman talks about, certain communities that 
are being hit because of the energy shift. And it seems to me 
that some attention should be paid to those communities where 
they might want to be able to look at those communities and say 
what are some of the possibilities of investments there and 
what kind of activities can come up there, because there are a 
lot of skilled people out there. It is just the economic 
picture has changed and I think that some direction or some 
discussion around some of the impacted areas of our country 
might be important.
    Thank you, Mr. Chairman.
    Secretary Pritzker. I appreciate that.
    Mr. Culberson. Thank you.
    Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.

                                 ARGOS

    Madam Secretary, just one more quick topic and again 
focused on NOAA, so if it is something we need to just put on 
the record and get back to. But I appreciate the request for 
additional investment in ocean acidification and coastal 
resiliency.
    My question is about the delay of the Argos Satellite 
launch, the data-collection program that I believe as late as 
last year the decision was made between NOAA and some of the 
industry partners involved in the Argos program to launch in 
2019, and I understand in the request that is possibly delayed 
now as late as 2021. And if we need to take it for the record, 
we can, but this is a question given our mutual interest in 
both data as well as the quality of our oceans, the ability to 
monitor the data related to ocean quality, ocean acidification, 
resiliency, and so forth. How Argos contributes to the current 
mission and any fear of a lapse in data collection or 
compromised data as a result of a two-year delay from a 
schedule that as recently as last year was just agreed to.
    So if you do have any information on that, I would be happy 
to--certainly appreciate any contribution. If not, we can do it 
for the record.
    Secretary Pritzker. So are you talking about our GOES-R 
program?
    Mr. Jolly. Right.
    Secretary Pritzker. Right, exactly. OK. So we had----
    Mr. Jolly. Argos.
    Secretary Pritzker. What? Yes, why don't I let our staff 
talk to you about it, because this is one that I am not as 
briefed up on.
    Mr. Jolly. Sure. And I appreciate that.
    Secretary Pritzker. Terrific.
    Mr. Jolly. If we can just put it on the record and follow 
up.
    Secretary Pritzker. I know more about our Polar Follow and 
our GOES-R program.
    Mr. Jolly. Right. No, Argos. Thank you very much.
    Secretary Pritzker. Thank you.
    Mr. Jolly. I appreciate it.
    Thank you, Mr. Chairman.
    [The information follows:]
      argos contributions to gathering ocean data and information
    Argos-DCS collects, processes, and disseminates environmental data 
from more than 14,000 fixed and mobile platforms worldwide. NOAA relies 
on the Argos system to collect worldwide ocean data (e.g., 
temperatures, air pressure, currents, and salinity) from moored and 
drifting buoys and submerged profiling floats. In addition to ocean 
data, Argos provides data for wildlife studies, monitoring and managing 
fisheries, non-environmental applications (i.e., monitoring vessels to 
improve maritime transportation security, tracking humanitarian 
supplies), and other environmental applications (i.e., environmental 
safety, hydrology, and marine pollution response applications).
                   effects of a 2-year delay of argos
    The Department of Commerce is not afraid that a two year delay will 
compromise the Department of Commerce's ability to monitor the data 
related to ocean quality and resiliency at this time. The Argos 
constellation is currently healthy and NOAA and its partners will 
continue to monitor and manage to ensure constellation health. The 
Department and NOAA will reevaluate the ARGOS constellation needs as a 
part of the FY 2018 budget process.

    Mr. Culberson. Mr. Palazzo.

                    BUILDING A WEATHER-READY NATION

    Mr. Palazzo. Sure. You know, I am here, I have got a chance 
to ask you another question, I will take it.
    You mentioned in your testimony building a weather-ready 
nation and you mentioned of course NOAA National Weather 
Service. And we have in my district a specific interest with 
the National Data Buoy Center, which is extremely important to 
help calculate natural disasters and patterns in our oceans. 
Can you expand?
    I mean, right now I am getting all kind of weather alerts 
back home, tornado watches and stuff like that. So it is on my 
mind. Maybe a little bit more about what it means to build a 
weather-ready nation.
    Secretary Pritzker. Well, what we are trying to do at a 
large, philosophical level at the National Weather Service is 
as follows, is to make sure that we are not only collecting 
enough information, that the data is good and that we have 
information, but it is no good if we just know it. We have to 
be able to get it out to the first responders, to the emergency 
managers, to mayors, to governors, so that they can do 
something with the information that we have.
    And so we are trying to evolve the Weather Service from one 
that is just focused on having the most accurate information to 
one that makes sure we are having the most accurate information 
and getting it into the hands of those people who can take 
action to protect life and property.
    And so that means we need to think about making sure that 
we have our resources first of all as it relates to buoys and 
things like that, and data collection. In fact, in our budget 
request we are talking about trying to expand our Automated 
Surface Observing Systems to not only extend their life, but 
improve their functionality.
    And in fact I have these great maps that the team did for 
me about the amount of coverage we have today and the amount of 
coverage we would like to have, so that we can have better data 
information that we think we can achieve and we have some money 
in our budget for that. The other is to improve our Doppler 
radar system.
    But fundamentally, having good information is not good 
enough. I mean, if people are dying or property is being hurt, 
we need to make sure that we are getting that information to 
the folks on the ground who can do something with that 
information. Now, sometimes that means responding to a 
hurricane, but it also means a better understanding. What is 
going to happen, what kind of flooding, what kind of drought is 
being predicted, what kind of extreme weather should we be 
thinking is coming? And that is a lot also of what we are doing 
with the Weather Service.
    So a weather-ready nation is one that is more than just 
knowing what the weather is going to be in the next hour, it is 
being able to get enough information early enough so that 
actions can be taken to protect life and property.
    Mr. Palazzo. Thank you.

                     OCEAN EXPLORATION AND RESEARCH

    Mr. Culberson. Thank you.
    Madam Secretary, half of the United States actually lies 
under the ocean and under the exclusive economic zone of the 
United States, and the Office of Ocean Exploration and Research 
conducts mapping--oh, excuse me, Mr. Carter, forgive me.
    Mr. Carter. That's all right. I will catch up after you. Go 
ahead.
    Mr. Culberson. Excuse me, I am sorry about that.
    Anyway, I want to ask, in the budget request that you 
submitted to the committee you propose cutting that program by 
nearly 40 percent. Yet the mapping that they are doing, the 
cataloging of the mineral resources that are out there is 
extraordinarily important, particularly in light of the fact 
that the Chinese have locked up 98 percent of the world's rare 
earth elements and it is already apparent that there are vast 
amounts of rare earth elements out there.
    That is an extraordinarily important program that the 
committee strongly supports. I am very passionate about it, and 
could you talk to us about why you proposed cutting that 
program by nearly 40 percent? I hope that is not something that 
you intend to do. I would hope you will be as strong a 
supporter of that program as this committee is.
    Secretary Pritzker. Well, Mr. Chairman, first of all, 
NOAA's ocean exploration program does very important work and, 
you know, both NOAA and I support the program that we do. What 
we are trying to do is weigh competing demands on our NOAA 
budget which led to us decreasing the request for that program. 
But what I would assure is we run a skilled program at the 
proposed funding level.
    The other thing we do, exploration of rare earth minerals 
is something that is work that is supported by our proposal and 
will improve our knowledge of the possible location of these 
resources within our U.S. exclusive economic zones.
    So we are trying to balance our budget here, but also to 
make sure that we are better understanding exactly what are the 
assets that we have within our oceans.
    Mr. Culberson. Well, I will pass to Mr. Carter, but I want 
to recommend to you that the work being done for example by Dr. 
Robert Ballard and the Nautilus in the private sector, he 
matches every dollar that you invest and that NOAA invests in 
the work that the Nautilus does, he matches it with at least 
two dollars of private funding and they are doing extraordinary 
work. So I hope that you will continue to support that program 
aggressively, because it is a great benefit to future 
generations.
    Secretary Pritzker. Terrific. Thank you.
    Mr. Culberson. And I recognize Mr. Carter.
    Thank you.

                    PROTECTING INTELLECTUAL PROPERTY

    Mr. Carter. Thank you, Mr. Chairman.
    Madam Secretary, you mentioned the good work that you are 
doing to spur innovation and technology. What steps are you 
taking to address the intellectual property theft perpetuated 
by foreign nations and specifically China?
    Secretary Pritzker. It is a challenge. What we have done is 
we work with the Chinese. And I will begin with the 
Administration's position, which is this went all the way up to 
President Obama and President Xi, where President Obama and 
President Xi agreed that we would not tolerate intellectual 
property theft for commercial purposes between our two 
countries. And that was a very important marker to set down and 
something that we are watching very carefully as to what has 
occurred since last September when that agreement was reached.
    And the second thing that we do through our dialogues and 
our work through the International Trade Administration, we 
work with China on, you know, I work with different companies 
that have various issues with the Chinese Government, raising 
specific issues as they arise with their government as it 
relates to intellectual property theft.
    And I have been a consistent and strong voice for 
intellectual property protection as it relates to the Chinese. 
It is a challenge.
    Mr. Carter. Well, you know, I come from a world where 
actions have consequences. And it is great to get two heads of 
state to sit together and say, boy, this is really a bad deal, 
this should not be happening. But the next question is, what 
happens if it is happening and what are going to be the 
consequences to the thieves that are stealing the intellectual 
property? And I do not think we get to that level of addressing 
it. And you do not stop bad behavior without having 
consequences of bad behavior.
    And I heard a story from a small, relatively small company 
about how they had grown to the point where they could utilize 
the Chinese market to build their product better, except that 
within 18 months the Chinese had stolen everything they had and 
basically were putting them out of business.
    And, you know, you hear these stories all the time and you 
hear the stories from the big guys who say they are stealing 
our best ideas we have had recently. And having tried, at least 
had a few intellectual property cases filed in my court, 
amazingly enough, what you steal today becomes irrelevant eight 
months from now in some industries, because it is already old 
data or old information. And so the courtroom even does not 
reach the consequence area before everybody says it is not 
worth fighting over.
    They are going over a line on this. We have to do something 
to get their attention or they are not going to stop.
    Secretary Pritzker. Well, the President has also created 
the ability to do sanctions against bad actors who are stealing 
intellectual property of our companies. And so that sits in 
place and the utilization of those sanctions is something that 
the decision to do that resides above my pay grade.
    Mr. Carter. And I understand that. I just hope that we not 
only do that as an example, but let the American public know it 
is an example and we are pointing the finger at people that are 
stealing.
    Secretary Pritzker. I will be sure to share that.

                         CURRENCY MANIPULATION

    Mr. Carter. And in the same scope of relationship, in your 
opinion, how big of a problem is currency manipulation and what 
steps are we doing to limit its impact on international trade 
for the country?
    Secretary Pritzker. Well, you know, currency manipulation 
resides in the Treasury Department, addressing that, I think 
that is appropriate. There is one place where the hammer 
exists, if you will.
    Having said that, the Customs bill, which you I believe 
will get signed into law tomorrow and you all passed, gives the 
Treasury Department and the Administration more tools to deal 
with currency manipulation and it is something that is very 
welcomed, frankly, by all of us in addressing those challenges.
    We at the Department of Commerce particularly would deal 
with currency manipulation if it was brought up as something 
that was viewed as a subsidy, that is technically the way it 
would enter into the Department of Commerce's AD/CVD, our Anti-
Dumping and Countervailing Duty processes. But really most of 
the tools exist and the most useful tools exist at the 
Department of Treasury.
    Mr. Carter. As you deal with industry, do you hear 
complaints about currency manipulation as making an unfair 
playing field for our products and services?
    Secretary Pritzker. To be honest, that is not the big--I 
have heard there are selected industries that have raised that, 
but intellectual property protection is much bigger----
    Mr. Carter. It is a much bigger deal.
    Secretary Pritzker [continuing]. Much broader, of much 
greater concern to our industry.
    Mr. Carter. I agree with that.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.

                    INTELLECTUAL PROPERTY SANCTIONS

    Madam Secretary, there is a common theme here that the 
Chinese have continued to be one of the worst actors in the 
world when it comes to stealing intellectual property, whether 
it be dumping steel or currency manipulation, but I have to 
tell you, we just have not heard enough. I am glad to hear you 
have imposed some tariffs.
    What sanctions has the Administration imposed on the 
Chinese for the theft of intellectual property?
    Secretary Pritzker. I will have to get back to you on that 
and give you an outline of what has been done.
    [The information follows:]

    Strong protection and enforcement of intellectual property rights 
in China is a high priority for the Administration and the Department 
of Commerce.
    We have continued to raise our concerns with the highest levels of 
the Chinese leadership in settings such as the U.S.-China Joint 
Commission on Commerce and Trade (JCCT).
    However, counterfeiting and piracy rates in China remain 
unacceptably high.
    Our colleagues at the Office of the United States Trade 
Representative (USTR) have identified China as a Priority Watch List 
Country in annual Special 301 reports; our International Trade 
Commission (ITC) colleagues have issued limited as well as general 
exclusion orders against multiple Chinese suppliers of patent-
infringing goods; and the Department of Justice (DOJ) has obtained 
indictments against several Chinese state actors involved in the sort 
of cyber theft you highlighted.
    Last year, the President issued the Executive order on ``Blocking 
the Property of Certain Persons Engaging in Significant Malicious 
Cyber-Enabled Activities,'' which targets the threat posed by malicious 
cyber actors Specifically, the Executive Order authorizes the Secretary 
of the Treasury, in consultation with the Attorney General and the 
Secretary of State, to impose sanctions on individuals or entities that 
engage in malicious cyber-enabled activities that create a significant 
threat to the national security, foreign policy, or economic or 
financial stability of the United States.
    I defer to the Secretary of the Treasury on any actions he may have 
taken pursuant to the Executive order.

    Mr. Culberson. My impression is there have not been any 
sanctions. I mean, this is the equivalent of cyber warfare that 
the Chinese have declared on us some time ago and it really is 
about time the United States hammered them back. This is just 
not acceptable.
    When you go to these briefings with the FBI, you discover 
that the Chinese have engaged in the largest theft of property 
probably in the history of mankind. It is an extraordinary loss 
of intellectual property. Mr. Carter is exactly right. Small 
companies, large companies, on a massive scale we are seeing a 
level of intrusion that is absolutely unheard of. They stole 
all the government records on government employees. And if it 
had been semi-tractor trailer trucks backed up to a government 
office loading file cabinets, I think the level of outrage 
would be greater, but that is essentially what the Chinese 
government has done.
    So I hope you gather of course from the questions that you 
have heard from all of us here today that we are counting on 
you and this Administration to respond, whether it be dumping 
steel, theft of intellectual property, protecting the Internet, 
protecting our privacy as Americans from governments around the 
world attempting to interfere in the way the Internet is 
regulated. We need action and we are looking to you to do so, 
and this committee will be aggressively working to ensure that 
that action is taken.
    Mr. Honda.
    Secretary Pritzker. Absolutely understood. Thank you.
    Mr. Culberson. Thank you, ma'am.
    Mr. Honda. Thank you, Mr. Chairman.
    Two quick questions. One has to do with census preparation, 
the other is the Minority Youth Entrepreneurs.
    Could you please talk about some of the budget problems we 
might be seeing a few years from now if the budget for 2020 
census preparation activities were to be greatly reduced below 
the requested level for fiscal 2017 and what cost-saving 
innovations for the next decennial census might not be 
achievable under a greatly reduced budget.
    And then the other question would be Minority Youth 
Entrepreneurs. The Department's request for the Minority 
Business Development Agency contains a new $3.6 million 
initiative focused on business innovation for young 
entrepreneurs. Madam Secretary, could you please describe the 
ways in which you anticipate this initiative will help enable 
young entrepreneurs to create jobs and spur innovation in the 
economy?
    Secretary Pritzker. Absolutely.
    So let me talk first about the 2020 census, which is at a 
very critical phase, as we are all aware. Our commitment is to 
try and save $5 billion, but in order to do that we have to 
spend money. And this is one of the critical years and that is 
why we have asked for a significant increase for the Census 
Bureau to $1.6 billion.
    We released an operating plan for the census in October, 
that is three years ahead of what the 2010 cycle is. In our 
operating plan we detail what we are going to do and the 
milestones that we set out for ourselves for all of us to know 
whether we are on track or not to have a 2020 census the way we 
want.
    And the thing about the 2020 census is we are trying to do 
four main things that are new. First is use administrative 
records. And if we want to use administrative records and we 
have gotten great access to many, many records, some of which 
though we would like to get access to that need legislation, 
but many that we have gotten, we have got to test the efficacy 
of using administrative records. We cannot just use them and 
hope that it is going to give us an accurate census.
    The second is we are re-engineering the field operations to 
be more efficient, so that when we send people into the field 
we know that there actually is someone at the other end of the 
doorbell to answer the door.
    The third is we want to collect more information over the 
Internet. As you can imagine, we need to make sure it is 
secure, we need to make sure we know the person who is 
responding is the person they say they are. And so there is a 
lot of testing that has to go on with that.
    And, fourth, we have to have a communications plan with the 
American people that explains here is how the census is going 
to work in 2020. So there are a lot of things that need to be 
tested this year before we can do what we call an end-to-end 
test which has to be done in 2018 in order to lock down the 
census for 2020, make any final adjustments and lock down the 
census for 2020.
    So this year, one of the things that we'll do is a very 
significant test in both Houston and in Los Angeles and we will 
also test-- we decided not to use the bring-your-own device but 
instead we are leasing devices where we're going to control the 
operating systems being used. All the software is our software, 
but this way we will also be able to control the operating 
systems that are being used.
    So there is a lot that is happening with the census. The 
other thing that is important that we need to spend money on 
now is we are putting in place the technology and the systems 
to be able to assimilate all the information that we are taking 
in. That has to be completed and tested also now so that we 
know that that works at the time of the 2020 census.
    So I think to date we are meeting our milestones. We work--
my deputy is briefed monthly on where we are at. I feel that we 
are very--and I am briefed, you know, no less frequently than 
quarterly on exactly where we are at. So we are very much on 
top of it, we know what is at stake, but we need the money to 
be able to actually execute this year. So it is a very 
important year for the census.
    As it relates to MBDA and your question about MBDA, we have 
proposed to add two programs. First is the minority--program 
for minority young entrepreneurs which is really--what we know 
is from research. If there are minority run enterprises in a 
community, there is less crime. So we need more minority run 
businesses in the communities that are having the biggest 
challenges.
    So what we want to do is add youth business innovation 
centers in different communities. We want to have lab-to-market 
forums. We want to have venture capital forums in parts of our 
country that have received less attention as it relates to 
entrepreneurship.
    So it is very exciting. It would be a Federal grant program 
that we are proposing and one that we spent a lot of time 
crafting. And one that, frankly, given the unrest in places 
like Ferguson and Baltimore, I think have the opportunity to 
help more businesses spring up in those neighborhoods.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Madam Secretary, we appreciate your service 
to the country. In conclusion, we will be following up and 
deeply appreciate your attention as we discuss making sure we 
are protecting American industry, making sure that we are 
keeping the Internet safe and secure against cyber attack.
    And the Founding Fathers entrusted--one of the most 
powerful checks and balances we have in our Federal system is 
the power of the purse, and over the decades Congress entrusted 
that authority to the Appropriations Committee and it was in 
turn entrusted to the subcommittee chairman. And as the new 
chairman of the subcommittee, the new rule is, for every agency 
under our jurisdiction, if you want access to our hard-earned 
tax dollars, follow Federal law as enacted by Congress and that 
will be true of all the agencies as well as the grant 
recipients. That is why I will be paying particular attention 
to sanctuary cities, for example. If they want access to our 
hard-earned tax dollars, they are going to have to follow 
Federal law.
    We will work hard with you to make sure that we give you 
the resources you need to fulfill the mission that you have, 
but we really want you to be aggressive in protecting American 
industry and protecting the privacy and security of Americans 
in this digital age as Mr. Carter just pointed out because the 
Chinese are engaged in cyber warfare against the United States. 
They have stolen virtually every piece of intellectual property 
in this country and it's just unacceptable and it has just got 
to stop.
    And we will work with you to make sure you've got the 
resources you need, but we will also be exercising aggressive 
and good stewardship and working with you in a cooperative way 
using the power of the purse entrusted to the Congress by the 
founders. And we deeply appreciate your service to the country 
and thank you very much for appearing to us today and the 
hearing is adjourned.
    Secretary Pritzker. Thank you.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
    

                                           Thursday, March 3, 2016.

                              OCEAN WORLDS

                                WITNESSES

DR. CHARLES ELACHI, DIRECTOR, JET PROPULSION LAB
DR. JONATHAN LUNINE, DIRECTOR, CORNELL CENTER FOR ASTROPHYSICS AND 
    PLANETARY SCIENCE
    Mr. Culberson. The Appropriations Subcommittee on Commerce, 
Justice, and Science will come to order. I would like to 
welcome our two distinguished panelists, Dr. Charles Elachi, 
the Director of Jet Propulsion Laboratory; and Dr. Jonathan 
Lunine, the Director of the Cornell Center for Astrophysics and 
Planetary Science. We are very pleased to have you here with us 
today to talk about the future of one of the most exciting 
areas of looking into the future of space exploration, the 
Ocean Worlds program that this committee put in place in last 
year's bill to open up new frontiers in the search for life 
where it will be the most, I think, promising. And we are going 
to discuss that with you today and I appreciate so much your 
taking the time to be with us.
    I understand Dr. Elachi, we want to keep your testimony to 
a minimum, because we do not want you to get complete 
laryngitis. Dr. Elachi is being honored tonight. We want to 
make sure he has got enough voice for your acceptance speech 
tonight.
    We live in an extraordinary time where the scientific 
community has revealed to the world that there are as many 
Earth-like planets as there are stars in the sky. The amazing 
discoveries that Kepler has made to discover not only Earth-
like planets but solar systems everywhere we look and the 
possibility for life on those other worlds and indeed within 
our own solar system has become very, very real. So today we 
are here to talk about that search for life beyond Earth, the 
search for Earth-like planets, the need to develop next 
generation rocket propulsion to enable us to reach the outer 
solar system more rapidly and lay the foundation for 
interstellar travel so that our children and grandchildren will 
actually have the reality of being able to reach Alpha Centauri 
and beyond.
    I particularly want to welcome our first witness, Dr. 
Charles Elachi, the Director of the Jet Propulsion Laboratory 
who it has been my privilege to know and work with ever since 
we first met in 2004 at the Mars Opportunity landing in January 
of that year. Over the years, as I have gotten to know Dr. 
Elachi and work with him, I have come to see that I think quite 
frankly that the Jet Propulsion Laboratory is the gold standard 
for NASA flight centers. The work that you do is extraordinary. 
The way that Cal Tech and JPL work with NASA is I think a model 
that I would like to see replicated at other flight centers 
around the country. Your collaboration with the National 
Science Foundation and MIT has most recently led to a 
confirmation of a theory that Albert Einstein came up with a 
hundred years ago about gravitational waves, something I am 
looking forward to getting briefed on when I come visit you 
again in the near future.
    The discoveries you have made are just absolutely 
extraordinary. JPL in particular, NASA has developed with JPL 
taking the lead and creating mankind's first interplanetary 
data relay system with the constellation of satellites and 
landers that you have in place around Mars. And it is just 
absolutely extraordinary. The Opportunity lander, in fact, that 
I was there with you in January of 2004, is still thriving and 
doing well after all these years making great discoveries.
    I want to make sure the committee is aware, Dr. Elachi has 
just announced his retirement. Your successor will be in the 
same position, I think, that Thomas Jefferson was when he 
discovered that Benjamin Franklin was retiring as the American 
Minister to France. Someone asked Mr. Jefferson about replacing 
Dr. Franklin, and he said, ``No one can replace Dr. Franklin. I 
can only succeed him.'' And your successor will be in the same 
position, Dr. Elachi. Your contributions to the country, to the 
exploration of outer space, and to pushing the frontiers of 
human knowledge are just absolutely unparalleled and it has 
been a great privilege for me to get to know you and work with 
you, and the great team that you have got there at the Jet 
Propulsion Laboratory. And your successor is also going to have 
to manage, as you do so beautifully, to pull off not only 
weaving together all of the scientists, the engineers, but 
being able to work with elected leadership. And you know you 
will have the support of this committee. And your successor 
will have the same level of support that you have always had.
    I want to be sure also to welcome and thank Dr. Lunine for 
being with us today, who is the David C. Duncan Professor in 
the Physical Sciences and the Director of Cornell's Center for 
Astrophysics and Planetary Science. And you have a particular 
interest, I know Dr. Lunine, in how planets form and evolve, 
what processes maintain and make habitability possible, and 
what kind of exotic environments might host the chemistry that 
would be consistent with the evolution of life in one, maybe in 
the form that we know and perhaps in others. I would be 
interested to hear your thoughts on that.
    We have in our bill, the 2016 appropriations bill and in 
previous bills, made certain by law that NASA is going to fund 
and fly the mission to Europa that the planetary decadal survey 
recommended last decade as a top priority, and then this decade 
as a priority right there with the Mars cache mission. And we 
have made that mission a top priority because it is the top 
priority of the decadal survey but also because it holds the 
greatest promise for discovering life on another world. And I 
want to discuss that and how important that mission is and why 
that moon of Jupiter is the place we will most likely, in your 
opinion, find life on another world in our own backyard.
    NASA is uniquely positioned to explore our universe. It is 
the only government agency that pushes the boundaries of our 
knowledge by sending humans and machines beyond Earth to 
explore and discover. NASA's image among the American people is 
so positive and so high that the only other function of the 
government that even comes close to them is the United States 
Marine Corps in a wonderful nationwide survey that I saw, of 
when you think about the government which agency of the 
government has the greatest recognition and positive feeling. 
It is NASA and the United States Marine Corps.
    But unfortunately once again the Office of Management and 
Budget has given us a 2017 request that cuts the planetary 
science budget; that cuts NASA below the level funded by this 
committee and the Senate. Very disappointing and aggravating. 
It is why we included language in the financial services 
portion of the bill that makes it clear that the agencies of 
the Federal government have to follow the appropriations bill 
and they cannot follow the budget. So it is important for you 
to communicate to your colleagues that they should just frankly 
ignore the budget recommendation. Do not be concerned, do not 
be alarmed by what they read in the budget. Follow what is in 
the appropriations bill. My good friend Mr. Honda and Mr. 
Fattah and the members of this subcommittee are going to make 
sure that we take good care of the scientific community and 
NASA.
    The decadal survey in my mind has always been the gold 
standard that NASA should follow. They do a superb job of 
prioritizing missions, having the scientific community experts 
get together, and decide which missions are the most important 
and then they prioritize them. And if I could just take a 
moment before I wrap up and recognize my good friend and 
ranking member Mr. Honda, the decadal survey for 2013-22 states 
in relevant part that, ``if NASA's planetary budget is 
augmented then the program will also carry out the first in 
depth exploration of Jupiter's icy moon, Europa. This moon with 
its probable vast subsurface ocean sandwiched between a 
potentially active silicate interior and a highly dynamic 
surface ice shell, offers one of the most promising 
extraterrestrial habitable environments in the solar system and 
a plausible model for habitable environments outside of it. The 
Jupiter system in which Europa resides hosts an astonishing 
diversity of phenomenon, illuminating fundamental planetary 
processes. While Voyager and Galileo taught us much about 
Europa and the Jupiter system, the relatively primitive 
instrumentation of these missions and the low volume of data 
returned left many questions unanswered.''
    The decadal survey goes on to say, ``Major discoveries 
surely remain to be made. The first step in understanding the 
potential of the outer solar system as an abode for life is a 
Europa mission with the goal of confirming the presence of an 
interior ocean, characterizing the satellite's ice shell, and 
enabling understanding of its geologic history.'' My 
colleagues, Ocean Worlds, and in particular Jupiter's moon 
Europa, hold many extraordinary discoveries that are yet to be 
made. We now know of course about the ocean of Enceladus, and 
we want to be sure we hear a little bit about that as well.
    But in particular I would like the witnesses to focus on 
the importance of the Europa mission and why it is so critical 
that we go to Europa, and what we are likely to discover there, 
and what type of launch vehicle we want to use.
    But before we proceed I would like to recognize my good 
friend Mr. Honda for any remarks that he would like to make.
    Mr. Honda. Thank you, Mr. Chairman. And can you be a little 
bit more excited about this hearing, please? You can tell. It 
is just like Christmas Eve.
    I want to thank you, Mr. Chairman, and thank you, Dr. 
Elachi, and Dr. Lunine for joining us this morning to testify 
on this very exciting topic. And it is really an amazing time 
to be alive.
    We are living for the first time in human history where we 
have the technological ability to actually seek out and find 
signs of life beyond Earth, and it is like science fiction. And 
here we are today actually discussing the NASA missions that 
will do just that. It is truly inspiring. And from the hundreds 
and hundreds of planets around distant stars discovered by the 
Kepler telescope, to the discovery of flowing waters down a 
crater on Mars, to the discovery of the prevalence of liquid 
water on at least half a dozen of the moons of Jupiter and 
Saturn, the last decade has been filled with tantalizing 
scientific discoveries that are screaming for astrobiologists 
to go exploring. It sort of sets the stage for that movie ``The 
Martian''. And that is exactly what we are going to be doing.
    Second perhaps only to my chairman is my excitement for 
NASA to forage out into our outer solar system and begin a 
series of missions to explore the water covered moons of 
Jupiter and Saturn, the so-called Ocean Worlds, and seek out 
the signs of life. It is time to have missions that are 
dedicated to searching for the clues and signs of life that may 
have evolved in these alien worlds.
    Missions to Jupiter's Europa are just the first steps. 
Saturn's moons of Enceladus and Titan are also calling out to 
us as we search for life beyond Earth and seek to understand 
the potentially habitable environments of other worlds. And we 
are not talking about a one and done Europa mission, but 
instead a series of missions to the Ocean Worlds to probe their 
environments to see if it is habitable and potentially harbors 
signs of life. The extreme diversity and resilience of life on 
Earth has shown us that wherever there is water, organic 
compounds, and energy, there is life. Each of these Ocean 
Worlds have these three prerequisites for life and I guess we 
need to know does this mean life may have developed there? Or 
do we have neighbors? Or is there more to life forming than 
just having the ingredients as we understand them today?
    I am excited to play witness as we journey out and see what 
bizarre and magnificent discoveries await us on Europa, 
Enceladus, Titan, and the Ocean Worlds. And truly for someone 
like me, who was here before television, when radio was just a 
crystal, that to go beyond the confines of this planet and 
watch these kinds of things unfold is really a privilege to be 
part of this process. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Honda. I feel the same way, 
as I know Mr. Fattah does. And all of us on the subcommittee 
are extraordinarily supportive of the work that you do. Dr. 
Elachi, Dr. Lunine, we are glad to have you with us today. And 
we will start with you, Dr. Elachi. And of course, without 
objection, your written statement will be entered into the 
record in its entirety and we encourage you to summarize, 
particularly in light of the fact that we do not want you to 
lose your voice entirely. But thank you so much for being here, 
and Dr. Elachi, you are recognized.
    Dr. Elachi. Thank you, and Chairman Culberson, Ranking 
Member Honda, distinguished members of the subcommittee. Let me 
start by apologizing about my voice. My doctor's prognosis is 
that I talk too much. But that is not stopping me, to come and 
talk to you here. And it is a great honor for me to have this 
opportunity to talk to you about exploration of life in the 
Ocean Worlds.
    Just thinking about it, that for thousands of years our 
ancestors looked up into the sky and wondered if there was 
life. And for the first time in human history, and I will 
repeat what I said, the first time in human history we know how 
to do that. We have the technology and the capability to 
explore for life in our solar system and beyond. And it really 
depends on us. It depends on you as our leaders and policy 
makers, and it depends on us as the technical people, we at 
NASA, in academia, and in industry.
    In addition we know where to look, and I am going to touch 
on two locations and my friend and colleague Professional 
Lunine will touch on two other locations. First let me talk 
briefly about Mars. With Spirit, Opportunity, Curiosity and the 
spacecraft we have in orbit, we are convinced now on scientific 
grounds that actually there used to be oceans on Mars in the 
past. And then with the changes of the climate on Mars, the 
water is frozen now. And the key question is always the ocean 
in the past. And based on Curiosity's measurement, Mars has all 
of the ingredients that exist on Earth, could life exist? And 
that is what we are doing through our Mars program, looking for 
past life, on Mars.
    And as you know we have Mars 2020, which is preparing with 
biological instruments to look and collect samples so they can 
be brought back to Earth in the following decade. And NASA in 
the budget has something that was called Mars precursors, which 
basically is to prepare for that era. To have the orbiting 
satellites that are needed and to look at how do we bring those 
caches back, how do we explore and prospect for ice in 
preparation for a human mission?
    As was mentioned about ``The Martian,'' one thing I like 
about ``The Martian,'' that that could happen during my 
children's lifetime. And NASA is putting in place all of the 
elements which could enable us to explore, that planet.
    Now the reason we are in such a good shape in Mars is 
because NASA developed a well thought-out integrated program, 
and that is the kind of program we need to do the exploration 
of the Ocean World, in the outer solar system. Now based on 
Voyager and Galileo data, we do know that Europa has an ice 
shell, H<INF>2</INF>O ice, it is water ice, like I am drinking 
here. And it has an ocean below the surface which has enough 
water, which is two to three times the water which is on Earth 
here. Now you would say how could that be? It is so cold out 
there. How could there be liquid water in that location? Well 
it turned out as these satellites, like Europa, go around 
Jupiter, which is a very heavy planet, it is about 300 times 
the mass of Earth, it creates tides exactly like what happens 
with our Moon. So over millions of years that tide has been 
pumping that ice back and forth, and that is what leads to 
generation of heat. So there it has the right ingredient, where 
you have liquid water today. It had organic material, and there 
is energy coming from the tide. So it has all the ingredients 
that life could exist today. Not in the past.
    Now in order to successfully look at that life I think we 
need basically to land on the surface, melt our way, and get 
down to that ocean. Now we cannot do that today because there 
are a number of things that we need to learn before we can do 
that ultimate mission. So in order to be successful I think 
there are three elements that need to be done in the near 
future. One is to have an orbiter which will map the surface of 
Europa at very high resolution and sound through that ice so we 
can determine how thick it is. And that is what NASA is 
planning, a Europa mission that through your direction, NASA 
and the decadal, NASA today has instruments selected, we are in 
phase A, and I think we are progressing, with that mission.
    The second element is to put a modest lander on the surface 
so we can determine the characteristics of that ice. So between 
the combination of the sounding which tells us how thick and 
the lander which tells us the characteristics of that ice that 
will prepare us in the future to put a Europa ocean explorer to 
melt our way and go below the surface.
    NASA has started that activity based on your direction. 
Just a couple of days ago they requested from the science 
community for people who are interested to be on a science 
definition team to work with us on defining scientifically what 
should be the payload. And that lander will capitalize very 
heavily on what we have done on Spirit, Opportunity, and 
Curiosity in the technological technique of how do we land with 
a sky crane. And it looked very much like some of that 
technology that we have developed before. So we are very 
confident technologically that with appropriate funding that 
mission could be done at an acceptable risk.
    And the third element is to have a technology program which 
will support from now, start to think how do we melt our way, 
how do we create a submarine? So by having these three 
elements, I am confident that we can explore the oceans of 
Europa in the foreseeable future.
    Now the next key question is how do you launch it? How do 
you get there? And here there are a number of possibilities we 
are looking at. Clearly today we have heavy launch vehicles. 
Those heavy launch vehicles would take at least seven to eight 
years to get us to Jupiter. And that is what happened on 
Cassini. What we have to do is to launch, do a series of fly-
bys by Earth to get enough energy to get there. Fortunately 
NASA is developing the SLS. With the capability of the SLS we 
can get directly to Jupiter in about two and a half years. That 
is a huge difference, and to some extent cost saving from the 
point of view of operation. And then you can have combination. 
Depending on how heavy the lander is if we cannot go direct we 
can go and do one fly-by by Earth and then head to Jupiter and 
that takes about four years.
    So as we speak today we are looking at all these different 
options. Now fortunately what is elegant about our approach is 
you do not have to wait to decide what launch vehicle and when 
until another 2 or 3 years. So we can move ahead on the 
development of the orbiter and the lander and then over the 
next 2 to 3 years, as we know the availability of these launch 
vehicles, their cost, then we can work with NASA, I am sure 
they will come to you, with what is the right combination of 
SLS and the traditional launch vehicle.
    So let me close by a quote that I would like to mention 
from President Teddy Roosevelt, because such a program is 
challenging. We are going to have successes and we are going to 
have failures. But mentioning, let me repeat, and I am quoting 
what he said it is ``far better to do mighty things, to win 
glorious triumphs even though checkered by failure, than to 
rank with those timid spirits that know neither victory nor 
defeat.'' The exploration of the Ocean Worlds is one of the 
mightier things that our country can do and we sure are not 
going to be timid. Thank you very much.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    Mr. Culberson. Thank you, Dr. Elachi. Dr. Lunine.
    Dr. Lunine. Thank you, Chairman Culberson, Ranking Member 
Honda, and members of the subcommittee. It is a wonderful 
opportunity to present my views on the search for life in the 
Ocean Worlds of our solar system but I am going to keep my 
remarks brief because the chairman and ranking member so well 
summarized why it is we want to go to each of these worlds.
    But I do want to say that I personally feel passionately 
patriotic and proud of what our nation has accomplished in the 
exploration of the solar system. And I feel humbled personally 
to be a scientist participating in one of the greatest space 
odysseys ever undertaken, the Cassini mission to Saturn. This 
is an extraordinary voyage of discovery with which I have been 
involved essentially in the planning stages, when I was a 
graduate student, up to today. And this mission truly 
exemplifies the remarkable things that this nation can do, and 
in particular the remarkable things that the Jet Propulsion 
Laboratory, ably led by my friend and colleague, has been able 
to do over the years. These are historic missions and their 
impact is historic as well.
    So both Cassini and its antecedent to Jupiter, the Galileo 
orbiter, have provided incontrovertible evidence that there are 
salt water oceans underneath the icy surfaces of three moons of 
the outer solar system, Europa at Jupiter, Enceladus and Titan 
at Saturn. And on Titan, Cassini has discovered vast seas of 
hydrocarbon liquids, methane and ethane, essentially hundreds 
of times more hydrocarbons than the known gas reserves on the 
Planet Earth.
    Now Dr. Elachi has talked already at length about Europa 
and so I am not going to discuss that. But I want to make sure 
that everyone understands that I too find the exploration of 
Europa and the search for life there a top priority. So I am 
happy to answer questions about Europa.
    But I will press on to Titan, which is larger than the 
Planet Mercury, the only moon to host a dense atmosphere of 
nitrogen and methane. Cassini and the European lander that it 
carried with it, Huygens, have revealed a methane hydrologic 
cycle, with clouds, rain, river valleys, vast seas, all 
involving methane and all going on in an unimaginably frigid 
environment. And yet Titan's surface has all of the formal 
requirements for life: abundant organics, liquids, and sources 
of energy. But because that liquid is not water we have to ask 
the question is this really a place that we want to go look for 
life? It would have to be very exotic life. But a 2007 National 
Research Council study in fact said that we should. And it said 
that Titan is a test for the universality of life as an outcome 
of cosmic evolution. So if we are going to look for life in 
those seas, the best way to do that is to land a capsule, float 
across the surface. That would be the first maritime 
exploration of an alien sea, which in and of itself would be an 
extraordinary adventure.
    Now let me move on to Enceladus. Enceladus has not 
surprised scientists; it has completely shocked us. It is a 
very small moon and yet it has a plume of material pouring out 
into space from a series of fractures in its south polar 
region. And it was Cassini that discovered this plume of icy 
grains and vapor and then flew through that plume seven times, 
surviving each time. Thanks to the prodigious capability of its 
instruments, its chemical sniffers, Cassini has found not only 
water ice and water vapor, but also organic molecules, salt 
dissolved in the water, tiny grains of silica, all indicators 
that inside Enceladus, down in this small, liquid water salty 
ocean, is a hydrothermal system. A place in which water, 
organics, and minerals are heated together in the kind of 
chemical stew that many scientists think was the place where 
life began on Earth 4 billion years ago.
    And there really is a subsurface ocean. Cassini is so 
powerful in terms of its scientific capability it has detected 
the presence of the ocean in two completely independent ways. 
And so if you look at all of the requirements for terrestrial 
type life, liquid water, organics, minerals, energy, chemical 
gradients, Enceladus has it all. And all that stuff is pouring 
out into space. It is not hidden beneath the surface. And so as 
far as we understand it today Enceladus provides us with the 
most straightforward way to look for signs of life, given the 
compelling evidence that much of the gas and the grains are 
being expelled from the interior ocean.
    So let me make this very clear. To sample the plume of 
Enceladus is to sample the ocean beneath the surface. So merely 
flying through the plume, as Cassini has done, but with 
instrumentation more modern then Cassini's, is sufficient to 
search for signs of life. And this can be done for well below 
the cost of a flagship mission and it can be done with 
instruments available for flight today.
    So let me summarize by saying that discovering life on or 
within the Ocean Worlds of our own solar system may provide 
unexpected and as yet hard to predict practical benefits, 
something that Carl Sagan pointed out many decades ago. But 
more profoundly it will inevitably direct our attention to the 
Milky Way Galaxy beyond the confines of our own planetary 
system. If life can begin two or three or four times in our own 
solar system, then the number of planets in the galaxy as a 
whole that harbor life must be enormously great. And then how 
could we resist taking the leap beyond our solar system to 
explore the vast spaces between the stars for life there?
    Thank you very much for the opportunity to talk to you 
today.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
   
    
    Mr. Culberson. Thank you, Dr. Lunine and Dr. Elachi. And I 
know my colleagues have questions. It is extraordinary, is it 
not? We have, the Congress, both Republicans and Democrats 
alike, strongly supported NASA and its mission. One of the most 
gratifying things we get to do, is to help you seek out new 
life and discover these incredible new worlds. And I have, in 
our bill this year we funded, NASA has the largest 
appropriation they have ever received since the start of the 
agency in 1958 and we have got planetary science funded at a 
level of $1.63 billion this year. What level of funding in your 
opinion, Dr. Elachi, will be necessary in the 2017 bill to make 
sure that we stay on track? That the planetary science 
community has the resources they need to achieve the objectives 
of the decadal survey, both for this flagship mission to Europa 
and the new frontiers and Discovery class missions?
    Dr. Elachi. Well I think that is a better question to ask 
for NASA. But clearly it all depends on when do you want these 
missions to happen? So from my experience, based on Cassini and 
other missions, typically it takes us 6 to 7 years after the 
selection of the payload to actually be ready to be on the 
launch pad. And in the case of the orbiter or the fly-by, those 
were selected a year ago. So you can add 6 to 7 years to it. In 
the case of the lander, it heavily will depend on the payload 
selection data. So a critical element before we can tell you 
really the detailed cost is the payload selection.
    Mr. Culberson. But we are on the right track? This funding 
level that we are on now, you have got what you need so far?
    Dr. Elachi. Well clearly depending on when you want it. If 
you want to launch in the early twenties, the present level is 
not sufficient to do that. I am sure we can provide you with 
with a more accurate number for it. But I think it is 
appropriate for NASA now. For the total cost of the mission, as 
you know, NASA makes a commitment when we do the KDP-C, which 
is a decision that it makes when we start in the 
implementation. And those will be coming up in the next couple 
of years. But we can use as a reference the Cassini mission, or 
the Mars 2020 mission. Because those are well known missions of 
similar class to what we are talking about.
    Mr. Culberson. You know when Neil Armstrong first set foot 
on the moon, that is an extraordinarily important and important 
milestone. But the discovery of life on another world I think 
will be another one of those transformational moments in human 
history that when that occurs will encourage the entire, it 
will galvanize the country and the world and certainly 
encourage the nation to take NASA even further, funding levels 
that you will need to make sure the American space program is 
the best in the world. And that is actually another reason I 
have been so enthusiastic about this mission is that it holds 
the greatest promise for that first discovery of life on 
another world which will then enable the entire country to get 
behind NASA with the funding levels that you need to do what is 
necessary to keep the American space program the best in the 
world.
    But for this mission to succeed, Dr. Elachi, I wanted to 
ask you about the launch vehicle. Talk to us, if you could, 
about the importance of using SLS for the Europa mission. And, 
can you talk to us a little bit about whether or not it will 
require one or two SLS missions? For example, one for the 
orbiter and one for the lander. Can you talk just a little bit 
about it?
    Dr. Elachi. Sure. No, I would be glad to address that. As I 
mentioned earlier with the EELVs, the present launch vehicle, 
it takes at least 7\1/2\ years to get to Jupiter because we 
have to do a series of fly-bys. With an SLS we can do it in two 
and half years. And that would lead to, even if SLS might be 
more expensive, but it would lead to savings of five years of 
mission operations. So the trade will need to be looked at.
    Now we are looking at having the orbiter and the lander as 
two separate spacecraft. And there are different ways you can 
launch them. You can put them both on one SLS, but because that 
will lead to a heavy payload that still will require to do one 
fly-by by Earth. So that will take us, then it will add one or 
two years to the mission. Or you can launch them separately on 
two SLS. And then in that case you can get much faster to 
Jupiter. So over the next few months at the request of NASA we 
are going to look at all these different combinations, one SLS, 
two SLS, EELVs, and provide NASA technically how long it will 
take us to get there and when would we will be able to land, 
but also cost-wise, what are the trades. So we should be able 
to get back to you over the next few months with that trade.
    Now as I said earlier we do not need to decide today what 
launch or what kind of configuration. We can wait about two 
years before we do that. But no question the SLS or any 
equivalent there is the Falcon 9 Heavy, will revolutionize how 
we explore the outer solar system. It will make a huge 
difference when you send a mission to wait seven years and 
analyze the data before you plan the next one, versus one where 
what you have to wait is two years. So no question, the SLS 
will be a game changer in this area.
    Mr. Culberson. Thank you. They are going to call votes 
between about 11:20, I understand, and 11:30, so I want to move 
on to my--oh, excuse me, 11:30 and 11:50. So we do have a 
little more time. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. Dr. Elachi, what are 
the primary science goals of the Europa orbiter and related 
missions? And is astrobiology and biomapping part of the stated 
NASA objectives?
    Dr. Elachi. Let me briefly answer it, but my colleague here 
is smarter than me when it comes to astrobiology. The orbiter, 
which has the payload selected already, will do very high 
resolution mapping of the surface, will look at the composition 
at the surface with spectrometers, and will allow us to sound 
through the ice so we can determine how thick is that ice. And 
with the gravity measurement will be able to determine the 
characteristic of the ocean, how thick that ocean is. So it 
will provide us all of the ingredients that are needed to start 
planning for the next step with the measurements that the 
lander will get by making in situ measurement of 
astrobiological components as well as the characteristic of 
that ice. So let me, with your permission let me turn it to 
Jonathan. He is smarter than me.
    Dr. Lunine. Well I am not sure I would agree with that 
statement. But the Europa fly-by mission is very, very well 
instrumented to address astrobiology goals. And in fact within 
the organization of the mission itself we have what is called a 
habitability working group to look at how these instruments can 
address those goals. And so there is an instrument that will 
look for organics on the surface that might have been deposited 
from the interior. We must understand whether Europa has carbon 
bearing compounds, organic molecules. We do not know that today 
and that is a key ingredient for habitability because that is 
what life as we know it is made of. And there are two 
instruments, mass spectrometers, that will actually sample 
Europa material directly on the fly-by spacecraft. If there is 
a plume, they will sample material in the plume. If not, they 
will actually sample material that has been deposited on the 
surface that gets bombarded by micrometeoroids and is then 
lofted into the atmosphere. And both of those instruments can 
measure the composition, look for organics as well, and even 
possibly look for clues that there might be a hydrothermal 
system in Europa's interior. So I think we are going to get a 
great deal of information on the habitability of Europa just 
from the fly-bys themselves, and then a lander of course would 
provide in situ information to add to that.
    Mr. Honda. OK. So this may be the same question in a 
different way, though. So if life detection is one of these 
goals, how will all of this be accomplished by a potential 
Europa orbiter mission without a secondary mission or landers? 
And how likely are we to learn something from an orbiter 
mission that will affect what we would want to know with a 
lander, both guide where we would want to land and with what 
type of craft as well as the instruments to put on the lander? 
And then I understand for decades NASA and JPL have 
successfully explored planets and their moons through a three-
step strategy of fly-by, followed by an orbiter, and then 
followed by a lander. I have heard this described in your 
testimony. Each step on this journey builds on the knowledge 
gained through previous missions, which you have explained. 
This is designed to maximize the science return at each step 
while minimizing the scientific and technical risk to 
spacecraft, landers, and rovers. With respect to a Europa 
mission concept involving a lander, what provides the 
confidence that we would know enough about the Europa surface 
to ensure that a lander will be placed on a scientifically 
compelling and safe site on the icy surface?
    Dr. Elachi. OK let me----
    Mr. Honda. I know it is a lot of information, but I was 
just trying to put it all together so I can conceptually 
understand.
    Dr. Elachi. OK. Now, I think our strategy is the orbiter 
will get to Jupiter before the lander and it will survey the 
area, image it at a very high resolution, identify the area of 
interest. And the lander, even if they are launched on the same 
launch vehicle
    We would put the lander at the high altitude orbit to 
protect it from radiation, wait until the orbiter maps the 
surface, then we will zoom in and come down. Nothing will 
replace in situ measurement. There will be always uncertainty 
until you actually grab some of that ice and measure it in a 
mass spectrometer. The additional thing we need to be thinking 
about is we need to learn how to land on Europa for the 
ultimate mission where actually we will have to drill. So this 
lander that we are talking about will have a great scientific 
value, but also it will have the value of learning how to land. 
That is what we did on Mars. First we landed Pathfinder, then 
we drove a little bit, then Opportunity, and then Curiosity. So 
I think we have enough information that we do not have to wait 
for a mission to be completed before you get to the next 
mission. We have worked a strategy that you can do it on a much 
faster time.
    Dr. Lunine. Yes. And then just very briefly, Congressman 
Honda, there is a very important distinction that has to be 
made between habitability and looking for life itself. And in 
the case of Europa we are still at the stage of determining 
whether Europa is habitable. The saltwater ocean indeed seems 
to be there. But what we still do not know yet is whether there 
are organic molecules. In Europa it is possible that there were 
never any, or they have all been essentially exsolved into 
space in some way. So that is crucial. And then the whole issue 
of whether there are hydrothermal systems at the base of the 
ocean to generate the gradients in energy that life would need, 
we need the clues again from the minerals that might be coming 
out of plumes that might be deposited on the surface. So the 
mission as it is constructed today will really address the 
habitability of Europa. And if those indicators are positive 
then going after the question of whether life actually exists 
there becomes the primary goal at that point.
    Mr. Culberson. Thank you. Mr. Jolly.
    Mr. Jolly. I see they rang for votes. I will be very brief. 
I know this is a priority of the chairman so I want you to have 
as much time as possible. The chairman has been very helpful to 
me in the Gulf of Mexico and making sure we know how to count 
fish, so I am happy to support your initiatives here in space. 
My only question is in these oceans you are finding are there 
any red snapper in them?
    But look, we have the right chairman, the right ranking 
member on these issues on right now. I am excited to support 
what you are doing. So thank you all for being here today. I 
appreciate it.
    Mr. Culberson. Mr. Fattah.
    Mr. Fattah. Thank you. It is always with mixed emotions, 
your retirement is both well deserved but your leadership has 
been extraordinary. I visited the Jet Propulsion Laboratory. I 
was on the floor with you when the Mars Rover landed on the 
surface and it was an extraordinary success for the Jet 
Propulsion Laboratory and for NASA, for our country, and for 
science worldwide. So I want to congratulate you on all your 
hard work and your success at the laboratory, and wish you well 
on your next endeavor. I am sure there is a second act or a 
third act here.
    But I wanted to ask you a couple of questions. Given the 
fact that you are stepping off the stage, if you could give the 
committee some reflection on, you know, we at one point had a 
lot of back and forth. It was pretty lonely in advocating for 
commercial crew and commercial cargo in the space technology 
portion of the NASA budget. Because there was a lot of buy into 
what we might call the old NASA, right? And so there was this 
big tug of war that has now been settled and we have a robust, 
competitive, I think, commercial crew operation. So let us just 
talk about, so it really puts NASA and the Jet Propulsion 
Laboratory in the position to focus in on exploration. So if 
you could give us a few minutes on your thoughts about where we 
are in terms of the decision package around these issues that 
would be helpful.
    Dr. Elachi. OK. Sure, I would be glad to do that. Let me 
first start by saying I am retiring from being the JPL Director 
but I will be Professor at Cal Tech, which I am presently. So I 
will stay engaged. I mean, I spent 40 years on this amazing 
quest of exploration. So I will continue to be engaged in that 
one.
    Now on your second one, I think it is like every time NASA 
develops a capability we need to turn it over to the commercial 
sector so they can make a business out of it. That has happened 
on telecom satellites, GPS. And NASA to be exploring the next 
frontier. That is what our agency should be doing and I think 
that is what our agency is focusing on doing. So I think the 
commercial sector, particularly in the launch area, should be 
able to support that activity so we can spend our effort either 
on a more capable launch vehicle, like the SLS, or an exploring 
mission, like Europa.
    Now talking a little bit on technology, I want to add one 
statement. When we landed Curiosity, of course I was proud of 
the landing of Curiosity, and we were delighted that you and 
your daughter----
    Mr. Fattah. Yes.
    Dr. Elachi [continuing]. Were there. But what I was 
particularly proud of is all over it was written Made in the 
U.S.A. Because almost every piece of it, we do not import this 
stuff. We actually build it in the United States. So ever 
dollar we spend in our space program is spent in the United 
States for jobs, for developing technology, and so on. And the 
critical element was investment in technology and enhancing our 
capability to do these amazing things. These things do not 
happen. And no commercial sector will invest in technology 
which is needed 10, 15 years from now. And that is what NASA 
should be doing. So I am a strong advocate of the technology 
program for NASA. Because that is what enables the future for 
us. And at the same time, to turn over the things that the 
commercial sector can do to the commercial sector to do that. 
And I think that is the NASA strategy that is being advocated 
today.
    Mr. Fattah. Well, thank you. And I want to thank the 
chairman for his extraordinary leadership, not just in terms of 
Europa. Because he has been I think a robust supporter of our 
space effort. And we again are thankful that in the omnibus 
that we were able to get a very good number on commercial crew 
and space technology, technology, technology, technology. And I 
brought my daughter out there because we wanted to, she is 
interested in Cal Tech. So she is 17. She is honor roll, 99 
percentile. It is only between the University of Texas and Cal 
Tech. You know, who knows? Thank you. Thank you.
    Mr. Culberson. We have got two votes. And Mr. Honda would 
like to come back. I would like to come back. So if we could 
recess briefly, we will take these votes and then we will come 
back and have a few more questions. So the committee will stand 
in recess briefly. Thank you.
    [Recess.]
    Mr. Culberson. All right. Thank you, Mr. Honda.
    The hearing will come back to order. We have finished up 
our votes and I appreciate very much your patience with us 
taking a brief recess while we finished up on the House floor.
    I wonder if I could to ask Dr. Elachi in particular. Of 
course, as you know, the fiscal year 2016 Appropriations Act 
directed NASA to launch a mission to Europa with a lander in 
order to confirm the presence of organics. If I could ask both 
of you, first of all, how essential is that we land on the 
surface in order to confirm the presence of organics?
    Dr. Elachi. I think in order to make sure we have 
confirmation, you really need to make direct measurements and 
use it in a mass spectrometer to do that.
    Mr. Culberson. On the surface?
    Dr. Elachi. On the surface. We don't do that if there are 
plumes. So the only way to make sure we do that is to land on 
the surface and make direct measurement, take samples and make 
direct measurement, because any other way you are going to be 
still uncertain. So that is a direct, important thing.
    The other part I want to emphasize is also you need to 
learn how to land on the surface of Europa for the longer term 
and if this was in our capability to do that. So clearly a 
lander on the surface, in my mind, is a necessity in 
understanding the oceans on Europa.
    Mr. Culberson. Dr. Lunine.
    Dr. Lunine. So I have participated in some of the 
discussions on the lander payload and it is a very carefully 
selected payload that is designed to give us the essential 
information we really need to go the next step to look for 
life, if in fact everything turns out to be positive.
    And so one of the things that is essential about the lander 
is the ability to sample deposits that are on the surface that 
may be partially covered up that may not in fact be exposed to 
the orbiter remote sensing. And so we want to have the 
opportunity to use both the fly-by spacecraft and the lander 
together to select the right landing site, to put the lander 
there and then to sample the materials in situ.
    And we may get lucky with that in situ analysis. I mean, we 
may actually find evidence that the organic molecules are being 
modified in some way by biological processes.
    Mr. Culberson. So you would agree, the only way to be 
certain is to land on the surface and actually test the ice 
deposits on the surface, that is the only way to be sure?
    Dr. Lunine. That is the only way to be sure, but it has got 
to be done in concert with that fly-by spacecraft----
    Mr. Culberson. Of course.
    Dr. Lunine [continuing]. Because we need to understand what 
the nature of the surface is at a level of resolution good 
enough that a lander can be put in the right place.
    Dr. Elachi. Actually, if you would let me add one thing. 
When you look at the Decadal and what are the science that they 
listed, we did generate a table which looked at what can the 
orbiter do. And the orbiter can do the majority of the science, 
but it cannot answer directly the question of the organic on 
the surface. So that was a gap that the orbiter could not do 
and that is why the lander is critical for this mission.
    Mr. Culberson. And that is why, of course, as our bill 
states, the goal of this mission is to achieve the scientific 
objectives of the Decadal Survey, which as you have just 
confirmed for the record has to include a lander if we are 
going to answer that essential and most exciting question of 
all, is there life on other worlds.
    And if I could, Dr. Elachi, ask about when does NASA intend 
to solicit instruments for the landers with an announcement of 
opportunity in fiscal year 2016?
    Dr. Elachi. OK. Basically, I mean, again, that is a 
question NASA would need to answer, but NASA deserves credit, 
they just sent an email to the broad science community inviting 
people to submit that they would like to work on this science 
definition team. And they stated in that letter that this is 
for about three months where they would work with JPL, with 
NASA on defining the payload. So they should be able to get 
that work done, I would say, by early summer time frame. And 
then NASA will have to go through its process.
    So that is something that you need to address with NASA of 
when will they issue that announcement of opportunity for the 
instrument. In my mind, the earlier is the better because the 
payload is the key driver for developing the lander, because we 
can do a certain amount of work, but until we know what 
instrument you need, how much samples you need to get, what 
volume you need, it is hard to do the detail design. So it is 
critical that the AO and the selection of the payload, is done 
in the most expeditious way.
    Mr. Culberson. Well, we will push NASA to make sure they 
get this done as rapidly as possible. And I also hope that we 
will see at least two ways to verify the organics with the mass 
spectrometer and the Raman on the same lander. Because if we 
are going to go all this way and make this exciting mission, 
make sure that we actually are detecting organics, it makes 
sense to double check it, doesn't it?
    Dr. Elachi. Yes, I agree with you. And the design, the very 
preliminary design that we present to NASA will accommodate at 
least two in situ instruments, will accommodate motion monitor 
to look at any vibration and will accommodate imaging.
    Now, if NASA decide and the science group decide that they 
need more instruments, we can do that, but that makes a lander 
more and more complex. So that is a trade which have to be done 
with the science community of what is an optimum payload which 
enables us to answer the question, but also can be done with a 
reasonable risk.
    Mr. Culberson. And the payload will be comparable to that 
which landed on Spirit and Opportunity on Mars in terms of the 
weight and size?
    Dr. Elachi. I don't know about the weight and size, but at 
least one of the instruments, the Raman spectrometer, would be 
based on heritage from Spirit--not Spirit, unfortunately, but 
from Curiosity, we have a Raman spectrometer planned for Mars 
2020, but I will let John tell you.
    Mr. Culberson. Yes.
    Dr. Lunine. Well, and I just wanted to add that you 
mentioned having a mass spectrometer and Raman allows you to 
have backup and have two ways of detecting the organics, the 
Raman also gives you some information on structure that is 
important that you may not get from the mass spectrometer, and 
understanding aspects of the structure of the organics in 
telling how fresh they are and where they come from. Were they 
part of a biological process of some kind or were they not?
    Mr. Culberson. Yes.
    Dr. Elachi. That combination will be very powerful.
    Mr. Culberson. I will have a couple followups. I want to 
recognize my good friend, Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Through these discussions, I am sort of developing a 
picture in my mind that one of the things we want to do is to 
be able to understand through various techniques the 
possibility of life, whether it is through indirect or direct 
techniques. And also and prior to landing on the surface, it 
seems to me that we need to know how firm or what the structure 
is, so that it will sustain a landing. And then also, you know, 
inserting ourselves on a planet, I am a little concerned about 
contamination too.
    So could you talk a little bit about the kinds of testing 
that needs to be done? And I know that you talked about 
handedness, that seems to be important, the issue of having 
ability through the indirect detection of what processes that 
you want to go through in order to see what is down there. And 
the types of techniques, I think I heard fly-through, plumes, 
things like that. Are these all necessary processes in order to 
determine whether the surfaces can enable a landing of a craft 
on the surface of the planet?
    Dr. Lunine. Well, let me talk about the life test and then 
I will ask Dr. Elachi to talk about the questions of certifying 
the surface for a safe landing, which is really a different 
subject.
    So I think that the fly-by spacecraft will be able to 
pretty quickly tell us the coarse essentials about 
habitability. You know, does it see that there are deposits of 
organics on the surface. It is not going to be able to tell us 
in detail what the organics are, but it will tell us whether 
there are carbon-bearing molecules near the fractures, for 
example, which we don't know and Galileo was not able to tell 
us.
    Galileo was able to tell us that the ocean is there and 
salty. There are indications of salt deposits on the surface, 
but again Galileo couldn't tell us which kinds of salts. So we 
really for Europa have this rudimentary information that I 
think the fly-by spacecraft will very quickly develop into a 
full profile of how habitable Europa really is.
    And then of course the next step, both from the fly-by 
spacecraft and from a lander, is to determine whether there is 
biological activity. There are a number of ways to do that. Of 
course direct detection of organisms requires potentially very 
elaborate instrumentation. It is better to analyze if there are 
fresh organics on the surface to look for evidence of a 
preponderance of left-handed or a deficit of right-handed, or 
vice versa, organic molecules, if there are amino acids. And in 
general----
    Mr. Honda. And could you explain----
    Dr. Lunine. Yes?
    Mr. Honda. Could you explain the difference and the 
importance of?
    Dr. Lunine. Yes. So life of course life on earth, it is all 
biochemically the same, we have no other example of life. And 
the amino acids that life uses, with only small exceptions, all 
have a particular orientation or handedness, the way that the 
carbon atoms are attached to the molecules themselves, and that 
actually allows the amino acids when they are arrayed in the 
chain to make a protein, to actually allow that chain to fold 
properly to make the protein. If you had a mixture of the left-
handed and the mirror form, if you had a random assortment, 
when they are arrayed on a chain, you don't get a protein.
    Now, it doesn't matter if it is left-handed or right- 
handed. It could be all right-handed or it could be all left-
handed, but it has got to be one or the other. And so 
identifying, first of all, if there are amino acids and, 
secondly, are they all left or all right, is one very powerful 
example of a life test, a test for life.
    Mr. Culberson. Chirality?
    Dr. Lunine. That's chirality, exactly.
    Do you want to talk about the surface?
    Dr. Elachi. Yes. I think on the question of the safety of 
landing on the surface, as I mentioned earlier, the orbiter is 
going to be taking very high resolution imaging of the surface. 
Now, remember, Europa is the size of our moon, so it is a big 
satellite. So we will be taking the images to decide what areas 
are scientifically valuable and safe to land.
    In addition to that, as the lander is coming down, it will 
have the capability of actually taking pictures as it is coming 
down and move to make sure it is in a safe place. That 
technique we are going to be demonstrating on Mars 2020, so we 
will have it well understood.
    And the third thing on top of that, the way we land, we are 
putting the lander inside the pyramid similar to what we did 
with Spirit opportunity and Pathfinder. So even if it lands on 
the side or if there is a rock next to it, it can unfurl and 
right itself up.
    So these are three steps which will assure us that we will 
be able to land safely on the surface.
    Mr. Honda. To the chair. The reason I asked about having 
this contamination connected to landing or fly-by or fly-
through, whatever the term is, I was trying to figure out if he 
can determine the amino acid handedness through a fly-through, 
so that you have that information prior to landing. I mean, are 
there ways that you can do that?
    Dr. Lunine. Well, the only way to do that would be if 
Europa had a plume. If it has got a plume of material where you 
have fresh material pouring out of the ocean that can be 
sampled by instruments, potentially it could do that. However, 
the Europa fly-by spacecraft doesn't actually have a device for 
measuring chirality, and that is actually a fairly complex type 
of instrument.
    Mr. Honda. I'm sorry, measure what?
    Dr. Lunine. To measure the left--excuse me, sorry--to 
measure left versus right-handed, that is not part of the 
payload. It can detect molecules, but it can't tell you what 
the structure is in terms of left or right-handed. And that is 
a type of instrument that requires some development, probably 
should be on a lander.
    Mr. Culberson. Thank you. You would have to make that 
measurement on the surface on the spot in order to be able to 
determine the left or right-handedness?
    Dr. Lunine. In fresh material that has not been damaged by 
the radiation field.
    Mr. Culberson. Right. And, I also understand from the 
briefings that I have been given that the speed of fly-by is so 
high that any organic material that might be in that plume 
would be disintegrated by it. So another reason to land on the 
surface is the organics in that plume when you fly through it 
would probably disintegrate, as I recall this morning----
    Mr. Honda. Well, Mr. Chairman, not having that experience 
of hearing, is that plume created naturally or is that induced 
through, you know, creating the plume ourselves?
    Mr. Culberson. No, the plume is created naturally. It is 
like Enceladus, the ocean is venting through cracks in the ice 
into the lower pressure, because it is essentially a vacuum. 
And we have seen it in Enceladus, detected a plume on Europa 
once or twice from Hubble.
    Dr. Elachi. Let me mention one thing. First, on Enceladus 
we see the plumes coming regularly. So there you have 
confidence and Jonathan has been thinking of how do you measure 
that. On Europa we have not confirmed that there are plumes.
    Now, you could think, well, I could impact the surface and 
create the plume, but when you impact the surface you have to 
do it at extremely high speed and that could create a lot of 
damage for whatever is on the surface. I mean, damaging the 
molecule you are trying to measure, because it is like a bullet 
to do that.
    So I am not sure that is a good or wise technique to do 
that and we don't know if naturally there are plumes. So 
clearly the best approach and the safest approach is to put a 
lander, a soft lander on the surface, and drill below the 
surface and make that measurement.
    Mr. Culberson. And the pyramid you are discussing, it would 
land similar to Spirit and Opportunity, there would be airbags 
around the pyramid?
    Dr. Elachi. I am not sure we will put the airbags, but it 
would be very similar, the shape would be very similar, and we 
are in the early stage of looking at the techniques. By 
bringing it with a sky crane and being able to have control of 
where we land, that addresses significantly the risk.
    Mr. Culberson. Could you talk a little bit about what we 
know about the ice? The surface is, it is a free-floating ice 
shell, not sure how thick, but the age.
    Dr. Lunine. This is a very interesting question. It is a 
very young surface, there is only one really old, large crater 
on one part of Europa. And there are places on the surface 
where the crust may be as thin as a few hundred meters perhaps, 
places where you see these cycloidal ridges that appear to be a 
response to the tidal pull, the tidal stresses as Europa goes 
around Jupiter, those are the places where the crust may be 
very thin. There are other places, for example where this one 
crater Pwyll is located where the crust appears to be thick, it 
may be 10 or 20 kilometers thick.
    So you have to imagine that, as you said, Mr. Chairman, 
this free-floating ice shell just has a variation in thickness 
as you go around Europa. And one of the important goals of this 
mission is to determine, you know, the ice thickness in various 
places and determine where the ocean is really closest to the 
surface.
    Mr. Culberson. And if the surface is that young, it 
obviously implies that it is being continually replenished and 
that that ice is diving down into the ocean and coming back up. 
And because of the intense radiation, I think I have read that 
the hydrogen atoms are being stripped away from the 
H<INF>2</INF>O, which means it is oxygen-enriched ice going 
down into the ocean and releasing that oxygen, so it is 
plausible that that ocean has been oxygenated for billions of 
years?
    Dr. Lunine. Yes, this is a very interesting aspect of 
Europa that this may in fact be a primary source of energy for 
life are these oxygen atoms that have, as you said, the 
hydrogen has been stripped and then these very oxidized 
species, peroxides and so on, are being introduced into the 
ocean. By one estimate and one paper I read, there may be as 
much energy from that as we have in certain oxygen-rich aerobic 
systems in the Earth's oceans.
    Now, you wouldn't want to try to form life in that 
environment, right? Because oxygen is a destroyer of organic 
compounds. So we would also like to know whether there are 
places in the deep ocean of Europa which are not exposed to 
quite that much oxygen or at least were not in the past, 
because in order to actually build these organic molecules 
before life itself began, you would have had to have had a 
relatively oxygen-free environment.
    Mr. Culberson. I also understand from talking to Dr. Robert 
Ballard that these mid-ocean ridges, which are not visible 
here, the largest volcanic system on the Earth, the 40,000-mile 
long mid-ocean ridge, that Dr. Ballard told us that for years 
geologists couldn't figure out the chemistry of the Earth's 
ocean, they didn't understand why it had the mixture of 
chemicals that it did, that the rivers flowing into the ocean, 
you couldn't account for the chemistry of the ocean just based 
on rivers until they discovered these mid-ocean ridges. And Dr. 
Ballard points out that the entire volume of Earth's oceans 
circulate through those mid-ocean ridges every few million 
years, he thinks maybe 4 to 6 million years, and that injects a 
tremendous amount of chemicals into the earth's oceans, which 
account, once they did that calculation, it matched perfectly 
and it explained why the Earth's oceans have the level of salt 
and other chemical elements within it.
    And clearly wouldn't you say that is a reasonable analogy 
to what we see in Europa where the silicate, you are detecting 
silica in the plumes on Enceladus, almost certainly, you have 
got a rocky bottom to the oceans of Europa, so is it reasonable 
to assume that you have got similar circulation of the salt 
water on Europa going through those volcanic black smokers, we 
will probably have black smokers on the bottom of the oceans of 
Europa as we see on earth?
    Dr. Lunine. Yes, that is a very interesting question for 
Europa. And the fact that it is a large body that has a large 
rock core makes it likely that there is some sort of 
hydrothermal circulation of water through the hot rock. Now, 
whether it is a black smoker or some of these other types of 
what are called off-axis hydrothermal systems that are a little 
bit cooler is not really clear. And one of the goals of this 
mission, by determining what are the kinds of salts that have 
been deposited from the interior and what other kinds of 
mineral evidence might there be on the surface, we might be 
able to know what type of hydrothermal system is present.
    On Enceladus, what is interesting is that the Cassini data 
from the mass spectrometers are good enough that the pH, the 
acidity of the ocean has been estimated from those data, and as 
well the temperature in a very sort of crude way, from these 
silica particles that have been sampled by Cassini. And those 
data suggest that there is a hydrothermal system at the base of 
the Enceladus ocean, and it is more like the low-temperature 
hydrothermal systems on Earth that are off the mid-ocean ridge, 
off of the axis. There is one called Lost City, for example, 
and it has a temperature of about 50 Celsius and it has a high 
pH, as Enceladus does. It has a different kind of chemistry and 
that is what looks like might be happening at the base of the 
Enceladus ocean.
    So it will be very intriguing to see what is happening in 
the Europa ocean, whether it is similar to that or more similar 
to the higher temperature black smokers.
    Mr. Culberson. Mr. Honda.
    Mr. Honda. OK. Leaving the planet and coming back to earth, 
in your independent opinion, what is the estimated life-cycle 
cost of the Europa orbiter mission both with or without a 
proposed lander? And how soon do you believe a Europa orbiter 
mission could be launched and what assumptions must be made to 
support that launch date? And how long would inclusion of a 
lander delay arrival of a spacecraft to Europa? I think you 
alluded to that, including development time and transit time.
    Dr. Elachi. Let me answer it first on the technical side. 
On the technical side, the two are complementary, it won't 
impact. We can move ahead with the orbiter on its present 
schedule. At the end, the key driver is going to be the funding 
for it. And that is what we are developing now to provide NASA 
for the funding profile that is needed based on the direction 
which came from your committee about when to do the launch. So 
we would be providing that to NASA.
    Now, originally, maybe your concern comes, originally we 
were thinking of having the lander attached to the orbiter and, 
therefore, the orbiter will have to wait for the lander to be 
finished. That is not our plan now. We found that technically 
that is not a good approach. So we will have the orbiter and 
the lander as two separate spacecraft. And as I mentioned 
earlier, three years from now we can decide do we launch them 
together or do we launch them separately.
    Now, for Jupiter, fortunately, we can go to Jupiter roughly 
every year, about every 13 months. So you can plan it depending 
on the readiness of the orbiter, the readiness of the lander, 
the availability of the launch vehicle, but you have a shot 
every year to actually do that, if we decide to do them 
separate.
    And so we are doing all these assessments, should they be 
launched together or should we launch separate, but they will 
be developed separately, so it won't impact the orbiter's 
schedule.
    Mr. Honda. And development time and transit time, it is 
dependent on what our decisions are then?
    Dr. Elachi. The time of development is, once you select a 
payload, you need roughly about 6 to 7 years to be at the 
launch pad. That is from our experience on Mars 2020, Cassini, 
Galileo, all these missions. And if you try to do it much 
shorter, that is not wise, because you are taking big risks. If 
you wait longer then that it is not efficient, because you have 
built your team and all the activity, if you start stretching 
it, that is not the way to do things.
    So really the driver is, the trigger point is, in my mind, 
the selection of the payload, and then you can add 6 to 7 
years, assuming funding are available, 6 to 7 years to be ready 
to be on the launch pad.
    Mr. Honda. I mean, the Chairman will be here more than 6 or 
7 years, right?
    Thank you, Mr. Chairman.
    Mr. Culberson. Just to wrap up on Europa, I want to make 
sure I understand that you have got an oxygenated ocean, this 
obvious evidence of a lot of heat, probably circulation through 
those volcanic ridges, and the ice would also protect that 
ocean from asteroid impact and radiation, so a very stable and 
secure environment for potentially life to not only begin, but 
to then be sheltered for essentially the life of the moon; is 
that accurate?
    Dr. Lunine. As far as everything we know today, yes, that 
is right. And what we don't know today is how much carbon and 
nitrogen-bearing material is in Europa and we really need to 
know that.
    And if I may, Mr. Chairman, the first proposal that I wrote 
for an instrument on a Europa mission was in 1999. And so some 
of us have been waiting 17 years for a mission to get going, 
and that was of course just two years after Galileo discovered 
evidence for the ocean through its magnetometer. So, you know, 
I have to say that it is past time to get to Europa, and the 
sooner that we can get there to explore this incredibly 
fascinating moon that may well hold life, the better.
    Dr. Elachi. Let me add to what Jonathan said. So that 
reflects that the science community have been thinking, so it 
is well thought of what needs to be measured. And that is why 
the Decadal indicated measurements which as of now can only be 
done with a lander.
    The other question on the radiation, I am not an expert, 
but I ask people at JPL, all that you have to do is to go just 
a few centimeters below the ice and you are somewhat safe from 
radiation. That is why Jonathan emphasized that when we take 
the samples, we need to drill a few centimeters, a few tens of 
centimeters, so you get fresh ice coming from it which is not 
bombarded by the radiation. So you don't have to drill too far 
to actually find what we are looking for.
    Mr. Culberson. And I want to stress too, of course, for the 
record that this is obviously a keen interest of the committee, 
of mine, but it is the top priority of the Decadal Survey. This 
is something that we are pursuing, Mr. Honda, and the 
subcommittee is supporting, because this is the consensus of 
the scientific community in the Decadal Survey, correct, that 
we need to go to Europa?
    Dr. Lunine. Yes, that is correct, absolutely.
    Dr. Elachi. Yes, correct.
    Mr. Culberson. And I want to also, if I could, because the 
other purpose of this hearing today and we will wrap up here in 
a few minutes, but I want to lay the foundation for the future. 
The idea of this hearing was to talk about the exploration of 
these ocean worlds as a great opportunity to discover life 
perhaps in our own backyard.
    Talk to us about, if you could, as you mentioned, the 
oceans of Enceladus, that is a free-floating ice shell as well?
    Dr. Lunine. Yes, yes, it is a free-floating ice shell. It 
is thicker, it is about 30 kilometers thick, as far as we can 
tell. So we really are depending on the plume, sampling 
material coming out through the fractures into space in order 
to learn more about that ocean's habitability and the 
possibility that life is present.
    Mr. Culberson. And the water--go ahead. Sorry, Dr. Elachi.
    Dr. Elachi. No, I just want to mention, you probably know 
it, but to the credit of NASA they added Enceladus and Titan to 
the potential targets for the New Frontier program. This it is 
to look at an ocean program which involved Flagship mission, 
New Frontier and Discovery. So NASA did add Titan and Enceladus 
as potential candidates for the New Frontier mission. And 
Discovery is a little bit harder, because the outer solar 
system is pretty far away to do that.
    Mr. Culberson. Right. And those of course would also be 
prime candidates for launch on the SLS? They are smaller 
spacecraft, but again to get there rapidly, you would need the 
SLS?
    Dr. Elachi. Again, I mean, the biggest benefit of the SLS 
is the speed and that it can carry more mass. We are in the 
process of thinking of ideas for the Titan mission and the 
Enceladus, and Jonathan is a key player in both of them. 
Depending on what the scientists come up with, that will lead 
to what is the right launch vehicle.
    Mr. Culberson. How deep is the ocean on Titan, do you 
think, or is it a sea?
    Dr. Lunine. Well, there is a liquid water ocean on Titan 
and in fact the Cassini evidence is that it is also a decoupled 
shell, but it is very deep. It is at least 60 kilometers and it 
may be more like a hundred kilometers below the surface.
    So of all three of those bodies, sampling material from the 
Titan subsurface water ocean is going to be the most difficult 
target. But there are also these hydrocarbon seas on the 
surface and they may be an interesting target, and they are 
exposed to the atmosphere, you can land on those.
    Dr. Elachi. To answer your question, from the Cassini 
mission we know those surface oceans, which are made of 
hydrocarbon, are the size of the Great Lakes. So this is not 
like a pond, but it is not a Pacific Ocean. But they are very 
large lakes. And as Jonathan mentioned, the amount of 
hydrocarbon which is in them exceed by how much for----
    Dr. Lunine. Two orders of magnitude.
    Dr. Elachi [continuing]. Two orders of magnitude how much 
hydrocarbon there is. So that could be an indicator of some 
exotic life, a different way of life.
    Mr. Culberson. Mr. Honda, dive in any time.
    Mr. Honda. So I guess I will close with this question then. 
With that discussion then, it sounds like there is that 
possibility or have you thought about how we recycle the assets 
that we are already developing or we will be using, would that 
be recyclable and be able to continue to use as we seek out 
other solar oceans?
    And I guess the other would be, should we be looking at 
building smaller fleets of assets, so that as we are pursuing 
this project we could be thinking about in a parallel way 
building smaller fleets to continue this search for ocean 
worlds that are out there?
    Dr. Elachi. I think what you said is the wisdom of having a 
program. You need to think of all different elements to explore 
Europa, Enceladus Titan, in similar ways that the Mars program 
have been thinking about. And it could be a combination of 
large spacecraft, small spacecraft, boats, balloons. So the 
benefit of having a program is that you can do this kind of 
thinking that you are mentioning.
    And also it will allow us to build on, one mission building 
on the prior mission, both from science, but also from hardware 
as you develop things. So it is the same thing on Mars we built 
up from Pathfinder to Spirit to Opportunity, then to Curiosity, 
then to Mars 2020. And now we are looking at technology such as 
little helicopters which can augment those measurements. And 
that is enabled because we are thinking as a program, not one 
mission at a time and then wait until we get the results from 
it.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. If I could also to follow up, because I want 
to talk a little bit about it before we wrap up, the purpose of 
this hearing today is to talk about the next step and it is 
developing a program like we had with the Mars mission. We have 
discovered these oceans that exist in the outer solar system, 
they are undoubtedly, probably very common throughout the 
universe, and it is important that if we are going to discover 
life, it is going to be in those oceans.
    Talk first for a moment about, for example, what other 
moons in the outer solar system do you think could have oceans 
of water?
    Dr. Lunine. Well, we have some evidence for an ocean in 
Callisto, which is one of the other Galilean moons of Jupiter. 
It might be a very thin ocean. It is somewhat mysterious that 
it would have one, because it seems to be rather cold and dead, 
but the evidence seems to be there.
    Triton, which is a moon of Neptune, is very intriguing 
because it's a large satellite, it was probably captured from 
the kuiper belt, it is the size of Pluto, and it has some 
activity on its surface. When Voyager 2 flew by in 1989, it 
found that there were these plumes of material coming up that 
deposit dark streaks across the surface. And while there are 
some models that say that this is just driven by solar heating 
of the surface, the fact that we don't see this on Pluto in the 
same way suggests that maybe this is actually internal activity 
that is being expressed at the surface.
    So Triton is another object that might have an ocean. It is 
a long way away. I mean, Neptune is at the edge of the solar 
system.
    Mr. Culberson. Any of the moons of Uranus indicate any 
evidence of----
    Dr. Lunine. We don't know, because, you know, Uranus is 
tipped on its side. And so when Voyager 2 flew by Uranus, it 
was essentially a bull's eye where the whole satellite orbits 
were face-on. And the whole fly-by was quick, it was basically 
through the target and the spacecraft had to look very quickly 
and take a few pictures of each moon. We just don't know very 
much at all about those moons and going back at some point and 
understanding more about them is very interesting. They are 
large, four of them are large, they might have oceans, but we 
just don't have any evidence.
    Mr. Culberson. So the ocean moon exploration program that 
we have outlined in our bill will be obviously focused 
initially, the first mission to Europa, Enceladus and Titan 
would be the most immediate and obvious targets.
    And what we learned from the New Horizons mission to Pluto, 
large amounts of water in evidence there on Pluto too, isn't 
it? Frozen obviously, but you found water on Pluto and that was 
unexpected.
    Dr. Lunine. So, well, Pluto, just based on its density, was 
thought to be an ice-rock world. What is surprising about it is 
that there is a lot of geology, that the ice itself seems to 
have been modified by geologic processes. And there are 
deposits on the surface of other ices, nitrogen ice, carbon 
monoxide, methane, which themselves have been flowing across 
the surface. So it is a very complicated world. The way it 
looks geologically suggests that maybe in fact there is 
activity inside Pluto that has heated it and melted the water 
ice. Now, whether that is still going on today, we don't know.
    But every place we go in the outer solar system is a 
surprise. There is much more activity, there is much more 
dynamism, if you will, in these bodies than I think any of us 
would have predicted.
    Mr. Culberson. The point I wanted to drive at is that 
everywhere we look too out there, there is a lot of water.
    Dr. Lunine. Absolutely, yes, there is a huge amount of 
water in the outer solar system.
    Mr. Honda. There has been some question about Earth 
science----
    [Audio malfunction in hearing room.]
    Dr. Elachi. Clearly, I think as we develop an Ocean Worlds 
program, we should be looking at what can we do also in our 
oceans. And that is why Dr. Ballard has been involved in some 
of these activities, because we can learn both ways. By 
exploring our ocean, we can learn about oceans outside our 
planet and vice versa.
    I have been around in this business for 40 years and I 
found many times as we develop things for planetary 
exploration, the technology and the technique and the knowledge 
are directly applicable back to our own planet. I started the 
JPL to work on the Magellan mission which had an imaging radar 
on it. Guess what? Now, imaging radars are being put in orbit 
around earth based on some of that technology that we developed 
for Magellan.
    And I have no doubt, whatever we do on Europa and the 
technology for submarines or drilling, will have some cross-
benefit with our own ocean and vice versa, because here we have 
to develop robotic, small submarines which are capable of 
making some very advanced measurement. I could see people 
interested in having dozens of those being put in our own ocean 
to study what is below the ice in the Arctic and Antarctic.
    Mr. Culberson. Thank you. If I could, having the benefit of 
your presence here, Dr. Elachi and Dr. Lunine, talk about the 
far future, because one of the exciting things about this Ocean 
Worlds Exploration Program is it will be laying the foundation 
to develop the next generation of rocket propulsion and to take 
NASA on to the next level, because when we do discover life in 
another world, I think that will encourage the public to 
support the level of funding NASA is going to need.
    Let me ask first quickly about the work that NASA is doing 
with the Department of Energy to support radio isotope power 
systems, is the level of funding that we have in this year's 
bill sufficient, and are you satisfied with the work that is 
being done to increase the power output and to reduce the mass 
and size?
    Dr. Elachi. To the best of my knowledge, from what I have 
been told, I think it is appropriate and an appropriate level, 
but again that is a question that headquarters probably can 
answer. But for our purpose, looking at the near-term mission 
that we are discussing, I think what is available now and the 
new production that DOE is doing are satisfactory for that.
    Now, in the longer term when we start talking about a 
lander to melt our way down below the surface, then that is why 
I said it is important to put some work on the technology of 
what is needed, so we can assess exactly how would you do it 
and will we have enough radioactive material to do that.
    Mr. Culberson. That would be the second mission to Europa 
would be to get through the ice, this mission will involve some 
artificial intelligence because of the distances involved. The 
computers on board will have to make a lot of decisions on 
their own as they are approaching the surface; is that correct?
    Dr. Elachi. Absolutely. It has to be all done autonomously, 
because it takes a couple of hours for the signal to go up and 
down. So everything has to be done autonomously and that would 
require the advances that you are talking about.
    Mr. Culberson. And that second mission would require a heat 
source sufficient for a submersible vehicle to melt through the 
ice, drop out into that ocean, and then transmit images and 
information back to the surface to tell us what is beneath that 
ice and we hope reach the bottom of that ocean.
    Dr. Elachi. Yes, that is correct. I mean, I don't know, but 
depending how thick the ocean is.
    Mr. Culberson. The ice, rather, yes.
    Dr. Elachi. But for that mission you clearly need nuclear 
capability, because it is going to require a long time. So the 
lander that we are doing, that we are talking about now, the 
precursor lander, that doesn't require a long time. It is 
required to capture samples, make measurements. And the fact 
that it is static, it is not a rover, most of the science can 
be done in a couple weeks, therefore nuclear material is not 
needed for the lifetime, it can be run with batteries. But as 
we head toward drilling down, then I don't see any option other 
than having nuclear to get enough power to be able to do that, 
or energy to be able to do that.
    Mr. Culberson. Let me wrap up with, talk about WFIRST and 
looking out beyond our solar system to identify earth-like 
planets around nearby stars and the chronograph that you are 
developing in the Starshade, because it is extraordinarily 
exciting and looking out into the future, the WFIRST is 
essentially a flagship mission in terms of investment, that 
would be second, then we do the Europa mission, and then the 
next big mission would probably be WFIRST.
    Could you tell Mr. Honda and I a little bit about the 
WFIRST mission and its importance, coupled with Starshade, in 
identifying and then spectrally analyzing the atmosphere of 
earth-like planets around a nearby star?
    Dr. Elachi. OK, let me mention on the techniques and then 
Jonathan can add on the science.
    WFIRST just passed its Phase A, so NASA is proceeding 
through the process of doing that. The baseline mission, which 
was a top priority with the astrophysics community, that 
baseline mission focuses on two topics, dark energy, dark 
matter, and on exoplanets. The mission now, the baseline, 
include the chronograph inside the spacecraft itself. That 
allow us to make certain measurement of detecting planet 
directly by blocking the light from the star and be able to see 
the planet, and it will detect planets of certain size and 
distance.
    We are working on technology, let me emphasize, it is 
technology now, for a potential Starshade which will augment 
the measurements which are being done by the chronograph. But 
that technology, we need a couple of years to demonstrate fully 
that technology and bring it to a level that detects Earth-size 
objects. The Decadal can then assess the scientific value 
versus the risk.
    So we are moving ahead on the technology, but as of now the 
baseline WFIRST mission only include the chronograph inside the 
spacecraft.
    Jonathan.
    Dr. Lunine. Well, yes, I would only add that of course the 
opportunity to be able to determine the composition of the 
atmospheres of Earth-size planets around other stars is the 
ultimate goal. And in a way this has already started, because 
with Hubble and with Spitzer it has been possible to determine 
the atmospheric composition of large planets, giant planets, 
using the transit technique. And the James Webb Space Telescope 
will extend that down to super-earths, objects that are two or 
maybe three times the size of our own Earth. That will tell us 
a lot already about whether these super earths are like our own 
Earth in terms of atmospheric composition or perhaps are more 
like Uranus and Neptune, small versions of those planets.
    I mean, clearly beyond that, if we want to be able to 
determine whether there really are habitable earths the size of 
our own planet, we will have to take the next step and that 
would have to be done beyond JWST, maybe with WFIRST, maybe 
with something else.
    Mr. Culberson. But you would be able to with WFIRST, the 
chronograph that you already are developing, to be able to 
directly image or be able to pick up the light of these 
exoplanets and spectrographically analyze their atmospheres, 
they could detect--and please for the record, I just want to 
confirm, the smoking gun for life would be methane, oxygen 
together?
    Dr. Lunine. Well, yes, that would be the smoking gun. But 
because I am not involved in WFIRST, I should ask Dr. Elachi to 
describe the capability.
    Mr. Culberson. Could WFIRST do that for us, Dr. Elachi, to 
determine----
    Dr. Elachi. My understanding and, again, you might want to 
do a hearing on WFIRST, because I am not fully up to speed,--my 
understanding is the chronograph will allow you to image 
separate the light coming from the planet, mostly for planets 
larger than Earth, but it was the chronograph. The Starshade 
will bring you closer to Earth-size planets. How accurate the 
spectroscopy can be done, that is something that I really can't 
answer, that is not my expertise, and I think there are people 
who can answer specifically that question.
    But the key point I think you are making is we will be able 
to separate the light of the planet from the light of the star 
by using the chronograph and, as I said, the Starshade will 
make it even closer to looking at Earth-size planets.
    Mr. Culberson. We are about to wrap up, but I want to make 
sure, I have this great opportunity, these two brilliant 
scientists here with us today and with Dr. Elachi's imminent 
retirement, I want to make sure I have got a chance to get this 
on the record, that one of the goals of WFIRST is to not only 
be able to directly image those exoplanets, but it would have 
the ability from the briefing that I got at JPL, particularly 
with Starshade because you don't lose any photons with 
Starshade, to be able to spectrographically analyze that light 
from that earth-like planet, it was my understanding from the 
scientists that briefed me at JPL that they would be able to 
see the spectrographic signature of methane and oxygen, they 
would be able to see it.
    Dr. Elachi. I think so. I really cannot tell you 100-
percent sure, but, yes, it will be able to do some 
spectroscopic measurement.
    Mr. Culberson. And perhaps even industrial pollution, we 
will be able to see perhaps hydro fluorocarbons.
    But nevertheless, that then leads to our kids and 
grandkids, and I hope one of the legacies that I would like to 
leave as the subcommittee chairman of this marvelous committee 
and with your help, Mr. Honda, that not only have we then 
discovered life in another world, we hope in Europa, identified 
earth-like planets and picked up the spectrographic signature 
of an atmosphere that contains methane and oxygen. But I hope 
also finally, in conclusion, to ask about the development of 
the next generation of rocket propulsion ion engines that would 
be able to take a spacecraft to Alpha Centauri, which is about 
four and a half light years away, and if we could achieve what 
percent of the speed of light do you think is possible, two 
percent, four percent, five percent perhaps?
    Dr. Elachi. I don't know, because that requires some new 
invention, but I was thinking about it as I was sitting here. 
If I would have told my grandmother, and that is not very long 
ago that I would be able to hop on a plane and fly to the 
United States in 12 hours, she would have thought I am crazy. 
But within a hundred years we have moved from being in 
carriages to be able to travel across the country or across the 
world. So I am sure our children will be smart enough to invent 
some advanced technology for propulsion to do that.
    Now we need to start making some investment. We don't have 
an answer. I cannot tell you, if you do A, B, C, we will get to 
one percent or two percent. But, also people think about it for 
airplanes, it is by investing in the technology, we might get 
some new inventions that will allow us to go to those kind of 
speeds.
    Mr. Culberson. I think Mr. Honda has a question.
    Mr. Honda. What I am getting from the last conversation was 
analyzing light and light sources is that----
    [Audio malfunction in hearing room.]
    Mr. Honda [continuing]. Will tell you the kinds of 
composition of the atmosphere, because I know that planets do 
not emit their own light. So I was just trying to understand 
what we are saying here. Thank you.
    Mr. Culberson. And then just in conclusion, that is really 
the final piece of this hearing----
    Mr. Honda. There is no conclusion.
    Mr. Culberson [continuing]. Was to really, I hope, as a 
result of the time that I have got, if I have the privilege to 
stay here as the chairman for that time period, we will have 
laid the foundation not only to discover life in that other 
world, but to have identified those earth-like planets around 
other solar systems, and then develop the rocket technology so 
that our children and grandchildren will have the opportunity 
to be witness to the first interstellar missions to Alpha 
Centauri. It may take 80 years or a hundred years to get there, 
but perhaps today we have heard for the first time how we here 
can lay the foundation stones for that to happen.
    I want to thank you very, very much for your service to the 
country----
    Dr. Elachi. Thank you.
    Dr. Culberson [continuing]. And for the time that you have 
given us here today. And in particular, Dr. Elachi, thank you 
for the extraordinary work that you have done for the Jet 
Propulsion Laboratory, for the nation, for NASA. The incredible 
discoveries that have been made on your watch I don't think 
would have been possible but for your leadership. You have 
woven together the extraordinary talent of the scientists and 
engineers at JPL, but also have been able to bring together the 
political support that was so essential to make sure that these 
magnificent missions were successful. And we will continue to 
give you all the support that we can at JPL and NASA in 
general.
    And, Dr. Lunine, I want to thank you for being here as 
well.
    Dr. Lunine. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much.
    The hearing is adjourned. Thank you.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
    

                                           Tuesday, March 15, 2016.

              NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                 WITNESS

HON. CHARLES BOLDEN, JR., ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE 
    ADMINISTRATION

                       Chairman's Opening Remarks

    Mr.  Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order. I want to 
welcome our witness, General Bolden, and thank you for your 
service to the country, General Bolden. For your service to 
NASA, to the space program, and for keeping us all safe and 
free and strong for your service in the United States Marine 
Corps as well. And this has just occurred to me, today may be 
your last hearing here in front of us. I want to thank you very 
much again for your service. And what a privilege it has been 
for us to work with you, to help make sure the American space 
program is the best in the world, has been, always will be.
    This committee and the Congress has been committed to the 
American space program. We and the Congress and the country 
have given the space program all the support that you need. We 
have often given you too much on your plate and not enough 
money to do so. But in this year's 2016 appropriations bill, as 
you know, we made certain that you for the first time have got 
the resources you need to do what is on your plate to ensure 
that we never surrender the high ground of outer space to any 
other nation. And we will continue to do so. The Congress and 
the country strongly support what you and your colleagues at 
NASA are doing, General Bolden.
    We today in our hearing are going to discuss the 2017 
appropriations bill and what NASA's needs are for 2017. I am 
actually going to minimize any discussion, frankly General 
Bolden, of the President's fiscal year 2017 budget request 
because quite frankly it is, I have to say that President 
Obama's budget request is frankly almost embarrassing. We 
cannot and will not even consider a budget request that would 
ask this Congress to cut NASA's funding. We cannot consider a 
budget request that contains $763 million in unauthorized 
mandatory fees and taxes and things that just are not going to 
happen.
    We, all of us in this committee, admire you and the great 
men and women at NASA immensely. We will certainly talk about 
the President's budget request but it is not realistic. It is 
not going to happen. And I cannot imagine anyone in this 
Congress seriously considering it. And I am actually glad we 
have got language in the 2016 appropriations bill and the 2015 
bill and we will have it again in this bill that says no agency 
of the Federal government can change any funding level for any 
policy or program based on the President's budget request. That 
the agencies have to follow the appropriations bill, because 
that is what matters, it is the will of Congress as signed into 
law by the President. And we know that, and you cannot really 
comment on this, but I know you are as disappointed as we are 
in the President's request. We love what you do at NASA and we 
are going to be here to support you, sir. And we will make 
certain that we are going to do our very best in this tough 
budget environment to be sure that NASA has got the resources 
that you need to do your job. Because, you know, the bottom 
line is this request that we have received from the White House 
is essentially a $1.023 billion cut to NASA's budget which is 
just not going to happen. We are not going to let that happen.
    We have in this budget year in the--you know, it really is 
baffling. It is hard for me to find the words to describe it. 
And it is not your fault, General Bolden. You do a superb job. 
The men and women at NASA do a great job. But it is very 
difficult for us to get our arms around the fact that the White 
House would actually expect the Congress to cut NASA by over $1 
billion and has not given us, not given you the support that 
you need, sir.
    Also I think it is important to note that NASA has just 
accepted a new group of applications for just 14 spots in your 
2017 class of astronauts, an indication of the level of support 
the country has for the work that you do. They had over 18,300 
applications for 14 spots as astronauts. That is a record that 
surpasses the previous 1978 record of 8,000 applications. And 
it is an indication, I think, of the level of support the 
country has for the work that you do. Every time there is a new 
space mission, a new landing, a new launch, the NASA website 
becomes one of the most popular in the country. There is just a 
tremendous amount of support out there for what you do. And it 
just continues to be baffling to us as to why the Office of 
Management and Budget refuses to give you the support that we 
think you deserve.
    But this subcommittee will make sure that you get the 
resources that you need. Again, this is going to be a tough 
budget year and we will be right there behind you, sir, every 
step of the way. And before we proceed I would like to 
recognize Mr. Honda for any remarks he would like to make.

                     Ranking Member Opening Remarks

    Mr. Honda. Well thank you, Mr. Chairman, and welcome, 
Administrator Bolden, and thank you for being here today. It is 
good to see you again.
    Let me just take a moment to thank you again for the great 
visit we had a couple of weeks ago at NASA Ames. You and I 
spent the better part of a day together, for me an 
unprecedented over five hours. And that was really cool. And I 
really appreciate the effort the Ames family went to to 
accommodate the visit and highlight some of the amazing 
groundbreaking work that the scientists and engineers are 
performing at Ames in support of this mission, NASA's mission.
    And Mr. Chairman, perhaps you and I can go on a tour of 
NASA Johnson down near your home in Houston, Texas. I have 
still been waiting for an invitation. But you know, I am 
patient. Perhaps we can all organize a trip for the 
subcommittee to Goddard or JPL. And I would love to meet more 
of the NASA family and see firsthand some of the other great 
work being performed around the country.
    Administrator Bolden, as you know Chairman Culberson and I 
share the same passion for science and I love it when he starts 
talking about we are going to get you more money, we are going 
to get you more money. He sounds just like a great Democrat, 
you know? But actually this is not a partisan issue. It is 
about a national priority and moving us forward in the whole 
arena of knowledge and pursuing knowledge, that which we know 
and that which we are seeking. So this passion is also evident 
in last year's final budget that included the healthiest top 
line NASA has seen in many years. And I just want to thank you, 
Mr. Chairman, for that.
    This year I am looking forward to building on our work from 
last year and continuing robust support for NASA and a wide 
variety of missions from exploring our neighboring worlds and 
probing the creation of the universe, to improving our 
understanding of our own planet and working with commercial 
partners to strengthen America's presence in space and 
supporting the burgeoning commercial space industry which is 
constantly growing. That being said, I share my colleague's 
frustrations with this year's proposed discretionary budget 
from the President that recommends scaling back our support for 
NASA by reducing NASA's discretionary top line by $1 billion. I 
will be more accurate, the Chairman said $1.3 billion. And so 
we are going to be working together on this. This is the time 
to be investing in NASA, not selling it short. At the same 
time, I must also urge my colleagues to support an overall 
level of non-defense discretionary resources that would allow 
us to provide a healthy budget for NASA overall.
    Americans are really inspired by the successes and 
breakthroughs of NASA and our commercial partners, be it the 
amazing photos of Pluto captured by New Horizons, Scott Kelly's 
triumphant year in space, or the successful first stage 
landings of SpaceX and Blue Origin rockets. Americans are 
captivated by space and NASA.
    Movies like ``The Martian,'' ``Gravity,'' ``Interstellar,'' 
tap into this public support and help fan the flames of 
support. And nothing highlights this more than the record 
shattering, as it was said, 18,300 applicants who applied to 
become a NASA astronaut last month. You said 14-point-what? How 
many spots?
    Mr. Culberson. Fourteen spots.
    Mr. Honda. Fourteen spots. I thought you said 14.3, and I 
was wondering who the 0.3 was going to be. And so what I will 
be interested in is if there is a way we can get some 
information on the demography of the applicants, who they are, 
where they are from, you know, all that sort of interesting, as 
an educator I would be interested in the source and where they 
were coming from.
    So I look forward to hearing your testimony this morning 
and to learn more about NASA's programs and how NASA is going 
to capitalize on this strong public interest and create the 
most impactful and inspiring missions to both improve life on 
Earth and push our frontiers further out into the cosmos.
    Mr. Chairman, thank you.
    Mr. Culberson. Thank you. Thank you, Mr. Honda. General 
Bolden, we really do appreciate your service. Thank you for 
being here today. And without objection, your written statement 
will be entered into the record in its entirety. And we welcome 
your summary of your testimony. If you can do so within 
approximately five minutes or so it would be great.

                    Administrator's Opening Remarks

    General Bolden. Yes, sir. I will do my best. And Mr. 
Chairman and members of the subcommittee, it is my extreme 
pleasure and it is actually an honor for me to be here today to 
discuss with you President Obama's $19 billion fiscal year 2017 
budget request for NASA. And I, it is unusual for me to do 
this. But because there are young students here, I want them to 
go back understanding how this process works. And I think you 
mischaracterize me when you say that I am disappointed in the 
President's budget. I am not. I helped to craft it. And I am 
very proud of that budget. And we will discuss in this hearing 
how we got there and then the process that you all are going to 
use to give us the funds that we finally get in appropriations. 
Because what they should take away is that the President 
proposes, which means it is a proposal, and the Congress 
disposes, which means you all give us the money. And as you 
said, that is what becomes the budget. So I did not want them 
to go away thinking that the NASA Administrator was not happy 
with the President's budget, because I am. We worked really 
hard to bring you that budget. So now I have wasted a lot of my 
time.
    This request builds on the outstanding fiscal year 2016 
NASA appropriation that this Congress gave us last year. And I 
mean it when I say it was an outstanding budget. $19.3 billion 
is not chump change. And we really want to be able to extend 
what that budget allows us to do, and that was the way we 
crafted the 2017 budget. I want to thank you again, Mr. 
Chairman, personally for your leadership in crafting the 2016 
budget.
    So it is my honor to serve as the NASA Administrator 
throughout the Obama administration. And as we submit what is 
likely, as you mentioned, my final budget, I am also proud of 
the many things this agency has accomplished on behalf of the 
American people with the resources the President and Congress 
have committed to us over the past seven years. Together we 
have enabled our nation to continue leading the world in space 
exploration and scientific discovery.
    Two weeks ago American astronaut Scott Kelly returned home 
from the International Space Station after 12 months working 
off the Earth for the Earth. His year in space will pay 
scientific and medical dividends for years to come, helping 
pave the way for future astronauts to travel to Mars and 
beyond. Commander Kelly significantly advanced our journey to 
Mars and I trust that you join me in saluting his service to 
our nation.
    NASA is closer to sending American astronauts to Mars than 
at any point in human history and this budget will keep us 
moving forward. The support of this committee and Congress is 
essential to this journey. The International Space Station is 
the cornerstone of our exploration strategy. Thanks to the 
determination and ingenuity of American industry, we have 
returned Space Station cargo resupply launches to U.S. soil, 
insourced jobs, and helped establish a new private market in 
low Earth orbit. American companies are now ferrying supplies 
to our astronauts on the Space Station from the United States 
with Orbital ATK set to launch again later this month, in fact 
next week, and SpaceX targeting a resupply mission in early 
April, both from the Kennedy Space Center.
    In July Orbital will conduct a return to flight mission 
from the Wallops Flight Facility. Thanks to the 
administration's decision to invest in American industry and to 
this committee's full funding in last year's budget, Boeing and 
SpaceX continue to make great progress toward certification in 
2017 to safely transport our astronauts to the Space Station 
from U.S. soil, ending our sole reliance on Russia once and for 
all.
    NASA is making significant progress on the journey to Mars, 
developing our newest, most powerful rocket ever built, the 
Space Launch System, and the Orion Crew Vehicle as part of a 
sustainable and affordable deep space exploration system. This 
budget supports the Agency's baseline commitment for an 
uncrewed test flight of SLS and Orion in 2018 and a crewed 
flight by 2023. With additional funding provided by Congress, 
the teams are working toward an earlier launch date for the 
first crewed mission and are already designing and procuring 
long lead hardware for subsequent missions.
    The budget also increases funding for habitation systems 
development, a key component of our stepping stone strategy to 
send humans to Mars.
    The President's budget funds a robust science program with 
dozens of operating missions studying our solar system, the 
universe, and the most important planet in our solar system, 
Earth. This coming July 4th, Independence Day, the Juno 
spacecraft will orbit Jupiter while the Cassini spacecraft will 
prepare to execute its dramatic grand finale orbits of Saturn. 
OSIRIS-REx will launch to a near-Earth asteroid to collect 
samples for return to Earth in 2023. In 2017 and 2018 NASA will 
launch seven exciting space science missions, including the 
James Webb Space Telescope. Before we send humans to Mars 
robots are paving the way, with Mars InSight now targeted for 
launch in 2018. Another Mars rover set to launch in 2020, 
joining the Curiosity and Opportunity rovers now exploring the 
red planet, and work underway to define the next Mars mission 
for 2022.
    We are formulating missions to explore Jupiter's moon 
Europa, as well as WFIRST, designed to study dark energy, 
perform galactic and extragalactic surveys, and explore 
exoplanets.
    We are accelerating the building of LANDSAT 9 as part of 
our sustainable land imaging architecture to continue our over 
40-year record of high quality measurement of Earth's land 
cover.
    NASA technology drives exploration. With this request, NASA 
will continue to conduct rapid development and incorporation of 
transformative space technologies to enable future human and 
robotic missions, increase capabilities of other U.S. agencies, 
and address aerospace industry challenges. Space technology 
investments will ensure that we continue to lead the world in 
exploration and scientific discovery.
    NASA's aeronautics program advances U.S. global leadership 
by developing and transferring key enabling technologies to 
make aviation safer, more efficient, and more environmentally 
friendly. With this request, NASA aeronautics is ready to take 
the next step to develop and fly X-plane demonstrators in 
partnership with industry and academia, including ultra-
efficient subsonic transport experimental aircraft and the 
world's first low boom supersonic flight demonstrator.
    Mr. Chairman, we appreciate the strong and consistent 
support we have received from this committee. I look forward to 
your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
   
    
                     OUTER PLANETS AND OCEAN WORLDS

    Mr. Culberson. Thank you, General Bolden. We appreciate the 
fact that the budget does indeed include an Outer Planets and 
Ocean Worlds exploration program. That is something that these 
young people in the audience and around the country are going 
to become increasingly excited about as they discover that 
there are indeed water worlds out there that have probably some 
of the best potential for us finding life on another world. And 
I am very pleased to see that the budget request does 
acknowledge that. We in the Congress included in the 2016 bill, 
created an Ocean Worlds program for that reason and have 
focused on the Europa mission in particular as the first one to 
fly because of the recommendations of the decadal survey of 
planetary sciences.
    For the young people in the audience and anyone listening, 
every ten years, General, the scientific community gets 
together at the National Academies and develop a 10-year plan 
looking forward to decide what are the most important missions 
that should be flown in heliophysics and studying the sun, or 
studying the Earth, and studying the planets, and then looking 
out beyond our own solar system. And that decadal survey is a 
good road map for the next 10 years. And in our 2016 bill I 
made sure we included in our 2016 bill guidance to NASA to look 
to those decadal surveys in each one of those areas as kind of 
a blueprint of where NASA should go over the next decade. And 
that blueprint for the planetary scientists listed the Mars 
mission 2020 as No. 1, to cache samples from the surface and 
retrieve them later. That mission has been funded and is going 
to be done. And their number two priority this decade, and 
their top priority last decade, was the mission to Europa. 
Because that moon contains at least two to three times more 
salt water than there is on Earth, it has all the basic 
ingredients for life to be present. And so we are very 
supportive of the work that NASA is doing to send an orbiter 
and a lander to Europa to find out whether or not there are 
organic molecules in that ocean. And could you comment, 
General, on your feelings about the decadal survey 
recommendation? Do you agree with the decadal survey 
recommendation that the Europa mission is important?
    General Bolden. Mr. Chairman I am, having talked to Steve 
Squyres who chaired the latest planetary decadal, I agree with 
the priorities that they set. And one of the things that I was 
most impressed with was the fact that he really looked hard at 
cost. And so, you know, I think that they are projects that can 
be done. And that is why we have sent Mars 2020 and a sample 
return as number one in compliance with the decadal survey and 
we are now trying to formulate the mission to Europa. And I 
assume we will talk a little bit more about that as the hearing 
goes on.
    Mr. Culberson. Sure. You know, the Congress gives you 
direction.

                             EUROPA MISSION

    General Bolden. Yes, sir.
    Mr. Culberson. That is actually the one mission it is 
illegal for NASA not to fly, is the Europa mission, because it 
is so important that we find out whether or not we are alone in 
the universe, and then it will also help I think galvanize the 
public. One of the reasons I have been so interested in this 
mission is not only has it been, in the decadal survey it was 
the top priority last decade and the last NASA administrator, 
your predecessors neglected it. It was cast by the wayside. And 
this time we want to make sure it is done. So it is a directive 
from the Congress to make sure this mission is flown and we 
made sure you have got the resources to do it. And right now I 
know that design work is going forward on the lander, correct? 
And----
    General Bolden. Mr. Chairman, we have a total effort going 
on on the Europa mission entirely, which is orbiter and lander. 
I think you and I have discussed this before. My strong 
recommendation to the committee and my strong recommendation to 
the community would be that we separate an orbiter from a 
lander in order to optimize our chances of being successful 
with both. When we look at the Mars program as a model, before 
we landed, we actually landed Mariner 4 in 1965 and it was 11 
years later when we put Viking 1 and 2 on the surface of Mars. 
And that was for a very good reason, the fact that we just did 
not know the Martian surface and we wanted to make sure that we 
understood it fully. We are in the same situation with Europa. 
We want to make sure that we characterize the surface of the 
moon prior to deciding on a place that we are going to put a 
lander. We are definitely working on a lander. But, you know, 
my strong recommendation would be that we separate a lander 
from an orbiter in the mission. But that remains to be done. We 
expect that we will be at preliminary design review in 2018. 
And at that time it will say whether or not we have a lander 
and an orbiter together, it will say what kind of launch 
vehicle we use, and the like. So we are responding to the 
direction from the Congress.
    Mr. Culberson. Good. Thank you, sir. And I understand what 
you are saying and appreciate the fact that your scientists are 
looking at, engineers, right now whether to launch the lander 
separately and, you know, the orbiter would obviously go first. 
And I understand what you are saying. The discussions are 
ongoing right now----
    General Bolden. Yes, sir.
    Mr. Culberson [continuing]. About whether or not you want 
to put the lander on the same rocket or launch it separately. 
It may indeed be, I think you are probably right, it may be a 
good idea to launch them on two separate SLS rockets so that 
the orbiter goes first in order to scout the surface, as 
Mariner 4 did. Mariner 4 was of course a fly by, and then they 
did orbiters, and then landed second. So that is the direction 
the Europa mission is taking. I think that is a very good idea. 
And as always, your folks at the flight centers do a terrific 
job.
    General Bolden. Yes, sir.

           FEDERALLY FUNDED RESEARCH AND DEVELOPMENT CENTERS

    Mr. Culberson. I am particularly impressed with the work 
that the flight centers, for example, the Jet Propulsion 
Laboratory is a Federally funded research and development 
center and Johns Hopkins University has a similar arrangement 
with----
    General Bolden. APL, Applied Physics Laboratory.
    Mr. Culberson [continuing]. APL, Applied Physics Lab.
    General Bolden. Yes, sir.
    Mr. Culberson. And they do a superb job. And you have the 
universities that are essentially running the flight center and 
they are in a five-year contract, I think, with NASA and they 
are reviewed every five years. I am keenly interested in trying 
to find a way to replicate that model for some of the other 
flight centers to get the young people involved, the university 
communities, scientists, engineers, graduate students involved 
in helping these NASA flight centers. From your perspective I 
really would love to have your thoughts, General----
    General Bolden. You are going to get me in trouble, Mr. 
Chairman.
    Mr. Culberson [continuing]. How would, it is difficult with 
the human space flight program. I think that is very different. 
That is a real challenge. But when it comes to, for example, 
Ames in Mr. Honda's district, with all those great universities 
right there, Stanford and others right here, the Glenn Flight 
Center in Ohio, could you give us your thoughts on how we could 
think about looking into the future transitioning perhaps Ames, 
and to let maybe have Stanford and some of the other great 
universities in the area bid on adopting Ames, taking over 
Ames, and running it like a Federally funded research and 
development center like JPL, like Cal Tech does JPL. How can we 
replicate that model at some of the other flight centers and 
what are your thoughts on that?
    General Bolden. Mr. Chairman, I, you know, the National 
Academies have done studies on this in the past. We have 
actually done studies and based on the information that I have, 
mainly to include information yesterday from my deputy who 
served on National Academy boards that looked at this, I would 
not recommend that NASA go the model of, you know, of more than 
one FFRDC. The examples you gave, Ames does an incredible job 
right now of engaging the students, both undergraduate, 
graduate, and post-grad on the campus of Stanford and other 
neighboring universities. Right now if you go out to the Ames 
Astrobiology Center you will be introduced to something called 
the biobrick. And that is the result of collaboration between 
students at Stanford University and people at the Ames 
Astrobiology Center. And that is what we are going to use when 
we go to the surface of Mars. So it is a study that probably 
needs to be done again. But based on my limited knowledge and 
what I have read from the Academies and others, I would be 
leery of trying to assign more than the FFRDC that we have 
right now for NASA.
    Mr. Culberson. Why?
    General Bolden. Well I have served on the advisory 
committee for Lawrence Livermore Lab. And one of the things 
that frustrated me was the fact that it did not get along with 
its sister labs. Each lab is an entity unto its own. They are 
run by a contractor. There is no single mission. I would really 
defer to the Secretary of Energy, because he lives and breathes 
with FFRDCs everyday. That is the bulk of his centers are that 
way. And I just found, you know, as the NASA administrator when 
I set a mission for the agency and I bring all the center 
directors together and say, okay look, I want to hear 
everybody's opinion, I want to hear all dissenting opinions, 
and after that I am going to make a decision. And we are going 
in that direction. The journey to Mars, for example. You could 
not do that with a bunch of FFRDCs. Because they operate 
independently. They do not have any single person like the NASA 
administrator who says you are going to do this. They are all 
set up for different things. That would be my, you know, my 
opinion, my humble opinion.

                         EARTH SCIENCE PROGRAMS

    Mr. Honda. Thank you, Mr. Chairman, maybe we can continue 
this discussion. This is the first I have heard of it and it is 
kind of an interesting question. But it is one that came out of 
right field for me. So we will talk about that.
    General Bolden, as you know I am a strong supporter of 
NASA's Earth Science program, although not everyone in Congress 
is of the same view of NASA's Earth Science. Could you please 
talk about some of the ways in which NASA's Earth Science 
program benefits American private sector enterprises and the 
nation as a whole? And what returns are we getting on this 
investment? And in terms of the Agency's Earth Science 
portfolio, what role does airborne science play? And in the 
interest of the recent announcement of the Earth Venture 
instrument program and the use of CubeSat and SmallSat, what 
role do you see these two entities playing in earth science?
    General Bolden. Congressman Honda, when I think about the 
value of earth science in the way you phrase your question, it 
has enormous both economic and strategic value. And I will try 
to give you a couple of examples. For example, we have the 
GRACE mission right now and SMAP. And I hate using acronyms but 
I will. I could read you the long name but it will not make any 
difference. But both of them look at water on the planet. GRACE 
uses gravity to determine the amount of water in reservoirs and 
underground aquifers and the like. And then SMAP is actually 
looking at soil moisture for its primary part. Those have 
provided useful information to farmers, to decision makers, 
particularly out in the west right now as they go through 
droughts. John Deere Corporation is working with us, looking at 
the potential to use GRACE and SMAP data in some of the work 
that they do. A lot of farmers today follow a model that was 
developed in Israel, something that is called drip irrigation. 
Where satellites feed data down to the ground, it goes into a 
computer, the computer says, okay, the ground is nice and moist 
today, do not need to water. Tomorrow the satellite may come 
over and say, it is really dry, you need some water. And the 
computer determines how much, and it turns on the drip system 
and it goes right into the root system of the plants or the 
vines if it is a vineyard out in southern California, you know, 
in the valley where most of our wine is done.
    UAVSAR, since you mentioned airborne Earth obs, UAVSAR is a 
series of, it is a synthetic aperture radar that we can put on 
a number of NASA airplanes. And that has been used, it was used 
in the Gulf during the BP oil spill years ago. It has now been, 
we are trying to deploy it at the request of FEMA and the 
National Weather Service to look at levies and to look at some 
of the other structures in east Texas and Louisiana resulting 
in the floods, trying to help decision makers to understand 
what to do. So all of those things are the use of NASA assets 
for economic and strategic value. Not to mention Landsat, which 
we actually build Landsat for USGS, for the U.S. Geological 
Survey in the Department of the Interior. But it is through 
that 43-year program now that we have had the most robust land 
imaging system I think in the world.

                            NASA AERONAUTICS

    Mr. Honda. OK. Thank you. Very quickly, the aeronautics 
program, as you know, is the first A in NASA. And it comprises 
the work that NASA has been doing for a long time now. But 
given the size of the program relative to other NASA 
directorates, it does not usually get the same level of public 
attention as other programs do. I would like to focus some 
attention on this important work. Can you talk a little bit 
about some of the ways in which the work of the aeronautics 
directorate and the funding that you are requesting for it, how 
can it help enhance our competitiveness in aviation, create 
jobs here, some of the other benefits that personally I am 
looking for, too----
    General Bolden. Well as a former Marine Corps pilot, since 
I do not fly anymore, I am partial toward the first A, the big 
A in NASA, which is aeronautics. And I am very proud to say 
that over the period of time that I have been the NASA 
administrator we have taken a crawl, walk, run. But thanks to 
the committee, again, we have funding in the NASA budget. And 
the President is proposing in the 2017 budget additional 
funding that will allow us to get into our New Aviation 
Horizons program, a program that came about as a result of 
revamping our aeronautics strategic plan in 2014. And in 
looking with industry and academia at six strategic thrust 
areas that we want to do in aeronautics.
    I think every member of the committee should have a little 
flyer like this, and I apologize that I do not have one of 
these for Europa. But we talk about Europa a lot and we do not 
talk about aeronautics. So that is why I chose to focus on 
aeronautics and I will hopefully get it to the students back 
here. But it talks real quickly about the New Aviation Horizons 
program whereby NASA, for the first time in decades, is 
actually going to be able to engage in building experimental 
airplanes again. What we call X-planes, but they are flight 
demonstrators.
    The top ones for us right now, and it is just because 
industry is so far along on wanting to build a supersonic 
transport that the first one out of the chute is going to be 
the low boom supersonic demonstrator that will allow us to give 
data to the FAA so they can change the regulations that today 
prohibit supersonic flight over ground. Another one is hybrid 
electric propulsion. So that will actually save fuel, be much 
more efficient if you will. We are looking at a hybrid wing 
body. All of these things will help industry and we think it 
will help the airline industry, for example, to save as much as 
$225 billion over the next 25 years as a result of the work 
that we at NASA have been doing with the aviation industry.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much. Mr. Jolly.

                           LAUNCH COMPLEX 39A

    Mr. Jolly. Thank you, Mr. Chairman. Mr. Administrator, 
thank you for being here. A couple of quick questions, first 
one about Kennedy Space Center. A couple of years back NASA 
moved to move the launch complex 39A over to private vendors, 
if you will, for I guess the comprehensive suite of management. 
Can you update us on that? And on the competition for 
infrastructure if you will? And whether or not that has slowed 
SLS or not?
    General Bolden. It has had no effect on SLS whatsoever. And 
I think the reference you make to 39A is, that is the historic 
launch pad from which Neil Armstrong and his crew launched. 
When we phased the Shuttle out we determined that we did not 
need two full launch complexes. And rather than mothball 39A we 
made the decision that in our ongoing effort to try to 
commercialize as much as possible we would compete that. I know 
there were several companies that competed. SpaceX was finally 
awarded a long term lease for 39A. I have not physically seen 
it myself but everybody that tells me says that it has 
undergone a complete revision and it is incredible. That is 
where they intend to launch the Falcon Heavy later this year, 
we hope. In the meantime we have continued our work on SLS and 
Orion. And I would invite anybody who wants to go to Michoud 
down in Louisiana, or go to the Cape if you want to see Orion. 
We actually have, we completed the welds on the first crew 
module for Orion that will fly on EM-1, an uncrewed flight. But 
that is done. We are continuing to work on Orion. It is on 
schedule. SLS, we are actually producing barrel sections that 
go in the core stage of SLS down at Michoud. We just last week 
at Stennis fired a full 500-second firing on one of the RS-25 
engines that is going to go in the cluster of four for SLS. And 
we are about to start testing on the engines that will be used 
for EM-2. We have test fired the SRB, the solid rocket booster 
for EM-1 out in Utah and we have another test firing coming up 
this spring. So I do not, you know, our work with commercial 
entities has actually enhanced our work with SLS and Orion 
because it has freed us up from having to worry about providing 
access to low Earth orbit. I know Mr. Kilmer is really 
interested in commercial space flight and stuff.
    Mr. Jolly. Sure. Sure.
    General Bolden. It is the partnership between commercial 
and government that has actually allowed us to focus on SLS, 
Orion, and deep space exploration while industry and 
entrepreneurs take over access to low Earth orbit.
    Mr. Jolly. So it has been a success at 39A without any 
delay in operations?
    General Bolden. There has been, I would have to ask Elon 
about whether or not he thinks there has been no delay.
    Mr. Jolly. Sure.
    General Bolden. As far as I know, we have not delayed him. 
He is not moving as fast as I think he thought he was, since he 
had actually said they were going to launch last year. But they 
are doing very well by all our measures that we can see.

                          ENHANCED UPPER STAGE

    Mr. Jolly. All right. You mentioned EM-1. On EM-2 in 2021 
we provided funding through this committee for enhanced upper 
stage in last year's bill and it is not in your request I 
believe?
    General Bolden. It is not in the 2017 request--however we 
continue to work on the exploration upper stage as a part of 
the 2016 appropriations. And because we really want to fly the 
exploration upper stage as quickly as we can. And we will, as I 
explained to the chairman, our hope is that we will be able to 
work with the committees in the final determination. Because as 
I said again, it is you that decide what the ultimate 
appropriation is. And so--but we are working on the exploration 
upper stage, although we did not fund it, because we had to 
prioritize and we want to keep moving. We are actually looking 
at, we look at the SLS and Orion as part of a program.
    Mr. Jolly. Sure.
    General Bolden. Everybody gets stuck on EM-1 and EM-2 and 
we are busy worrying about this ten-year period of time that we 
are going to be operating in cislunar space. And we will need 
multiple vehicles, many more than EM-1 and EM-2. So that is 
what we are focused on.
    Mr. Jolly. But to achieve the EUS larger capacity for EM-2, 
there would need to be 2017 funding, right?
    General Bolden. You know, I----
    Mr. Jolly. I understand it is not in your request. But if 
there is no funding there in 2017, does that disrupt the 
ability to then have the EUS in the EM-2 in 2021?
    General Bolden. Let me go, I will take it for the record. 
Because I want to give you a thorough answer. It would cause 
us, as you said, to interrupt the flow of the production of the 
exploration upper stage. But based on the budget that we 
submitted, we think we have a way to still produce the 
exploration upper stage for EM-2, which is what we would like 
to do.
    Mr. Jolly. EM-2, OK.
    General Bolden. But we need to work with the committee, the 
appropriations committees, to make sure that we are getting the 
funding that would be necessary to do that.
    Mr. Jolly. OK. Thank you. Thank you, Mr. Chairman.

               FISCAL YEAR 2016 APPROPRIATIONS DIRECTION

    Mr. Culberson. Thank you, Mr. Jolly. General Bolden, just 
if I could very quickly, to be sure that you all are following, 
NASA is following the appropriations bill.
    General Bolden. Yes, sir.
    Mr. Culberson. OK.
    General Bolden. We are, and that is what I meant, Mr. 
Chairman. We are working on the 2016 appropriation.
    Mr. Culberson. You are working, exactly. That is very 
important. Because over the years that I have had the privilege 
to serve on this subcommittee, I got so frustrated with 
predecessors, the previous President, not just this President 
but previous Presidents, who did not give NASA the attention 
that you deserve, the support that you deserve. The President 
would come out with a budget and NASA and every other agency 
would just change direction and start following the budget 
request instead of the appropriations bill. And I got so 
frustrated with it. Because it is damaging to the exploration 
upper stage, to these incredibly expensive and complicated 
spacecraft and rocket programs for the agency, all these fine 
men and women who have devoted their lives to building these 
rockets and spacecraft, to change course and start following 
the President's budget.
    This is a very important point I just want to drive home, 
is that the--I am pleased to hear you say you are following the 
appropriations bill. Because I put statutory language in last 
year's bill and this one that says literally no agency can 
change any program, policy, you cannot change funding levels 
for any program or policy based on the President's budget. You 
have to follow the appropriations bill. And you are following 
the appropriations bill?
    General Bolden. We are following the 2016 appropriations 
presently, sir.
    Mr. Culberson. Thank you. So the budget recommendation for 
the President is simply a recommendation for our discussion. As 
long as you follow the appropriations bill, we are good.
    Mr. Honda. Well that is the law.
    Mr. Culberson. That is the law. Right. But it is so 
frustrating to see the agency change course----
    Mr. Honda. Yes.
    Mr. Culberson [continuing]. When we love you, we are 
devoted to you, and we want you to stay the course and follow 
the 2016 appropriations bill. Thank you. Mr. Kilmer.

                          NEW SPACE COMPANIES

    Mr. Kilmer. Thank you, Chairman. I was just observing, it 
is nice to have an agency come in where they are told they are 
loved. So congratulations.
    General Bolden. I am all in.
    Mr. Kilmer. So thanks for being with us. You correctly 
observed my zeal for some of the exciting work being done by 
innovative entrepreneurial companies, a lot in my neck of the 
woods which is getting a reputation as sort of the Silicon 
Valley of space. But my interest goes beyond the parochial. It 
is excitement about the work that is being done, from building 
rockets and launching satellites, to Earth imaging and remote 
sensing, to even some further out there ideas, including mining 
of asteroids and sending tourists to space. You know, I think 
there is a lot of innovation and technical development that is 
happening and it can lead to a lot of good American jobs. I 
guess--and not to mention the fact that it can bring down some 
of the costs associated with NASA's mission.
    I guess I just want to get a sense from you of how should 
NASA leverage these new space companies, both to encourage 
growth of the industry but also to maximize the bang for the 
buck for what NASA spends on exploration and discovery in 
space? And also if you can give a sense of do you have the 
direction and the authority and the resources you need for 
those kinds of partnerships with the private industry?
    General Bolden. Mr. Kilmer, you know, thanks to this 
committee and the Congress and the appropriations funding in 
2016, the one area where we were lacking was Commercial Crew. 
And thanks to the appropriations in 2016 we are now stepping it 
up and catching up. And both of our providers, Boeing and 
SpaceX, are telling us that they will be ready for their 
certification next year, 2017.
    In a case that is close to home to you, what our process 
allows us to do in working with industry and academia is it is 
not one size fits all. So we have the ability to use Space Act 
Agreements which are a form of contract; it is other 
transactional authority. It is not a real hard contract, where 
they have to follow FAR, the Federal acquisition regulation. 
Blue Origin, for example, they are where they are today in the 
development of the BE-4 and the BE-3 engines that are probably 
going to enable us to free ourselves from the RD-180; they are 
three years down the road because of the work that they did 
with us through a Space Act Agreement at Stennis in testing 
components of those engines. They did not test the whole engine 
because they do not need to. They have got their own test 
facility. The same thing with SpaceX, Orbital, you look at 
companies, some enter into contracts with us and others just 
want to do a little bit. So I think that is the way we have 
leveraged the ability of the, you know, the commercial 
providers.
    As I mentioned to Mr. Jolly in his question, it has freed 
NASA up to do exploration. To do the big things that 
governments have to do. You know, a lot of stuff we do you 
cannot expect a private company, even with a billionaire 
leader, to accept the risk for some of the what seems to be 
crazy stuff we do every once in a while. It is only a 
government organization that should do that.

               NEW TECHNOLOGIES FOR FUTURE SPACE MISSIONS

    Mr. Kilmer. I want to focus some attention on sort of a 
specific issue with regard to new technologies and some of the 
work being done by private industry. It is undoubtedly 
expensive to send supplies and equipment into orbit, it is also 
not easy, let alone sending those supplies all the way to Mars. 
And you have seen companies develop ways to do everything from 
mining minerals and other resources such as water from 
asteroids and incorporate 3D printing technologies into space 
systems so that large bulky components can actually get 
manufactured in space instead of trying to fit those pieces 
into rockets. Which I think is amazing and innovative and out 
of the box. So how does and how should NASA partner with these 
innovative companies to incorporate these new technologies into 
planning for future space missions? You know, and is NASA 
working with industry partners to develop these new 
technologies, for example solar electric propulsion to 
transport cargo and equipment beyond Earth orbit?
    General Bolden. We are. And another example I will give you 
is for the mission to Mars. The solar electric propulsion 
powered vehicle that is going to carry cargo. Or for our 
Asteroid Redirect Mission. That is going to be a robotic 
vehicle that is going to go to the asteroid to get a big 
boulder. We are not developing game changing solar cells 
because we are partnering with industry. There are a few 
companies, and I will not bother to name them, but most are out 
in Southern California, others are different places, who are 
doing game changing solar cells. Our job is to try to figure 
out how to package that. How to put a giant solar array that is 
using this high energy solar cell, how do we package it and put 
it into the nose cone of a spacecraft? So that is they way we 
are leveraging, letting them do the development of the game 
changing technology that way. And our job is to fit it into a 
spacecraft.
    If I go back to Blue Origin again, they are using 3D 
printing to produce engine parts. SpaceX is using 3D printing 
to produce engine parts. We are using 3D printing on the 
International Space Station now to produce tools. They are 
prototype. They are not metal tools yet because we have not 
figured out how to do metal in the microgravity environment of 
space yet because we still have to feed ribbons. We have got to 
figure out a way to contain powders that you would do if you 
are going to do something like inconel or stainless steel. But 
we are working with industry hand in glove. And I think if you 
go into some of our laboratories, or we would like to see it in 
some of their factories but we do not do it yet, you will see 
them side by side with us in trying to get to the places we 
want to go.
    Mr. Kilmer. Terrific. Thank you. Thank you, chairman.
    Mr. Culberson. Mr. Palazzo.

                            NASA'S MISSIONS

    Mr. Palazzo. Thank you, Mr. Chairman. General, it is great 
to see you again.
    General Bolden. Good to see you, Marine.
    Mr. Palazzo. You tried to get rid of me but you could not. 
I just went from one committee to the other.
    General Bolden. Sure.
    Mr. Palazzo. I just wish we could have gotten the 2015 
authorization taken care of. But----
    General Bolden. That would have been nice.
    Mr. Palazzo. We did. The House did its business. The 
Senate, of course, was absent. We will just leave it at that. 
But anyway, it has been a great pleasure working with you to 
help NASA create a roadmap and rein in their focus so that we 
could pursue the mission to Mars and direct our resources and 
our energies towards that. As you shared with my previous 
committee and with this committee, that, you know, maintaining 
America's leadership in space is a priority of yours as it is 
ours and the chairman's. And we all look forward to the day 
where we are launching American astronauts on American rockets 
from American soil. And so we are excited. And you referenced 
the students in here. I think they are going to be very excited 
just following the mission for us to get there.
    But I would like to start off with a question and it is in 
regard to--well, let us just say you know NASA is the only 
Federal agency tasked with space exploration. Is there any 
other Federal agency tasked with that mission in its charter?
    General Bolden. Human space exploration, none. DOD does a 
little bit of space exploration and----
    Mr. Palazzo. For other purposes.
    General Bolden [continuing]. For other purposes.
    Mr. Palazzo. Right, civilian purposes.
    General Bolden. We are the primary, we are the civil, the 
only civil agency tasked with space exploration.
    Mr. Palazzo. And of course it is important that we focus on 
commercial crew and cargos. You have testified today and 
previously that it frees NASA up to focus on the exciting stuff 
of deep space exploration. And I understand that. But yet every 
time we look at a budget I see the earth sciences budget 
increasing and I see the space exploration budget decreasing 
for NASA. And of course it is Congress that comes in and helps 
plus up the space exploration budget. So when there are 13 
other Federal agencies tasked with climate science, do you 
think it is the best use of NASA's money to put into earth 
sciences? Or would it be better to focus on, you know, 
commercial crew, cargo, and deep space exploration?
    General Bolden. Mr. Palazzo, one of our charges in the 
original NASA Space Act of 1958 is to take care of the Earth. 
And so it has always been a responsibility of ours to provide 
cutting edge technology that can be used by other agencies. We 
do not do weather. You know, we do not do global warming. We 
just do data. And as I mentioned before, for 43 years we have 
produced every successful Landsat satellite that has been used 
by the U.S. Geological Survey. We produce the satellite, check 
it out, and give it to them. And then we do not do anything 
after that. So it is our responsibility to the taxpayer to 
provide that type of cutting edge technology that can answer 
some of the questions about our changing climate for them.
    I do not think it detracts from our ability to explore at 
all. In fact, it enhances our ability to explore because, you 
know, the chairman can teach me on this. He knows a lot more 
about it than I do. We believe we all started from one thing at 
the time of the big bang. And you know, we want to understand 
what is happening to Mars. We want to understand what is 
happening to other planets so that we understand our own planet 
better. But we do have to understand what I consider to be the 
most important planet in the world, which is Earth. And that is 
what NASA does, is----
    Mr. Palazzo. And I appreciate that. And that is why, you 
know, focusing on Mars and other planets would be planetary 
sciences and not Earth sciences. And I understand, but you 
know, 13 other Federal agencies are spending billions and 
billions of dollars. I just wish we could take----
    General Bolden. They do not do it as well as we do.
    Mr. Palazzo. Well, yes. And I wish we would just take the 
billions of dollars that we spend on it and put it into deep 
space exploration.
    My next question would be, and then this is just out of 
curiosity, are there any, are you aware of any nation state 
that has any possible lunar ambitions, whether going there, I 
know China recently sent a rover. But are they looking to build 
any type of capacity possibly on the Moon?
    General Bolden. We are hopeful that a number of our 
partners, our international partners, are hopeful of putting 
things and people on the surface of the Moon. We are going to 
spend ten years in cislunar space, operating in the vicinity of 
the Moon, beginning in 2018 when we launch SLS and Orion. That 
will be the beginning of, we have this phrase, we call it the 
Proving Ground. And a lot of people do not like it. But it says 
very simply we are going to spend the decade of the twenties 
with humans back in cislunar space. We are not ready to go to 
Mars yet. And so our hope is that over the period of time we 
will be able to collaborate with some of our international 
partners to get them to share the load of getting humans back 
to the surface of the Moon. Others talk about wanting to do a 
lander. The European Space Agency talks about a Moon village. 
It is a concept, but it is a great concept when you talk about 
it. But we have to lead. And leading does not mean we have to 
do everything. We have to encourage them, support them, so that 
they can do it. So there are any number of other nations that 
have a strong interest in going and doing research on the Moon.
    Mr. Palazzo. Right. And I hope those nations are friendly 
to America.
    General Bolden. They are all very friendly.
    Mr. Palazzo. The ones we are talking about, right.
    General Bolden. The ones we are talking about.

                              SPACE DEBRIS

    Mr. Palazzo. The ones we are not talking about, I am not so 
sure.
    In 2007 a certain nation state decided out of their 
infinite wisdom they were going to blow up a satellite in space 
creating a lot of space debris. I think at last count we try to 
track 500,000 pieces of space debris that orbit our Earth. How 
does that affect space travel and how does it affect the assets 
that are so critical to our day to day lives, the quality of 
our life, our military, our communications, our banking, our 
financial, healthcare?
    General Bolden. Congressman Palazzo, just like----
    Mr. Palazzo. What are we doing about it?
    General Bolden. China, you are talking about the ASAT test 
that China did. While that was intentional, you know, we had 
two satellites, two commercial satellites that ran into each 
other and created the same kind of debris that that did. 
Anything where two bodies come together in space and collide, 
whether it is intentional or otherwise, is bad for low Earth 
orbit. We are trying to work with a number of our international 
partners on what we call mitigation of orbital debris. That 
means that when we build a satellite it has to have enough fuel 
that it will not orbit after it is finished with its lifetime. 
It will not just stay down there in low Earth orbit and become 
a target for something. It will either be purposefully 
deorbited into the ocean and destruct or we will move it into a 
higher orbit where it will stay for hundreds of years and be 
out of the way of everybody.
    What we are not working on, because DOD, the intelligence 
agency, NASA, all understand the critical need for coming up 
with a means to do orbital debris removal. No one today has an 
active program in orbital debris removal, although some of our 
international partners would like to do that. That is what they 
want to focus on. So we have got to do more.
    Mr. Palazzo. Could you real quickly just emphasize the 
dangers that space debris provides to our Space Station, our 
space travel, and other very expensive assets in space?
    General Bolden. A fleck of paint coming at the right angle 
toward the International Space Station would be disastrous. 
That is how, you know, it is a big space so I do not want to 
panic anybody. The U.S. Air Force out in Colorado Springs, 
along with us, we track as much as we, we track thousands of 
particles, pieces of orbital debris. And so every once in a 
while we have to maneuver the International Space Station in 
order to avoid that. You are right.
    Mr. Palazzo. Thank you, Mr. Chairman. Thank you, 
Administrator.

                      NASA INTERNATIONAL PARTNERS

    Mr. Culberson. General Bolden, real quickly, when you 
mention international partners, what countries are you thinking 
about, present and future international partners?
    General Bolden. We have about 15 partners on the 
International Space Station today. If you are talking about 
aeronautics we have 26 partners in something called the 
International Federation of Aeronautics Research. And so there 
are a lot; we have more than 800 signed agreements today with 
more than 120 nations in the world. So NASA is the world leader 
when it comes to aeronautics, science, and exploration.
    Mr. Culberson. I just want to be sure we are not talking 
about the Chinese.
    General Bolden. Mr. Chairman, whenever we do anything with 
the Chinese, as I think you and the committee are aware, we 
submit a certification to you and to the Senate Appropriations 
Committee listing every individual that is going to be in the 
meeting, what the subject is going to be. We go through an 
enormous database----
    Mr. Culberson. Right, and we clear that with the FBI.
    General Bolden. We clear----
    Mr. Culberson. We want to keep that contact very, very 
limited.
    General Bolden. I just did not want to mislead anyone 
that----
    Mr. Culberson. Because they are not our friend.
    General Bolden [continuing]. Yes, sir, that we do not do 
anything with the Chinese. When we do, though, we certify as 
required by law that the folks that we are working with are not 
engaged in human rights violations, are not engaged in 
terrorism, and there is going to be no exchange of technology.
    Mr. Culberson. Thank you very much.
    General Bolden. And we have lived by that.
    Mr. Fattah. Mr. Administrator, it is good to see you.
    General Bolden. Great to see you, sir.
    How is Overbrook?

                            NASA RECRUITMENT

    Mr. Fattah. Overbrook High is doing very, very well, mainly 
because of your visit. You know, the science program is much 
more aggressive, but it is the alma mater of Guion Bluford, and 
NASA holds a special place. Not just there, but there was a 
time when over 3,000 engineers worked right at GE Re-entry 
right there in West Philadelphia.
    So, let me just first of all thank you for your leadership. 
It has been extraordinary. We have worked together on a lot of 
things, but particularly I am pleased to see the commercial 
crew and cargo program going well and I appreciate your 
comments earlier that this worked and working with the private 
sector, you have a Philadelphia firm that is working with NASA 
now on new space uniforms for your astronauts. That this 
commercial partnership is critical and NASA being able to focus 
in on the things that we cannot do in the private sector and 
there is not a profit center for as of yet.
    I have spent some time, as the chairman is aware, you know, 
making sure we understand this. So, I was at the Jet Propulsion 
Laboratory on my last visit. I had my wife with me and we had a 
great time learning about the great work that is being done, 
and particularly, looking at some of their science stuff and 
some of the other work that they are doing.
    You talked about the Space Act Agreement. I want to thank 
you for the partnership with the Boys and Girls Club of 
America. I am meeting with them later on today. And this 
worked, and the 4,000 centers--clubs around the country, 
getting our young people interested in space and science is 
critically important and we have quite a partnership now of 
FIRST Robotics, because at some point we have to understand, 
you know, the Europeans and the Russians just in the last few 
days, have launched a non-manned mission to Mars, right; 
looking at methane and looking at some of the questions about 
life or the potential for life.
    And NASA is the premier leader in the world because of the 
team you have and we have to be able to replenish that team, 
and so we need young people who are going to focus on this. I 
have talked to the chairman about this and it is very, very 
important that we not miss the boat in terms of the critical 
skill shortage that is going to materialize even more so at our 
national labs, at NASA, at--you know, in terms of our nuclear 
enterprise. These are areas--we do not have to worry about the 
Chinese. We can only have American citizens do this work. The 
problem is we do not have enough of them in the pipeline that 
are going to be in a position to do this work, so the last 
thing we want to do is have made all these investments and then 
to fall short on the baton pass to the next generation of 
leaders. So it is very, very important.
    I want to thank you for the leadership that you have put 
in. You know, we talk about the, you know, the rocket ships and 
all this, but your presence at a school like Overbrook, your 
presence talking to young people--and your team, I came over 
and met--witnessed your manager's meeting, in which you place 
in every single part of the agency, a premium on making sure 
that they are working to get people ready to take on the work 
and the leadership at NASA.
    I wish you would just take a few minutes and talk about 
this part of your mission.
    General Bolden. One of the things that I think everybody 
knows is we have been the best place to work in the Federal 
government in the large-agency category for the last four years 
and it primarily comes, I think, because of our mid-level 
managers and leaders, and it is the way that we push employee 
engagement, making sure that, one, they emphasize the critical 
importance of diversity, which means numbers, but that in 
itself is not as important as inclusion. If there is a woman in 
the room, or there is a minority in the room and nobody let's 
them say anything, they may as well not even be there. So 
inclusion becomes the most important part of the D and I that 
we do. We put a lot of emphasis on it. We have a D and I 
partnership, that is all the leadership of the agency and we 
come together several times a year to talk about how we promote 
diversity and inclusion in the agency.
    And I think, you know, we try to pass that on when we go 
out and--every time I talk to young people I try to explain to 
them that, you know, they got to get used to being in a room 
where everybody doesn't look like them, because that is the 
world and they have got to be able to sit in a room where 
everybody doesn't think like them and they have got to be able 
to give them the respect of at least----
    Mr. Fattah. I thought the chairman and I were like kissing 
cousins or something. I mean we look almost identical, right?
    General Bolden. Well--but that is sort of it. Employee 
engagement, I think, is the key for--people that ask about 
secret sauce. There is no secret sauce; it is our mid-level 
leaders who actually are the ones who touch and feel our 
employees every single day and try to impress them.
    Mr. Fattah. Well, thank you and thank you for your 
extraordinary career in public service.
    Thank you, Mr. Chairman.
    Mr. Culberson. Ms. Roby.

                       EM-1 AND EM-2 LAUNCH DATES

    Mrs. Roby. Thank you, Mr. Chairman, and thank you, 
Administrator Bolden, for being here. Thanks for being in front 
of our committee and all you do to advance our nation's future 
in space.
    I am also glad that you and NASA officials, earlier this 
year, announced Todd May the official director of Marshall 
Space Flight Center in Alabama. Marshall plays a major role in 
NASA, as you know, and has a great impact on my home state. It 
employees almost 6,000 civil service and contractor employees 
with an estimated $3.8 billion in economic output and $96 
million in state and local tax revenues.
    Just last week, NASA Day was held in my hometown of 
Montgomery where Todd May and his team from Marshall spread the 
word about the importance of Alabama's role in NASA--with NASA.
    NASA's Journey to Mars runs through Alabama, are the words 
that Director May--and I could not agree more--those are the 
words that he used, and so with that, I want to touch on Space 
Launch System and the Orion spacecraft. I know you talked to 
Mr. Jolly a little bit about this; there are suppliers in all 
50 states that contribute to SLS and that shows a national 
effort to deep-space exploration.
    And in the fiscal year 2016, NASA asked for $1.3 billion 
for SLS, and Congress, led by this subcommittee, made it to $2 
billion, which was enacted into law. And this year, the 
president's request calls for $1.31 billion, and so, wouldn't 
you guess that Congress, again led by our fearless chairman 
here, this subcommittee would get funding upwards of $2.8 
billion for this fiscal year. That is what we need, and I want 
to ask you to contribute to the conversation that your agency 
does project when we will reach EM-1 in 2018.
    But the question is, do you actually think that we can meet 
this launch date with the funding request of the President, 
rather than what we hope to achieve here on this subcommittee?
    General Bolden. Yes, ma'am. There is no doubt in my mind 
that we will fly EM-1 in 2018; that is what the President's 
budget supported and that is how we picked it.
    And, in fact, going back to something that Mr. Jolly said, 
and I should correct one thing, 2023 is the Agency's commitment 
date to EM-2, and that is based on the President's budget run 
out. That is not based on appropriations. So, 2021 is a date 
that we said, you know, we would hope to launch, if instead of 
the run out that comes from the President's budget, we got----
    Mrs. Roby. Well, do you think that is likely to occur at 
the trajectory of the President's budget request?
    General Bolden. The President's budget, we will launch in 
2023 and that is----
    Mrs. Roby. Oh, I was asking about 2021. If Congress were to 
increase the funding to the levels that----
    General Bolden. I don't, you know, I try not to get into 
conjecture. If Congress increases the budget, we will use it to 
buy down risks. We will go out and procure advanced parts that 
we will need for later on in the program.
    The discussion we had a little bit earlier was that we are 
actually looking at supporting a program and not just the first 
two flights. So, if we got more money, we may actually go out 
and get long lead items that would have no effect whatsoever on 
EM-1 or EM-2.
    What I cannot do is bring EM-2 forward, put all the money 
into that, have no long lead items and have no program. So, it 
is--I trust my--people like Todd May and his team to tell me 
what they need and when they need it.
    What would really help is even appropriations, not--it is 
important to have magnitude, but it is also--it is invaluable, 
for those of you who have been in business, to be able to 
follow a funding curve that lets you have a development 
program. We have never done that. NASA's funding curve has 
always been a flat line; that is not a development program. And 
we have people like Todd and his team that take a flat, non-
development program curve and make it work.
    So, I am saying a lot to say that 2023 is the date to which 
we committed and we will make that date on the President's 
submission for 2017. If we get more money, we will buy down 
risks. We will do long lead items, and we believe that would 
enable us to launch sometime earlier, but I don't--you know, I 
will let Bill Gerstenmaier and his team come back and talk 
about what those specific dates are.
    Mrs. Roby. OK. Thank you.
    I yield back.
    Mr. Culberson. To follow-up on Ms. Roby's question, she is 
correct; we are, all of us, strong supporters of getting the 
SLS Program up and running as quickly as possible, but you said 
you are doing a run out? Your estimates on when you could 
launch are based on the President's budget?
    General Bolden. We look at----
    Mr. Culberson. You really cannot use that; that is just 
simply a recommendation. What matters is the appropriations.
    General Bolden. You are absolutely right. The spending this 
year is determined by the appropriations we get. You know, in 
my world, then I have to pick and choose some amount of 
funding, and so I pick what we assume the run out on our budget 
is going to be--it will get us to 2030; that is impossible to 
think that----
    Mr. Culberson. Based on the President's recommendation?
    General Bolden. Based on the President's out year budget, 
yes.
    But we state--Mr. Chairman, we state that very clearly, 
that based on the President's budget request at our key 
decision point where we made our official announcement about 
the date for launch and the cost for the vehicle, that very 
clearly states that that is based on the President's budget 
request, not on a single year's appropriation. And we also, as 
I just said to Mr. Jolly and Mrs. Roby, if the Congress chooses 
to fund us at a higher level, that conceivably draws the launch 
date in, but not necessarily.
    It depends on--because we are talking about a program, you 
know, and we want to purchase long lead items. We want to do 
EUS.
    Mr. Culberson. Well, it is hard to be critical of this good 
man because he is a Marine and a good soldier.
    General Bolden. No, Mr. Chairman. That is----
    Mr. Culberson. No, but you are following the President--I 
understand you are--you know, you have to follow what the 
President's recommended, but I just want to make sure----
    General Bolden. Yes.
    Mr. Culberson. Ms. Roby's right; we are going to get you 
the funding that you need to make sure that SLS is taken care 
of. You can launch then on--you are expecting that you will be 
able to launch in 2018 for EM----
    General Bolden. 2018 for EM-1 and 2023 for EM-2.
    Mr. Chairman, you know, you have to understand when we put 
a lot of these budgets together, we were under sequester. We 
are still under sequester. That is not done yet. You know, it 
would be nice for me to pretend that the Congress has solved 
the sequester question. So, the President's 2017 budget is 
optimistic, if you compared that with what we would get under 
sequester. So, I am taking an optimistic view at being able to 
develop a program. We need to get our financial house in order. 
I agree with you.

                         NASA PROGRAM STABILITY

    Mr. Culberson. Sure. Talk to us a little bit about 
stability and certainty and predictability. What would be some 
of the things that, for example, the NASA authorization bill, 
that Mr. Palazzo mentioned from his work on the Science 
Committee. I have been keenly interested in this and Chairman 
Smith has been very supportive of legislation that my 
predecessor, Frank Wolf, and I developed to try to give NASA a 
greater certainty and predictability and stability in your out 
years----
    General Bolden. Yes.
    Mr. Culberson [continuing]. So you could plan for the 
future.
    What are some of the things--for example, multiyear 
procurement, I understand you already have the ability to do 
multiyear procurement. And what could the--what can you do and 
what can the Congress do to support you in that effort to give 
the agency greater stability from year to year, so you are not 
doing----
    General Bolden. You really want my answer, sir?
    Mr. Culberson. I do, thank you.
    General Bolden. If the Congress were to do one single thing 
that would dramatically increase the stability that this agency 
and every other agency of the Federal government, it would be 
multiyear funding. You know, one-year budgets, they don't--they 
make life miserable for American industry, for our workers, for 
everybody. If the Congress--if the Authorization Committee 
wanted to do one thing, just one thing that would dramatically 
change the way that this country operates and competes, it 
would be one-year funding.
    Mr. Culberson. And you, of course, already have the 
authority to do multiyear procurement, however, on the big 
rocket systems and spacecraft.
    General Bolden. Well, you know, we get two-year money and 
we get that kind of money. That is not the same as multiyear 
funding, where instead of giving me a one-year budget, you give 
me a budget for five years.
    Mr. Honda. You asked him the question, Mr. Chairman.
    General Bolden. You are not about to do that because----
    Mr. Culberson. But I want to find out within the existing 
boundaries of law----
    General  Bolden. Ms. Roby is smiling at me because she 
won't argue with the chairman.
    Mr. Culberson [continuing]. Until we have a new 
authorization.
    Mr. Honda. We know what the law is, Mr. Chairman. The law 
and the process is: The President proposes and we dispose----
    Mr. Culberson. Sure.
    Mr. Honda [continuing]. And that is the law.
    Mr. Culberson. But I mean in terms of multiyear 
procurement. I am talking about greater stability for the 
future----
    Mr. Honda. Mr. Chairman, that is the----
    General Bolden. That was my one--you asked me for one thing 
that the Congress--that the Authorization Committee could do. 
The Authorization Committee--should I be quiet?
    Mr. Culberson. Yes.
    General Bolden. No. You asked me about authorizers.
    Mr. Culberson. Sure. Sure. Yes. Yes.
    General Bolden. Because, as I understand it, the way this 
thing works is, in a perfect world, the authorizers give you 
guidance. They give you a roadmap and then you fund it. That 
almost never works.
    You know I have been a NASA administrator for six years. I 
think I have had two authorization bills, maybe three.
    Mr. Culberson. Yes, it has been very frustrating, because 
the House, as Mr. Palazzo says, we do our part----
    General Bolden. I share your frustration, Mr. Chairman.
    Mr. Culberson [continuing]. But they disappear in the 
Senate.
    General Bolden. Yes, sir.
    Mr. Culberson. So that--but you would be able to, as you 
mentioned, do advanced procurement of critical components.
    General Bolden. Yes, sir.
    Mr. Culberson. If you already got that authority----
    General Bolden. That would be incredible.
    Mr. Culberson [continuing]. If we gave you the funding 
necessary, for example, on SLS, as you said to Ms. Roby, you 
could do advancement procurement of critical core components. 
That is done in the Virginia-class nuclear submarine program, 
for example.
    General Bolden. Yes, sir.
    Mr. Culberson. The Navy will buy components of the nuclear 
reactors in advance----
    General Bolden. Yes.
    Mr. Culberson [continuing]. In order to help make sure that 
they have got some stability over multiple years.
    Let me ask very quickly, when, this year, will you-- before 
I pass it to Mr. Honda--to follow up, one last question on the 
Europa mission, when over the next few months will you be 
announcing an announcement of opportunity for the science 
instruments to be included on the lander for Europa?
    General Bolden. Mr. Chairman, that is--that won't happen 
this year. You know, we have to decide, first of all--I think I 
mentioned earlier that I--and I will--let me take it for the 
record, because I do not want to misspeak, because I know you 
have information from JPL and others and I do not want to get 
cross-wise with the guys that work for me.
    Mr. Culberson. Take that for the record. Let's do that for 
the record.
    General Bolden. Yes, sir.
    Mr. Culberson. Mr. Honda.

                            EUROPA MISSIONS

    Mr. Honda. Well, thank you, Mr. Chairman.
    I want to go back a little bit on my questions on--that 
deals with Europa and the astrobiology missions in our solar 
system. Two weeks ago we had the pleasure, through Chairman 
Culberson's leadership, of hosting a very interesting hearing 
on exploring the water worlds of our outer solar system. It 
started with the Jovian moon of Europa. I am also very pleased 
that the Science Mission Director had recently recognized other 
water worlds, including Enceladus, with potentially interesting 
astrobiology, and opened a New Frontiers competition to look 
into exploring these worlds, as well.
    As part of the discussion with Dr. Elachi and Dr. Lunine, 
we heard that signs of life and searching for planetary 
habitability--see, I can say that word today; I fell over that 
word last time--for life are two different things. We heard 
that a planned orbiter and potential lander will analyze 
habitability of Europa, which is quite different from detecting 
life or signs of life.
    So, does life impact your--is searching for signs of life a 
goal of the Europa orbiter mission and what would be required 
to actually search for life and not just for habitability, but 
with the orbiter?
    General Bolden. This is out of my league, but as I 
understand it, when we search for signs of life, like the James 
Webb Space Telescope will help us do, in a lot of the 
exoplanets and planets orbiting other suns in other solar 
systems in other galaxies, we are looking for the basic 
constituents of life, something that could produce microbes, 
oxygen, hydrogen, potassium. We can do that remotely, but when 
you are searching for life, itself, there is nothing like, as 
the chairman says, putting a lander down there and having them 
go out and touch and feel and get a sample. And is that really 
a microbe or is that just a disparate collection of the 
components of microbial life?
    So, when people ask me all the time, why don't we just do 
robotic exploration? Robotic exploration is great, but at some 
point, you need to put a human into the environment so that we 
can determine whether we are looking at disparate pieces of 
life or whether we are actually looking at life, itself.
    Mr. Honda. Does that have to do with--I guess what I heard 
your term was----
    General Bolden. And the disclaimer I made, Mr. Honda, was I 
do not know what I am talking about. You know, I am telling you 
what my chief scientists and others tell me.
    Mr.  Honda. Being a science teacher, though--because a lot 
of times it is better for me to learn how to ask a question and 
not know the answer.
    General  Bolden. Yes, sir.
    Mr.  Honda. But this whole term handedness of amino acids, 
is that part of the effort to look at, perhaps other kinds of 
missions or concepts for the--to get engaged in?
    General  Bolden. You talked about earlier, you and Mr. 
Kilmer, talked about CubeSats, MicroSats and the like, concepts 
for the future. When you talk about both, looking for signs of 
life in and evidence of life are, for example, on future 
missions to Europa or Enceladus or some of these other moons 
that have the geysers, the geyser activity, is to fly, you 
know, a SmallSat or a CubeSat through a geyser where it gets 
wet. That will tell you whether there is life there.
    And, you know, when we talk about future Europa missions, 
that is what you would hope you will do. You get the guys out 
of JPL started and they can tell you all kinds of stuff, but it 
doesn't happen overnight, the way that they sometimes would 
like to have us believe. It is a slow----
    Mr.  Honda. A lot of discussions around that and when we 
did talk about geysers, it was clear that there were natural-
occurring geysers and then there is a--we can impose or create 
geysers through impacts. Is that something that----
    General  Bolden. I will have to take that for the record, 
Mr. Honda.
    Mr.  Honda. OK.
    General Bolden. You know, one of the reasons we want to do 
a very serious study of Europa, for example, with orbiters is 
because we believe it will take us two years to completely map 
the surface. You know, you don't do one orbit and you are 
happy; it is probably two years.
    Mr. Honda. Sure.
    General Bolden. And that way, we will be able to find out 
where is the ice thickest? Where is it thinnest? Where is it 
most like will to--if you are going to artificially try to 
produce an opening for water to come up, where is it most 
likely able to do that?
    Mr. Honda. Yes.
    General Bolden. The other thing about Europa that is, at 
least I think I understand this, is that some other moons, some 
of the other icy moons have geysers with regularity, that are 
predictable. So, you know, you can schedule when you are going 
to fly through that. And we haven't had--to my knowledge, we 
haven't had that benefit from Europa yet. You know, we see them 
sometimes, but we don't--they don't occur with regularity like 
Old Faithful out in Yellowstone. Is that where Old Faithful is?

                          TECHNOLOGY TRANSFER

    Mr. Honda. Well, and another way of looking at future 
funding and how we could look at robust funding and take 
advantage of the kinds of things that we develop at NASA, the 
term technology transfer is something that is very important--
--
    General Bolden. Yes.
    Mr. Honda [continuing]. In terms of what we do, and as in 
how this could be--this technology transfer could be 
commercialized into the commercial arena. So, you know, taking 
these kinds of technologies and transferring them can provide a 
lot of jobs and a lot of activities, sometimes beyond what we 
really would be able to imagine.
    Can you talk a little bit about the Technology Transfer 
Program and explain to me the funding levels that have occurred 
over time; will this decline or remain the same? It appears 
that it is declining, and it seems like this is something that 
we really should be paying attention to, to make sure that we 
really do, plus-up with the kinds of investments we make in 
research and development at NASA.
    General Bolden. I will take it for the record to get you 
specific numbers, but I seem to recall that when you look at 
what we are doing now to measure our effectiveness in 
technology transfer, for example, the Office of Chief 
Technologist and the science technology--the Space Technology 
Mission Directorate, between the two of them, we now have a 
technology transfer database so that we can go in and we can 
see which technologies have made it to the--into industry or 
academia or into entrepreneurs.
    One of the global ideas about the success of technology 
transfer is our Spinoffs books that we produce every year, that 
lists thousands of technologies that have been spun off from 
work that NASA has done, but that is not a sufficient way to be 
able to track, to give you metrics on your technology transfer. 
So, the fact that we have produced this database and that we 
now keep it better than we ever did before leads me to believe 
that we are putting more money into technology transfer. But I 
will get you the data. I will take that for the record.
    Mr. Honda. This will be the last part of this question 
round. It seems to me the kind of wealth that we can realize 
from technology transfer should be something that we should 
track because it gives us a sense in the future that the 
investment we are making now will pay off in the long run; not 
only for the projects that we are planning for, but for the 
general economy of our country.
    And if that pencils out the way I think it should, there 
should be more attention being paid, as the chairman would like 
to see, on the kinds of things that we do. It enhances our 
life. It enhances the quality of your life and it probably 
provides a lot of different kinds of aspects that we haven't 
even thought of, and it takes Moore's Law a little further out.
    Thank you, Mr. Chairman--oh, Mr. Chairman, I just wanted to 
give you this. It is something that reminds me of my visit to 
NASA.
    Mr. Culberson. I recognize that, right?
    Mr. Honda. I think it sits on one of the things that we are 
looking at.
    Mr. Culberson. Well, no; that is the Johnson Space Center. 
Thank you. Thank you, Mike.
    Mr. Jolly. Thank you, Mr. Chairman.
    Just one very quick top-line question. One of the 
justifications for moving to commercial providers for crew and 
cargo to station was to essentially spendless or achieve 
certain efficiencies and savings, so that then you could focus 
on other activities. Are we spending less? Have we achieved 
savings?
    General Bolden. I would say we are, sir. I can, you know, I 
will take it for the record to get you the specific data on 
comparative costs between what NASA was paying in the days of 
the space shuttle program when we had to provide all the 
infrastructure and everything.
    Mr. Jolly. OK.
    General Bolden. Yes.
    Mr. Jolly. That is it. Easy question.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.
    Mr. Palazzo.

                    INFORMATION TECHNOLOGY SECURITY

    Mr. Palazzo. Thank you, Mr. Chairman.
    From previous hearings in the authorizing committee, there 
was some focus on the safety and security of our proprietary 
information. It seems like laptops were sneaking out of the 
building, personnel, foreign nationals were carrying 
information out. And it was addressed, of course. We tried to 
look into, you know, whether those responsible were actually 
punished and I won't go into that, you know, hopefully they 
were. But it seemed to be that if the security managers or if 
the managers of the facilities are not taking the security 
seriously, because you scientists want to go do scientific 
stuff, so it comes down to the managers in HR and I guess 
others to, you know, actually make sure they are taking this 
kind of stuff seriously.
    Because we worked very hard coming up with this proprietary 
information and we spend a lot of money to do it and it helps 
America maintain its competitive edge, the last thing we want 
it to do is walk out the door. Because, again, we know some 
nation states out there that just love for us to spend all our 
money, do all the hard work, and they just want to steal what 
we come up with to help them then take jobs away from America.
    How has the culture changed and have you seen this all the 
way down to the Center level where our managers are taking this 
seriously? And, if they are not, why are they still managing 
these facilities?
    General Bolden. Mr. Palazzo, I think, you know, as I said, 
everything is a long slog. Since when you were on the 
authorization committee, you may remember that as a result of 
several incidents we brought in NAPA to do a study on our 
Foreign National Access Management Program. They gave us 27 
recommendations to date, we have closed 22 of those 
recommendations.
    We also got audits from the GAO and the IG, and we have 
worked on those. We now have a full-fledged Foreign National 
Access Management Program where the program manager stood up.
    NAPA has just finished a revisit, they have come back and 
done an update visit on our program, and we are working right 
now with them on their draft to make sure that we understand 
what the recommendations are going to be. But the preliminary 
indication is that we will get a good grade, that they are 
satisfied with the success that we have done in incorporating 
this.
    We have emphasized export control, we have emphasized the 
need to follow ITAR. We have now an export control manual that 
is accessible by all members of the NASA family and 
contractors.
    We now have training in our regular training program such 
that each NASA employee is required to undergo annual training 
on Foreign National Access Management, on export control.
    We have a counter-terrorism, counterintelligence, face-to-
face meeting among all of our NASA Center folk, we do that 
every year. Last year we did it at the Johnson Space Center in 
November. I went to that meeting. Also present at the meeting 
were senior officials from the FBI and a number of other 
intelligence agencies. They presented to us, they presented 
some of the training.
    And going back to the certification of Chinese when we work 
with them, it is my intention to visit with Director Comey at 
the FBI to make sure that the certification process that we 
have in place meets his approval and that, you know, he is 
happy with the way we are doing it.
    So I would say that if you go down to the bottom of the 
rung, you will find that people, they understand the importance 
of control of our vital resources and protection of our 
classified and sensitive information. So I think we have done 
quite a bit.
    Mr. Palazzo. Well, Administrator, I am glad you are taking 
it a lot more serious. You know, in the private sector, if an 
employee allows a laptop to walk off with 10,000 of their 
employees' sensitive information, that employee is likely going 
to be fired.
    And so, I mean, it seems like throughout the Federal 
government, not just, you know, NASA, but there is not a lot of 
accountability. And of course when you see agency heads 
committing all kind of awful stuff, then, you know, it is kind 
of hard to punish the people down beneath them, but this is 
important stuff. Proprietary information to allow America to 
maintain its competitive edge, to maintain our leadership in 
space, you know, a slap on the wrist. And I am going off on 
some other agencies. There needs to be some teeth in holding 
people accountable for what they do.
    And, Administrator, I will also mention a very successful 
500-second RS-25 flight engine test at Stennis Space Center.
    Mr. Chairman, if you have not been to Stennis Space Center, 
it is an open invitation. I would love to host you for a day 
and hopefully we can coordinate it around a test. Who knew NASA 
could make it rain and they do that with some of their engine 
tests.
    And of course the whole committee is invited as well, Mr. 
Honda.
    Mr. Honda. Thank you.
    Mr. Palazzo. I yield back.
    Thank you, Mr. Administrator.
    General Bolden. Thank you very much.

                   FOREIGN NATIONAL ACCESS MANAGEMENT

    Mr. Culberson. Mr. Palazzo is right, it is extraordinarily 
important to protecting the nation's space program and our 
technology from penetration by foreign agents, it is very 
important. And I know there was a problem at Ames, for example, 
and letting foreign nationals come into the facility.
    So you mentioned, General Bolden, I heard you say Foreign 
National Access Management. I hope you have got procedures in 
place to essentially keep foreign nationals out of NASA Flight 
Centers and they don't get access to----
    General Bolden. Mr. Chairman, I cannot stand here and say 
that is true, that is not true. We have foreign nationals who 
operate on NASA facilities every day, we have foreign nationals 
who may actually be NASA employees like every other agency of 
the Federal Government.
    Mr. Culberson. Well, in particular the Chinese.
    General Bolden. So I understand what you----
    Mr. Culberson. The Chinese are the ones we are most 
concerned about.
    General Bolden. The Chinese, that is different, yes.
    Mr. Culberson. So no Chinese foreign nationals are getting 
access to NASA Flight Centers or computers?
    General Bolden. No foreign nationals are getting 
unauthorized access to any classified material, sensitive 
material. No, none, zero.
    Mr. Culberson. OK, thank you.
    General Bolden. But, Mr. Chairman, I want to be very clear, 
no unauthorized access. Any time anyone who is not an American, 
in fact even American citizens have to go through a very 
stringent process to be allowed to have access to classified 
and sensitive material. That program is much more robust for a 
foreign national.
    So I just don't want to lead you to believe that we have 
put a wall up and only Americans are going into bases.
    Mr. Culberson. But the ones we are most concerned about are 
the Chinese.
    General Bolden. Yes, sir.
    Mr. Culberson. Because the Chinese space program is owned 
lock, stock and barrel, controlled by the People's Liberation 
Army. It is a military program designed to help them better 
target their ICBMs at the United States and they have a long 
history of stealing our technology. And it is just unacceptable 
the level of cyber theft and espionage the Chinese have been 
engaged.
    And our predecessor, Frank Wolf, very wisely and with a lot 
of foresight, included language in our bill which we have kept 
and strengthened, that in Section 531, General Bolden, governs 
NASA's bilateral activities with China.
    And I wanted to ask, if you could, sir, to please explain 
the process that NASA uses to ensure compliance with Section 
531, which in part states that NASA must certify that these 
bilateral activities, these meetings, pose no risk of 
technology transfer or other information with national security 
or economic security implications to China or to a Chinese-
owned company. How does NASA ensure compliance?
    General Bolden. Yes, sir, and I made reference to this a 
little bit earlier. In order to follow the law pursuant to 
Section 531, we actually use an independent third party tool to 
execute our foreign national investigations. The tool is called 
Visual Compliance and that allows us to look at, among other 
databases, but there are five FBI databases, there are several 
Department of Treasury databases, those from the Department of 
Commerce, Department of Homeland Security, the State 
Department, Arms Export Control Department lists, and on and on 
and on. And so that is the process that we use for every single 
person that I put on a certification letter to you.
    And as a result of some additional direction that came in 
Section 531, I now also provide a copy of that certification 
letter to the Director of the FBI, it goes via email 
transmission to--it doesn't go to Director Comey personally, 
but it goes to his executive secretary and it goes to the 
Section Chief of the FBI headquarters Counterintelligence 
Division, who right now is Mr. Crouch.
    And as I said, my intent some time after this hearing is to 
actually sit down or at least, maybe not sit down, but talk to 
Director Comey and make sure that this process that I just 
explained to you meets the requirements and the needs of the 
FBI, so that they can feel that what we are certifying is in 
fact accurate.
    Mr. Culberson. Right, because the reason that new language 
was added was to be sure that you are not just telling the FBI, 
but that you are involving them. That we want you to be able to 
get back from them and for them to be able to tell you this 
looks like it is okay or that is not okay.
    General Bolden. Yes, sir.
    Mr. Culberson. Let me ask, if I could--well, let me go to 
Mr. Honda, I have gone over a little bit.

                                ARC JETS

    Mr. Honda. Thank you, Mr. Chairman. I appreciate it.
    Two things. When we were at NASA we visited a gadget into 
which we climbed, it is called the Arc Jet. And the function of 
that is to determine pressure andtemperature of reentry of 
capsules and missiles, for that matter. And I understood that 
is probably the most unique piece of equipment that we have, 
but it isalso that we are far behind in keeping it up and 
maintaining it.
    And I just wondered whether if these Arc Jets are not 
capable of recreating the actual temperature and pressure that 
we anticipate, then how are we going to be able to ensure that 
that facility will be upgraded so that the return will be safe 
for reentry of our astronauts in the capsule.
    General Bolden. Mr. Honda, you give me an opportunity to 
talk about something that is near and dear to my heart. The Arc 
Jet about which you speak, in basic terms, it is a wind tunnel. 
And it is a wind tunnel that we generate incredible heat inside 
it.
    Mr. Honda. Ten thousand degrees.
    General Bolden. So we are looking at thousands of degrees. 
And we are looking at the ability of a nose cap, for example, 
or something, the nose of a missile, to be able to withstand 
the heat and pressure of reentry.
    The upgrade on the Arc Jet facility comes under a portion 
of our budget that is called Construction of Facilities and 
Environmental Compliance and Restoration, and that just happens 
to be a part of the budget that both the Congress and the 
Administration like to use as a bank to which they can go. So I 
would say when----
    Mr. Honda. Could you say that again?
    General Bolden. I have used the term bank. It is a place--
--
    Mr. Honda. It is a fund that we go to.
    General Bolden. It is a fund that everybody likes to go to 
because it is, quote-unquote, ``not important.'' It is very 
important. It is because in that fund it is where safety and 
mission assurance, engineering, construction of facilities, 
upgrade to facilities is all book kept, and salaries.
    And so when we take money from Safety, Security, and 
Missions Services (SSMS), when we go into that fund to take out 
a few million dollars, then what we have to do, what Mr. Eugene 
Tu out at Ames has to do is decide, okay, I am going to delay 
upgrade on the Arc Jet facility for one more year because I do 
not have the money to do that.
    Mr. Honda. This has some relationship to our discussion 
about multiple-year funding and multiple-year procurement.
    Multiple-year procurement requires that we have the funds 
so that we can lay it out there in the future for that one 
year's allotment. Multiple year means that, you know, we can 
have some certainty that we can have a budget that we can count 
on so that Dr. Tu will be able to keep this Arc Jet performing 
at a place where we can assure that the reentry of our capsules 
will be tested in an appropriate way.
    And so I think that it is a small piece, but without 
properly maintaining it and keeping it up to date, we get to 
Mars and we come back, if we come back and we hit that 
atmosphere and that is the piece that is messed up, I think it 
would be, you know, that is the one piece that we have to 
really pay attention to, even though the budget may not be--it 
is a budget that we keep dipping into to say, oh, we will take 
care of it later. But, you know, if we want to anticipate 
astronauts coming back and not watching them burn up on 
reentry, then we have to take care of that regardless of what 
kind of funding mechanism we have.
    So I just wanted to make that point.
    General Bolden. Yes, sir.

                         COMMERCIAL CREW SAFETY

    Mr. Honda. And connected to that, we talk about 
commercialization too. There have been a couple of commercial 
cargo explosions. And what are some of the things that we are 
doing to make sure that when we do send astronauts up using 
commercial launches, what are we doing as NASA to ensure that 
those astronauts that we do send up are going to be safe and 
that their launches are going to be safe in two years?
    General Bolden. Mr. Honda, just as we did from both, in 
fact all three, we had three cargo mishaps, we lost a Progress 
vehicle, we lost a Dragon, and we lost a Cygnus all in a 12-
month period of time. From each of the accidents, we had NASA 
personnel who were part of the accident investigation team. We 
either did our own supplemental investigation in addition to 
being part of the team or in the case of the SpaceX accident, 
since they have a number of different contracts with us and 
they have ongoing launches, not just for space station, then we 
are constantly involved with them.
    But in all three cases we were able to satisfy ourselves 
that we understood what the root cause of the accident was, 
that they were taking appropriate actions to ensure that that 
cause was taken care of, was corrected or remedied, and that we 
would be able to go fly again.
    I think everybody knows, we accept more risk with cargo 
than we will ever do with crew. So we already, you step up your 
safety requirements, if you will, your criteria for a human-
rated launch much more than you do for a cargo launch.
    But we feel that we have the correct amount of insight and 
in some cases oversight with both Boeing and SpaceX right now 
to ensure--I will say Boeing, SpaceX and the Orion Program 
team, because they are all three the same in our eyes. We are 
going to have astronauts on all three vehicles and so they have 
to have the same level of safety and mission assurance, and we 
have to have the same amount of visibility into all three 
before we will launch.

                    ROLE OF AERONAUTICS CORPORATIONS

    Mr. Honda. And if I may, what role, if any, does Aerospace 
Industries have----
    General Bolden. The corporation?
    Mr. Honda. Corporation.
    General Bolden. Aerospace is an FFRDC for the U.S. Air 
Force and they are--I have the Office of Safety and Mission 
Assurance and I think that Aerospace is in fact effectively the 
Office of Safety and Mission Assurance for the Air Force in 
most of their missile launches. I could be incorrect, but that 
is the way that I look at them.
    And so we consult with Aerospace frequently, because with 
SpaceX again as an example, because both the Air Force and NASA 
use SpaceX, our Safety and Mission Assurance organization and 
our Office of Chief Engineer work hand in glove with Aerospace 
all the time, because sometimes neither of those three 
organizations has the sufficient number of people to cover 
everything. So Aerospace may cover something and debrief us, we 
may cover something and debrief them, but they work together 
all the time.
    The present CEO of Aerospace, Dr. Wanda Austin, hosts a 
safety quality summit, I think it is twice a year. And Robert 
Lightfoot, who is the senior civil servant in NASA, he is the 
associate administrator or in a civilian company he would be 
called the chief operating officer, Robert attends that summit 
each year along with some of the folk from our Safety and 
Mission Assurance organization and the Chief Engineer's Office.
    And so that there is constant interchange of ideas and 
experience with Aerospace, but they are not technically in our 
chain of command, if you will.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.
    Mr. Palazzo.

                              FLAT BUDGETS

    Mr. Palazzo. Well, Mr. Chairman, real quick. You know, we 
are talking, you mentioned flat budgets and it is kind of bad 
that NASA has been stuck on flat budgets. And our facilities 
directors, and as well as NASA and the administration, have 
done a good job with the flat budgets that we have given. And 
that just makes me want to make a few comments.
    One, you know, we are $19 trillion in debt as a nation, but 
I don't think NASA's spending on deep-space exploration and 
low-earth orbit is what is driving those deficits, nor is our 
Department of Defense spending, investing in our men and women 
in uniform so they too can have the tools and training to do 
their job and come back home to their loved ones, but it is the 
out-of-control mandatory spending.
    And in Congress, I mean, I know that NASA can't fix it, 
this Administrator can't fix that or others, but the American 
people should be demanding of Congress that we rein in the out-
of-control spending, but we don't even have a vote on it 
because it is on autopilot, it is mandatory. And it is sad, 
because it is keeping us from doing the hard things at NASA, 
the great things, and funding, you know, not only just NASA, 
but also our military at levels that we need to to secure our 
nation.
    So I hope one day we have that conversation and we can get 
past it, because we have got to curb the $19 trillion or we 
won't be having too many fun discussions on funding NASA's 
future ambitions. There won't be a Mars trip, there won't be a 
back-to-the-moon, there won't be America's leadership in space. 
We will be challenged and we don't know how we will come out if 
we don't fix our national debt.
    And if we start today, then it is achievable. If we keep 
kicking the can down the road until tomorrow, it just gets 
harder and harder and harder.
    So that was just more of a comment than anything, because 
that is something that is always, you know, keeping many of us 
up at night.
    And again, Administrator, we appreciate your career in the 
United States Marine Corps, as well as at NASA.
    General Bolden. Thank you, sir.
    Mr. Palazzo. Thank you.
    General Bolden. Semper Fi.
    Mr. Palazzo. Semper Fi.

                       COMMERCIAL CREW MILESTONES

    Mr. Culberson. Thank you very much.
    Administrator Bolden, just a couple more followups.
    On the commercial crew program, I wanted to ask if any of 
the fiscal year 2016 milestones slipped into 2017 or beyond on 
commercial crew.
    General Bolden. Mr. Chairman, I will take that for the 
record.
    To my knowledge, none have slipped that we didn't ask to be 
slipped for one reason or another, or that we didn't 
coordinate, you know, with the providers to slip it, because it 
would be--but I will take that for the record.
    Mr. Culberson. Which milestones do you recall----
    General Bolden. That is why I said I don't----
    Mr. Culberson [continuing]. Slipped?
    General Bolden. I don't think any slipped, but that is why 
I said, you know, when you talk about, sometimes people use the 
term slip when in fact we purposely moved something to a later 
date to accommodate some other test.
    So what I would like to do, if it is okay with you, is to 
take it for the record----
    Mr. Culberson. Yes, sir.
    General Bolden [continuing]. And then tell you how any 
milestones that were scheduled to be done in 2016 are now being 
done in 2017 and why.

                   NEXT GENERATIONS ROCKET PROPULSION

    Mr. Culberson. I wanted to also ask about the next 
generation rocket propulsion.
    General Bolden. Yes.
    Mr. Culberson. As you look into the future, and the one 
aspect of the asteroid mission that I think is particularly 
exciting is the development of the next-generation rocket 
propulsion, so I want to ask about NASA's work on not only 
solar electric, nuclear electric, but then also ask about the 
level of plutonium that you have available.
    There is only, as I understand it, about 35 kilograms 
currently or 77 pounds of plutonium-238 set aside for NASA 
missions, and this will only support about two or three NASA 
missions through the middle of the 2020s.
    Are you satisfied with the level of funding that you have 
to understand that the Department of Energy has wanted NASA to 
take the lead on this? We made sure that you had funding for 
plutonium-238 production in your 2016 bill.
    What do you need from this committee and the Congress in 
order to make sure that you have got a sufficient supply of 
plutonium-238 for future missions and which missions do you 
expect to use plutonium for beyond the 2020, Mars 2020?
    General Bolden. As my memory serves me, Mr. Chairman, we 
have sufficient funding and sufficient sources of plutonium for 
the missions that are in NASA's plan right now, Mars 2020 being 
the next mission that will require nuclear fuel.
    And in a conversation with Dr. Grunsfeld, the head of the 
Science Mission Directorate, yesterday when we were talking 
about Juno that arrives at Jupiter here on Independence Day, 
you probably know that Juno is not nuclear-powered. Juno is 
powered by solar arrays, new-generation solar arrays, giant 
ones. But according to Dr. Grunsfeld yesterday, it is because 
of the work that we did on Juno and the success of those solar 
arrays that our team, along with JPL, is now leaning toward 
solar electric propulsion--solar power, not solar electric 
propulsion, solar power for Europa, which would mean that we 
would not need nuclear power for the Europa mission.
    But that again, as I mentioned, you know, we won't know 
that until 2018 when we get to preliminary design review and 
finish out the formulation of the mission, but that is where it 
is leaning right now.
    Mr. Culberson. If you could, talk to us about the next 
generation of rocket propulsion. What do you envision being 
developed to succeed chemical propulsion and what are you doing 
today to develop that next generation?
    General Bolden. When people ask me about going to Mars and 
what are the challenges, I tell them radiation is one, time is 
another one. So we need game-changing propulsion, game-changing 
in-space propulsion.
    We are now funding at a very low level development or 
research on what we call low-grade nuclear fuel, so that we do 
not have to go through the complicated process that we do now 
to get, you know, the type of enriched fuel that we use today. 
That holds out some hope.
    There are other systems. People are looking at advanced 
solar electric propulsion. You have people like Dr. Franklin 
Chang Diaz has a rocket that is called VASIMR, it is variable 
specific-impulsed thrust, which is a constantly thrusting ion 
engine, you know, that we are funding. We are funding the 
upgrade of a laboratory where he is doing testing now to just 
see if he can get it ground tested and then we will go see what 
happens after that.
    That type of propulsion systems bode well for the future. 
But nuclear electric I think is the one that most people tell 
me is probably going to be what we need, but we have got to get 
the fuel issue solved first, you know. But we are making slow 
progress.
    Mr. Culberson. Mr. Honda.

                          SPACE LAUNCH SYSTEM

    Mr. Honda. Thank you, Mr. Chairman.
    I have been learning quite a bit over the past few weeks. I 
would like to get some of your thoughts on the comments that 
were made about Space Launch System a couple years ago by a 
gentleman by the name of Chris Kraft, NASA's first flight 
director. He said that the operating costs of SLS, quote, 
``will eat NASA alive.'' He lamented that while other existing 
rockets had become reliable through frequent use, the SLS will 
not achieve that level of reliability because, in his view, we 
won't be able to afford to launch it more than once a year, if 
that.
    On the subject of future human space flight, missions to 
deep space, Mr. Kraft has also questioned why we cannot use our 
existing launch vehicle capabilities and put vehicles in space 
in pieces like we did with the space station.
    So two questions. How do you respond to these sorts of 
concerns about the Space Launch System? And what is NASA doing 
to work with industry and Government partners to develop the 
spectrum of missions beyond EM-1 and EM-2 to fully utilize this 
enormous national asset that will be coming on line in only a 
few short years?
    General Bolden. Mr. Honda, you know, Dr. Kraft is a role 
model and a mentor for me. He was my Center Director when I 
first became an astronaut and went to the Johnson Space Center. 
He is an incredible human being. From Virginia Tech, by the 
way. I did not know that until a short time ago. We always 
think about everybody comes from Harvard and Stanford and 
stuff. It is a pretty good institution down there in 
Blacksburg.
    But his statement about SLS is, I think, and I cannot speak 
for Dr. Kraft, I think a lot of people's statements like that 
are based on how we operated when they were in charge or when 
they were around, that is a long time ago. SLS represents the 
best technology that we have today to leave the planet.
    I think most people would tell you, we don't have a way 
other than chemical propulsion today to get off the planet, and 
we would probably always want to use something like an SLS. 
When you talk about the Europa mission, and while I am not 
making a commitment to you, Mr. Chairman, I want you to 
understand what I am saying here, SLS, it represents an 
incredible promise and potential not just to human space 
flight, but to scientific space flight.
    You know, the reason we are all attracted to SLS for our 
Europa mission or any outer planets mission is because, you 
know, 9 years to get somewhere or 8 years to get somewhere or 7 
years, that is a long time. The team, it is hard to hold then 
intact, you are paying for them. It is much cheaper if we can 
use, if it turns out that SLS is able to be used for a Europa 
mission, we are talking about a 2\1/2\ year mission. You know, 
that is 5 years we have saved in transit time, in salaries, in 
keeping a team enthused, you know, not shutting the vehicle 
down the way we did with New Horizons.
    There are a lot of good reasons to do it, but that is not a 
commitment to SLS. I want to make sure you understand that, Mr. 
Chairman. You told me to make sure it happens, I am trying.
    But in response to that, even if it is in the law, if I 
found that it were not the right thing to do, I would come to 
you and say, Mr. Chairman, can we review this policy, because 
that is not in the best interest of the American taxpayer.
    So we are following the law and we will always follow the 
law, but sometimes things change and you go back and you revise 
the law. It is like our Constitution, that is why we have 
amendments. We find that the Founding Fathers were not the 
brilliant, maybe they were not as smart as we thought they were 
the first time around or something like that. I don't know.
    Mr. Honda. Of course, based on history too.
    General Bolden. That is exactly right. Yes, exactly.
    Mr. Honda. I just needed to ask the question, just to clear 
up some of the questions I had in my mind.
    General Bolden. Yes, sir.
    Mr. Honda. And I think that the explanation is----
    General Bolden. And I hope I answered the question.
    Mr. Honda. No, no.
    General Bolden. Because Dr. Kraft is----
    Mr. Honda. No, I get what you are saying.
    General Bolden [continuing]. Way more brilliant than I am 
and knows this stuff a lot better than I do, but I have the 
advantage of a team around me that he didn't have.
    Mr. Honda. Sure.
    General Bolden. You have to remember, most of us forget, I 
have a very mature leadership team. When Dr. Kraft was in 
Mission Control and when he led the Johnson Space Center and we 
went to the moon, most of the people were 20 years old. They 
didn't know anything.
    Mr. Honda. Well, that is the difference like between myself 
and my son. When I launched an airplane, it was made out of 
balsa wood and I pushed it off, he uses a battery now and he 
has got all kinds of things at hand.
    So I just wanted some sort of clarification in my mind.
    General Bolden. Yes, sir.
    Mr. Honda. Thank you.

                       Chairman's Closing Remarks

    Mr. Culberson. Well, General Bolden, we want to thank you 
again for your service to the country and for the service you 
have given to NASA, the leadership. It has been a privilege for 
us to work with you. And we will have a number of questions 
that we will submit for the record, sir.
    But again, from the bottom of our heart, we genuinely 
appreciate your service to the country. And this subcommittee 
and the Congress strongly supports the men and women at NASA 
and we will do everything we can to make sure you have got the 
resources you need to achieve all that is on your plate, and to 
ensure that the American space program is the very best in the 
world bar none.
    General Bolden. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, sir.
    The hearing is adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
   

                                         Wednesday, March 16, 2016.

                       NATIONAL SCIENCE FOUNDATION

                                 WITNESS

HON. FRANCE A. CORDOVA, DIRECTOR, NATIONAL SCIENCE FOUNDATION
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order. We are pleased 
to have with us this morning the Director of the National 
Science Foundation, Dr. France Cordova. And we thank you very 
much for your service to the country, Dr. Cordova. We have on 
this committee a long history of strong bipartisan support for 
the work that the National Science Foundation does and a 
commitment to make sure the United States maintains its 
leadership in scientific research and the role that you play is 
absolutely essential.
    We have a very difficult budget year but we are going to 
continue to do everything that we can to ensure that you and 
the scientists that work under the peer review grant process 
that you oversee have the resources that you need to maintain 
American leadership in scientific research.
    We have before us the President's 2017 budget request, 
which is about $7.6 billion, an increase of $101 million, or 
about 1 percent above the current fiscal year. And 
unfortunately the President's budget request includes about 
$400 million in new unauthorized mandatory funding from a 
variety of sources that are all just not going to happen. It is 
a difficulty that every agency that is presenting their budgets 
this year to the Appropriations Committee face. You are not 
alone in this. And I know this budget did not come from you 
personally. I understand that you made recommendations to the 
Office of Management and Budget. They include these extraneous 
recommendations, the taxes and fee increases and speculative 
sources of funding for the future that are just simply not 
going to happen. We had this dilemma with the Administrator of 
NASA. And we are devoted to NASA and the National Science 
Foundation. But these mandatory funding increases are simply 
not going to happen. And it makes it more difficult for the 
Appropriations Committee to do our work, to support you and 
help you in an extraordinarily difficult budget year. It 
complicates things tremendously when the President submits a 
budget request both for NASA and the National Science 
Foundation that he knows will never get enacted, that includes 
funding sources that are utterly unrealistic and improbable. It 
puts us in an even deeper hole than we are. But we are going to 
work together. Mr. Honda and I are both, the full subcommittee 
is committed to work with you and to help you do what you need 
to do.
    I know Mr. Honda joins me in congratulating you and your 
partners at the Jet Propulsion Laboratory and the Massachusetts 
Institute of Technology and others on the extraordinary 
discovery that you have made recently using the Laser 
Interferometer Gravitational-Wave Observatory in confirming the 
existence of gravitational waves that I know some of the 
scientists were up here a couple of weeks ago and my day was 
just berserk. I am sorry I did not get a chance to meet them 
personally. But I am looking forward to visiting with them, as 
I know Mr. Honda is, to hear firsthand about their discovery. 
We would love to hear you talk a little bit about that today, 
if you could. In fact, this is something that was theorized by 
Albert Einstein about a hundred years ago.
    In fact the Laser Interferometer Gravitational-Wave 
Observatory was a project that was originally supported by this 
subcommittee under the leadership of Chairman Livingston and 
Chairman Rogers. And that work took many years. It requires an 
investment that the seed has to be planted in the ground and 
nurtured and carefully supported by subsequent Congresses and 
subsequent Directors of the National Science Foundation to make 
sure that they come to fruition. And we will certainly do our 
part, as I know you will as well. We really do congratulate you 
and all of the researchers who are involved in this 
extraordinary achievement.
    The National Science Foundation's annual budget represents 
about 60 percent of the total Federal budget for basic research 
conducted at U.S. colleges and universities, excluding medical 
research that is supported by the National Institutes of 
Health. In many fields the National Science Foundation is the 
primary source of Federal academic support for scientific 
research. So we want to add while we wholeheartedly support 
research and the sciences we of course also need to be 
exceptionally good stewards of our constituents' hard earned 
tax dollars and be very careful and frugal about how they are 
spent. And we are just delighted to have you here with us today 
and thank you very much for your service. And I want to 
recognize Mr. Honda for any remarks he would like to make. 
Thank you.
    Mr. Honda. Thank you, Mr. Chairman. And good morning, Dr. 
Cordova, and thank you for being here today. So I am really 
looking forward to your testimony and learning more about the 
great programs that NSF has. As a former science teacher and a 
representative for Silicon Valley, I know well the tremendous 
value that NSF has for us. And NSF is known as the great 
fundamental research venture capitalist for the United States. 
So NSF supports ideas and research that is on the cutting edge 
and often has no clear application beyond the pursuit of 
scientific knowledge.
    By investing in a broad range of ideas you never know which 
ones are going to come up and pan out and end up having 
enormous implications for society and impact to our economy, 
such as the recent discovery probably changed a lot of rules in 
physics.
    These breakthroughs then trigger commercial investments in 
R&D to develop an idea and bring it to market. This one-two 
punch of NSF investment in the fundamental research followed by 
commercial R&D investments in ideas when they have potential 
market implications is a proven recipe for success.
    If it were not for the broad initial investment in the 
fundamental research by NSF, then this innovative cycle from 
lab to market would grind to a halt. The NSF is directly 
fueling our future innovative economy and is making sure that 
the next breakthrough technologies that lead to the next 
Silicon Valleys happen right here in the United States.
    The thing about fundamental research is you never know 
which idea is going to end up becoming the next 3D printer or 
the next silicon wafer or the next new fuel cell or the next 
detected gravity waves. This is why the NSF needs the freedom 
to invest across all of the sciences without interference. It 
is critical that politics not be allowed to insert itself into 
the process and deem that some sciences are not in the national 
interest and therefore we will not invest in them. All science 
is in the national interest and all science contributes to an 
innovative environment from which the next breakthroughs will 
come. All science rises and falls together in a connected web 
and we in Congress should not constrain our scientists, our 
innovators, and our economy by arbitrarily choosing not to 
invest in certain fields. If we did that we would never have 
been able to help fund NSF on the gravitational waves.
    The National Science Foundation is a direct investment in 
the future, strength, and vitality of our nation. Companies 
from my district, like NVIDIA, Google, Apple, and the Silicon 
Valley Leadership Group are taking it upon themselves to 
advocate for robust support for the National Science Foundation 
across all of the fields not just research that directly 
corresponds to their business. Because they appreciate that it 
is across all the environment that is innovative, fosters that 
web and that vitality through the NSF that feeds directly into 
the ideas and talented employees that their companies need to 
survive.
    Our NSF model has been so successful that countries around 
the world from Germany to Japan to China have copied the model 
and are investing heavily in their NSFs. The world's economy is 
more and more dependent on innovation and as a nation we need 
to be invested heavily in the National Science Foundation and 
fundamental research in order to secure a competitive edge in 
the future economy. This is why I am also disappointed in the 
President's budget proposal, but in also ignoring the mandatory 
spending this budget only asks for a 1.3 percent increase. This 
is subinflation and is not enough. The world is investing 
heavily in fundamental research across all of the disciplines 
and so must we.
    So I look forward to working with you and Chairman 
Culberson to find the money to fully support it, that sounds 
good, does it not? Find the money to support the NSF and 
continue to grow our innovative environment in the country. 
Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Honda. And Director 
Cordova, your written statement will, without objection, be 
entered into the record in its entirety. And if we could we 
would welcome your summary of your testimony and if you could 
keep it within five minutes we would be very grateful. Thank 
you very much.
    Dr. Cordova. Thank you very much, Chairman Culberson and 
Ranking Member Honda, Mr. Kilmer, and all the members of the 
staff. Good morning. And I must say Chairman Culberson and 
Ranking Member Honda that your words about NSF and its 
importance to the competitiveness of our country are music to 
our ears. They are just very, very important. So thank you very 
much for recognizing that and so stating.
    I am very pleased to testify today on behalf of the 
National Science Foundation's fiscal year 2017 budget 
submission. In my written testimony I have addressed specific 
aspects of our budget request. NSF believes that this budget 
comprises a strong request that is responsive to both the 
national interest in science and science in the national 
interest. In my oral testimony I will discuss the recent 
discovery that you both mentioned that highlights the role of 
the National Science Foundation and the rewards of fundamental 
research.
    As you know, Mr. Chairman, in early February I participated 
in the historic announcement of the first observation of 
gravitational waves by NSF's Laser Interferometer 
Gravitational-Wave Observatory, or LIGO. This observation is a 
sterling example of how and why NSF exists.
    Gravitational waves are ripples in the fabric of space 
time, arriving at the Earth from cataclysmic events in the 
distant universe. Although Albert Einstein predicted their 
existence in 1916 their direct observation was a daunting, 
seeming impossible task. Einstein himself thought so. 
Nonetheless technological innovation combined with sound 
theoretical underpinnings were so tantalizing that NSF began 
funding research in this area in the 1970s. In the 1980s NSF 
committed to a full-blown observatory with two widely separated 
sites for positive confirmation of any detection. LIGO in fact 
was the first of what we call the MREFC projects, or Major 
Research Equipment Facilities Construction projects for NSF, 
and it prompted highly productive discussions with Congress. 
Even though NSF had never funded to that date anything on such 
a scale, the potential for transformative science was worth it.
    With the National Science Board's approval and Congress' 
support, NSF built LIGO, one of the most precise scientific 
instruments ever developed, able to monitor the Earth's 
expansion and contraction to a tiny fraction of the width of 
the nucleus of an atom. This is a feat comparable to measuring 
the distance between our sun and the nearest star to about the 
width of a human hair. The detection of a gravitational wave 
was made a mere four days after turning on this advanced 
instrument. That wave arose in the final fraction of a second 
during a merger of two massive black holes approximately 1.3 
billion years ago.
    More than a thousand scientists worked in the LIGO 
scientific collaboration at universities around the states and 
in 14 other countries. I am pleased to add that nearly half of 
those scientists are from institutions and states represented 
by your subcommittee.
    This discovery is truly a beginning, not an end. It 
confirms a major prediction of Einstein's General Theory of 
Relativity, marks the birth of gravitational wave astronomy, an 
entirely new way of looking at the universe. This historic 
achievement illustrates the importance of the National Science 
Foundation and really exemplifies its role in advancing 
discovery. The majesty of exploring our universe motivates such 
ambitious experiments but as with all fundamental science it 
also offers other benefits that are important to the nation.
    For example, the science will advance education, inspiring 
students and developing the work force our society requires. I 
think that just as NASA's Moon shot enticed me and so many 
others of my generation to become scientists, so too will the 
LIGO result attract young people into science.
    The fruits of NSF supported research drive our economy, 
enhance our security, and ensure our global leadership. As you 
know, basic research is uncertain and risky, but it can be 
revolutionary. LIGO is a striking example, but not the only 
one. Nobel Prizes that mark transformative discoveries, in 
fact, have been awarded to 217 researchers funded by the 
National Science Foundation. Fundamental research has 
transformed our world and will continue to change it in ways 
that we have not yet imagined.
    Mr. Chairman, the budget request before you builds on the 
Foundation's strong success as the place where discovery and 
discoverers begin. Our 6.7 percent, or $500 million, increase 
will place special emphasis on the early career researchers 
needed to realize tomorrow's breakthroughs. With the fiscal 
year 2017 request we will be able to fund nearly a thousand 
early career faculty.
    NSF always seeks ways to quicken the pace of discovery. Key 
to this is enabling early investigators to sustain momentum 
from their graduate training by investing in them early in 
their faculty appointments. This strategy would be a 
downpayment on sustaining our nation's long term 
competitiveness.
    NSF funds thousands of small steps, some more successful 
than others. Einstein said, ``One should not pursue goals that 
are easily achieved. One must develop an instinct for what one 
can just barely achieve through one's greatest efforts.'' This 
was also the advice I got as a graduate student, aim high for 
understanding the really big stuff.
    With your continued support NSF looks forward to making 
further discoveries like the one I just discussed that advance 
our understanding of the origin and evolution of our universe 
and everything within it, including ourselves.
    This concludes my testimony and I will be pleased to answer 
any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
          LASER INTERFEROMETER GRAVITATIONAL-WAVE OBSERVATORY

    Mr. Culberson. Thank you very much, Dr. Cordova. The LIGO 
gravitational-wave experiment that you just talked about, were 
you able to tell the direction from which the wave came or 
where the black hole merger occurred?
    Dr. Cordova. Only very approximately because there are just 
two facilities, the one in Hanford, Washington and the other in 
Livingston, Louisiana. And so with just two we could describe a 
very large arc on the sky where the source could come from. So 
it excluded a large portion of the sky but it was not a small 
enough positioning to be able to really say with any 
definiteness where the source came from. So that is why we need 
other observatories. And you might know that there is a 
gravitational wave observatory that is coming online in Italy 
towards the end of this year and there are others in the early 
stages in Japan and even India has expressed a desire to be 
involved. So the more that we have widely distributed around 
the globe the more precise the positioning will be able to be 
done. It is just triangulation, basically, and we need more.
    Mr. Culberson. How do they work? And what was the U.S. 
investment in the LIGO?
    Dr. Cordova. The U.S. investment over all time and it has 
been a long time, four decades, is about $1.1 billion. And we 
have had contributions of approximately $400 million from the 
14 other countries I mentioned. And that has paid for the 
facilities themselves, so that is between $400 million and $500 
million. And the rest has been to fund all the people involved 
for that very long time.
    Mr. Culberson. Sure. How does it work? And what are the 
implications of the discovery for what we know about the 
universe and how it works? Why is it important?
    Dr. Cordova. Why is it important? We want to understand at 
a very fundamental level the forces of nature and what was 
responsible for the origin and evolution of the universe and 
everything within it, including life itself. And we understand 
very well some aspects of the forces that exist, like 
electromagnetism, the weak force, the strong force. We 
understand gravity. But we do not have a unified theory of how 
all these forces work together. And this has been a pursuit 
that even Einstein thought about a lot, of how to unify gravity 
with the quantum mechanics that was just being developed around 
that time, around the 1920s and 1930s. And so there have been a 
number of theories, including string theory, that have tried to 
develop a unified theory that understands gravity and the other 
forces and quantum mechanics all together as one coherent 
theory to explain our universe. But that still is a mystery out 
there, like so many other mysteries we have.
    So what this gravitational wave detection does is it opens 
a new way of observing the universe, namely the gravitational 
wave spectrum, which we hope, because of the precision of 
technology now in the new facilities I mentioned coming online, 
and improvements in our own facilities because that is surely 
coming as well, will become as well-developed as the 
electromagnetic spectrum for observation. We think of x-rays 
and gamma rays at the high frequency end of the electromagnetic 
spectrum, and then optical and ultraviolet radiation in the 
middle frequencies, the ones we are more sensitive to with our 
eyes, and then the long wavelength low frequency 
electromagnetic radiation like infrared and radio waves. So 
that is a very well explored spectrum. And as you know, NASA 
has pioneered it up in space above the atmosphere. But we have 
not similarly been able to exploit the gravitational wave 
spectrum because we just have not had to date the technology 
that is required.
    LIGO observes in a certain frequency regime, obviously one 
that can detect giant colliding black holes and we hope also 
supernova remnants. But gravitational observatories in space 
and observatories like the South Pole telescope can observe 
other parts that are at lower frequencies of the Gravitational-
Wave spectrum. And hopefully we can put together a coherent 
picture of sources that we may not even know exist eventually 
with more detectors.
    Mr. Culberson. When were gamma rays and x-rays first 
detected?
    Dr. Cordova. They were detected really with the space 
program, the advent of the space program. So actually----
    Mr. Culberson. But x-rays were first seen over 100 years 
ago.
    Dr. Cordova. Well x-rays detected, yes, here with radium 
and other elements that produce x-rays. But not x-rays from the 
universe. That is what I thought you meant.
    Mr. Culberson. Correct.
    Dr. Cordova. But x-rays obviously, and Madame Curie, and 
many others were involved, and Rontgen, and other scientists. 
So that was way back a couple of hundred years ago.
    Mr. Culberson. Right.
    Dr. Cordova. Absolutely. But it was not until we got 
rockets----
    Mr. Culberson. Sure.
    Dr. Cordova [continuing]. And then satellites above the 
atmosphere we could detect them from----
    Mr. Culberson. Yes, I just mentioned it because what an 
extraordinarily exciting time to be alive when you can begin to 
discuss here the concept of a gravitational wave spectrum.
    Dr. Cordova. Right.
    Mr. Culberson. That is an extraordinary concept and very 
exciting to be alive at this moment in history. And for us to 
be able to help make sure this continues, that we continue to 
expand the width of our ability to perceive and detect 
gravitational waves. Now we are starting with obviously the 
brightest and the biggest source of gravitational waves and it 
is just an extraordinary discovery and we congratulate you. And 
who knows, maybe with the work that we do in expanding 
America's space program maybe we can eventually have a GRACE 
type spacecraft using lasers and we can go to the outer solar 
system and we can expand your gravitational wave detection 
using lasers similar to the GRACE spacecraft measuring the 
distance between the spacecraft here at Earth and then far out 
in the solar system to measure the, did you say the width of an 
atom?
    Dr. Cordova. Yes.
    Mr. Culberson. Is the detection capability of the LIGO?
    Dr. Cordova. Yes.
    Mr. Culberson. And that is what enables you to see----
    Dr. Cordova. Yes, of actually a proton, one ten-thousandth 
the size of the width of a proton. Very, very sensitive, very 
tiny deviation in the fabric of space time.
    Mr. Culberson. The distance between these two observational 
points deep within the Earth, I understand they are very deep 
in the ground?
    Dr. Cordova. No, these are not. We would like to invite the 
committee to come and see the facility.
    Mr. Culberson. I am thinking about the neutrinos. This is, 
I am thinking about neutrinos.
    Dr. Cordova. You are thinking about the neutrinos. But 
these are above the ground facilities. The one in Japan is 
going to be underground, but ours are not. You can visit them 
and walk the length of the facilities, which is about four 
kilometers, each arm is. There are beautiful facilities in 
Louisiana. I have been to both facilities, and by the way, the 
one in Louisiana has a tremendous education visitors center. So 
the public can learn about what gravitational waves are and how 
the interferometer works and it has many different hands-on 
experiments for the public.
    Mr. Culberson. Thank you very much. Mr. Honda.

                       DIRECTORATE-LEVEL FUNDING

    Mr. Honda. Thank you, Mr. Chairman. And maybe that is what 
we need, take our subcommittee there on our next trip. And 
thank you again for being here. My question is last year we 
heard concerns from NSF, the National Science Board, and the 
broad science and higher education communities about Congress 
appropriating specific funding levels for each of the six NSF 
research directorates. Could you speak a little about this type 
of directorate level micromanaging and what impact does this 
have on NSF's ability to set priorities and fund the best 
science proposals? And then what would be lost if NSF had less 
flexibility within the research and related activities account? 
And lastly, how does NSF determine the funding levels for the 
six science directorates within the R&D activities account?
    Dr. Cordova. Thank you, Mr. Honda. As you know, we very 
much value the opportunity to have science set the priorities 
for what we do. We think that is the healthiest way to ensure 
discoveries at the frontiers have this input from the science 
community. So let me start with how we set our priorities.
    We have, as you know, a very vigorous science and 
engineering community, which is very diverse. And they come 
together in workshops and in decadal committees to help set 
priorities. They come together under the aegis of the National 
Academies of Science.
    Mr. Honda. Excuse me. Decadal meaning every----
    Dr. Cordova. Every ten years, yes. And they come together 
through their scientific societies, through the academies, and 
through our advisory committees, each directorate has such a 
committee too. So we take all this input and so that is the 
bottoms-up priority setting. And as you know, in some areas 
they are very clear about what is of the highest priority for 
making great advances for the next decade. And we generally 
follow suit. We try to adapt our budget request to follow the 
highest priorities in science.
    Of course it is a very careful balancing act. We never 
know, as your own remark said when you opened, Mr. Honda, you 
never know where the next big discovery is going to come from. 
We fund all of science and engineering so we try to have a very 
balanced portfolio approach to what we fund and how we look at 
these priorities set by all the different communities.
    We put them together in a budget that is carefully reviewed 
by our leadership of these different directorates and by their 
advisory committees. And it is eventually judged by the 
community themselves what that budget request is going to look 
like. And we are hopeful that it is interdisciplinary enough to 
allow the flexibility for discoveries to be made that are very 
surprising. Sometimes we know what we are after, like detecting 
a gravitational wave, and sometimes these discoveries are 
amazing and we absolutely cannot predict where they come from.
    So our major concerns regarding the designation of funding 
amounts within the Research and Related Activities account, 
which embraces the six directorates, are that it would 
undermine the cooperation that we see across our organizational 
units that is a defining characteristic of our current budget 
development process. And it would jeopardize the agency's 
flexibility to pursue promising emerging opportunities, and it 
would minimize the value of input from the scientific community 
through these different processes.
    We think if we did have specific directorate level funding, 
it would make the whole process very highly politicized and we 
would lack a reliable mechanism for incorporating expert advice 
into science and our legislators would be. Instead of the 
science community coming together with proposals on what is of 
the highest priority from all the different disciplines, they 
would go directly to you and insist that their science was the 
highest priority. And it would be a very unstable way of 
funding science because when one committee is here and helping, 
and then it changes over and we have new people in the 
legislature, we could have ups and downs in funding that would 
make it very unstable to have consistent funding for science.
    So for all those reasons we think it is really not a good 
idea and not supported by the science community to have 
directorate-level specific funding by directorates.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you. Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman. And thank you for being 
here. I have got a series of kind of unrelated questions. The 
first one is ATE. Can you maybe touch on the trend line with 
ATE? The value of supporting community colleges and the 
contribution they might provide? How that fits into the broader 
basic research portfolio?
    Dr. Cordova. Yes, Mr. Jolly. And hello, I am glad you are 
here. The Advanced Technological Education program is a very 
important way of embracing all the talent that is in our 
community colleges and ensuring that they are part of enhancing 
the STEM workforce. That is the short answer. We are just very 
concerned that we want to be inclusive, that is the main thing 
that NSF is concerned about. And to welcome all comers into 
potential science and engineering careers. And to also become 
science literate. There are a lot of opportunities in the 
workforce that are not only being a professor in a university 
that are extremely important in this highly technological 
society.
    So the ATE program, I believe our request is something like 
$66 million for this year. It is just a very important part of 
our portfolio.
    Mr. Jolly. Is that fairly level funded? And I apologize for 
asking.
    Dr. Cordova. Yes. Yes, it is. I have the person, Joan 
Ferrini-Mundy----
    Mr. Jolly. Sure.
    Dr. Cordova [continuing]. Who is, yes, that is what I 
remember. The actuals are in 2013 it was $63 million, and as I 
said today it is $66 million. So I would consider that fairly 
level funding.
    Mr. Jolly. Sure. Very good. And thank you for your 
commitment to that. You know, it is, quite often we hear about 
the additional need not just for well educated tech supporters 
to support perhaps the basic researchers, but also the 
contribution they make in a lot of communities like mine to 
advanced manufacturing and a manufacturing sector that is 
coming to rely on more and more educated tech graduates, if you 
will, that can support that. So ATE clearly contributes to it.

                         NEW MANDATORY FUNDING

    Second question, again I am going to jump around a little 
bit, the $400 million in new mandatory spending. Can you, and I 
apologize if the chairman has addressed this, can you address 
that request? You know, mandatory kind of jumps off the page--
--
    Dr. Cordova. Right.
    Mr. Jolly [continuing]. When you see it in a budget 
request.
    Dr. Cordova. Right. Well I would like to take a different 
approach than the chairman took. And just to let you know, the 
chairman basically said we were not likely to get mandatory 
funding. But what the important thing is, if we were to get it, 
what we would use it for.
    Mr. Jolly. Is it creating stability? I mean, I know on the 
investigator side one of the issues is always stability of 
funding. But why mandatory?
    Dr. Cordova. It is stability funding. Our funding success 
rate, let us call it, the number of proposals that are 
successful as a fraction of the folks that are proposing them, 
has gone down in the last couple of decades from something like 
40 percent to 20 percent overall. So that is a huge drop. And I 
know part of it of course is increasing the numbers of 
proposals, but that is after all what we are trying to do as a 
country, namely, get people more involved in making 
discoveries, discoveries that can lead to innovation. And so 
regarding the $400 million, we found when we did analysis of 
this statistic that it is actually the early investigators, 
that is those within a dozen years of their Ph.D., who have the 
lowest success rates. And that is for a variety of reasons. 
They are early. They are first-timers. They may not know all 
the ropes. It is a very vulnerable stage of their career----
    Mr. Jolly. Sure.
    Dr. Cordova [continuing]. Because it is one where they 
could make the Nobel Prize discovery; they have got young, 
creative minds. And by not getting their proposal accepted, 
they could go in another direction and we could lose them to 
the science and engineering workforce. And so what we would do 
is direct that $400 million towards increasing the success rate 
of early investigators with a special emphasis on data-
intensive training. Because we believe that understanding data, 
big data analysis and data science, is just so important to the 
future of our country in all fields.

                       DIRECTORATE-LEVEL FUNDING

    Mr. Jolly. And one last question. And I know you addressed 
Mr. Honda's question about directorate specific funding. And 
look, I do not think we need to bring politics into science. 
And on my side of the aisle I am one that is happy to accept 
science. But in a, kind of lay terms to ask the question, is 
the concern over directorate specific funding because there is 
political interests in the administration that are different 
than those that might be in the Congress? Or is it because you 
want the discretion to allocate funding where you think the 
likelihood of the greatest breakthroughs are?
    Do you understand the difference in that? For instance, 
there are certain priorities of the President that might be 
different than the Congress, and he has that prerogative to do 
so. So is that what you are trying to protect? Those political 
and policy priorities? Or is it protecting the discretion to 
pursue certain breakthrough areas?
    Dr. Cordova. It is the latter, for sure. You know, if you 
just look at the levels of the funding for the different 
disciplines you can see that there is enormous difference 
between, say, math and physical sciences, which is at the high 
end, and social and behavioral sciences, which is the low end.
    Mr. Jolly. OK.
    Dr. Cordova. With the science community and all of us 
coming together and over time, there is priority. But the 
priority is set by the potential for breakthrough and by the 
needs of communities. I mean, one can argue that some do not 
need big facilities, big telescopes, big ships and so forth.
    Mr. Jolly. Sure. OK. Thank you, and I know my time is up. I 
yield back.
    Mr. Honda. Would the gentleman, Mr. Chairman, if he would 
yield for a second just to clarify the reason for my question, 
and it is a good one, because it is the pressure that 
individual policy makers may face also from----
    Dr. Cordova. Right.
    Mr. Honda [continuing]. The different communities, science 
communities, come to us first or, you know, lobby us before we 
move forward any issues on policy or funding. And if the 
scientific community can get together and do that among 
themselves rather than the industries, they can do it with the 
scientists, or if they do it with us I think it is like putting 
the cart before the horse. And it is an undue pressure I think 
that we do not need to have until we hear from the science 
community. That was the reason for my question. Thank you for 
that question.
    Mr. Culberson. Mr. Kilmer.

                     WORKFORCE AND COMPETITIVENESS

    Mr. Kilmer. Thank you, Chairman, and thanks for being back 
with us. I have got a couple of questions that are mostly 
focused on issues around workforce and our competitiveness. And 
the first gets at kind of broad issues around digital literacy. 
I think increasingly the capacity of people who are entering 
the workforce to use technology to solve problems by applying 
basic digital skills and use of the internet is increasingly 
important. And yet in 2013 the OECD conducted a study that 
found that American young adults ranked near the bottom for 
using digital skills to solve problems. And I am worried about 
what that means in terms of our ongoing competitiveness. So I 
wanted to get a sense from you of how you think we can improve 
disparities around the use of digital literacy, around digital 
literacy? And can you talk to me about how NSF approaches these 
issues and whether NSF ever teams up with organizations like 
the National Academy of Sciences to develop policy 
recommendations and whether there would be an openness to doing 
that regarding how to increase access to digital literacy and 
curriculum and some of those broader issues?
    Dr. Cordova. Thank you, Mr. Kilmer.
    Mr. Kilmer. Sure.
    Dr. Cordova. Well first of all, NSF definitely would agree 
that digital literacy is very, very important. We do team up 
with the National Academy. We do ask them to do many different 
studies and we think this is a very important area. We would 
welcome teaming with them.
    We also, yesterday I met with the Secretary, Dr. King, of 
Education and we talked about this very subject in the context 
of a new program that we are funding together called Computer 
Science for All. You may have heard of it. We are just rolling 
it out. And Computer Science for All is about involving K 
through 12 more in computer science. And this is just getting 
going but we talked specifically about digital literacy and how 
important it is for teachers, too, and maybe some extra teacher 
training during summer months, should they wish, would also 
help and how that could help with digital literacy in schools. 
And then the last thing is NSF just announced a new program 
called INCLUDES. Its goal is to increase the access to everyone 
and specifically women and underrepresented minorities, lower 
socioeconomic students, that do not presently have access to 
STEM fields including computer science. And we just put out a 
call. I sent a letter to every university chancellor, and 
college president in the country, asking them for innovative 
proposals of how to do this. How to reach out in broad 
partnerships with the community and really move the needle on 
participation in STEM. So I see opportunities for innovation, 
including digital literacy, in that program as well.
    Mr. Kilmer. Thank you for that. And that is certainly an 
important issue in my neck of the woods. I also along those 
lines wanted to ask about workforce around addressing 
cybersecurity. And I know the President recently outlined a 
cybersecurity national action plan and a piece of that was 
focused around cybersecurity workforce. The plan describes 
efforts to improve cybersecurity education programs by 
developing cybersecurity curriculum and expanding scholarship 
programs. And I know that NSF already leads the Cyber Corps 
scholarship program. So I wanted to get a sense of what role 
the NSF is going to have in implementing the President's plan 
and specifically given your relationship with some of the 
higher education stakeholders do you see NSF as being able to 
assist in both the development and roll out of a cybersecurity 
curriculum and providing a link between stakeholders in 
government and academia and industry?
    Dr. Cordova. Yes. We think this is a very important program 
and opportunity. I believe we have something like $20 million 
extra in our request for the Cybersecurity Scholarships for 
Service program. I think what we are going to be emphasizing is 
how we can provide education and training for a reserve corps 
of the folks that do get these scholarships so that they can be 
called upon for service to agencies, others that need 
cybersecurity specialists. So that is where our money is going 
to go, to what kind of a program can we develop for a reserve.
    And as far as working with universities, I have had a 
number of university presidents in my office who have described 
new curriculum. They are already on board. More recently the 
President of Stanford, John Hennessy, was describing a new 
curriculum at Stanford, but several others as well, that is 
focused on cybersecurity for students. So I think the 
combination of us providing scholarships with just the desire 
on the part of students. We are experiencing, our advisory 
committee to computer science tells me, a tidal wave of 
students interested in computer science in general and 
cybersecurity of course is a really important part of that.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.

                            DECADAL SURVEYS

    Mr. Culberson. Thank you very much, Mr. Kilmer. Dr. 
Cordova, if I could I wanted to follow up on the, I have always 
been a big fan of the decadal surveys when it comes to NASA.
    Dr. Cordova. Yes.
    Mr. Culberson. I have included language in our bill this 
year to encourage NASA to follow the recommendations of the 
decadal survey in each of the major survey areas and am 
delighted to hear that you have got a similar process that I 
look forward to learning more about. But if you could just 
reiterate some of what you said to Mr. Jolly and describe for 
us how is their decadal survey process at the National Science 
Foundation? And how do they map out a blueprint for the decade 
ahead for the type of research that you need to do?
    Dr. Cordova. OK. So the----
    Mr. Culberson. What did you mean when you said there was a 
decadal survey?
    Dr. Cordova. The decadal surveys are not for each agency. 
Really they are subject matter surveys and they apply to all 
the agencies that are engaged in funding that subject matter. 
So if you take astronomy and astrophysics, so I am really 
familiar with this one since I am an astrophysicist, and I 
participated in past decadal surveys for that field.
    So they would put on the table the priorities of the 
community, independent of whether they could or should be 
funded by NASA or NSF or NOAA, USGS.
    Mr. Culberson. Sure, that makes sense.
    Dr. Cordova. Then we look at those priorities, we say what 
best matches what our specific mission and our facilities are? 
So in astronomy and astrophysics the kind of rough way of 
saying it is we mainly do stuff on the ground, whereas NASA is 
mainly focused on space. There are collaborations, of course, 
with both. And so in the most recent astronomy survey the LSST 
was named as the number one priority in the decadal survey.
    Mr. Culberson. Synoptic----
    Dr. Cordova. That is the Large Survey Synoptic Telescope. 
NSF is funding that one. It is a ground based telescope. It is 
being constructed in Chile. And so that is an example. And 
there would be other recommendations for NASA and so forth.
    Mr. Culberson. Do you then meet with NASA officials and 
decide who is going to take what piece? Or do you collaborate 
with NASA, for example?
    Dr. Cordova. No, NASA has other inputs as well that will be 
focused on NASA missions and will be priorities specifically 
for space. There are places where we are funding things 
together. But they would be like NASA utilization: to support 
its space missions they would be using some telescopes on the 
ground.
    I wanted to mention another example, which is the ocean 
sciences decadal survey. That is a survey that we just got the 
results from about a year ago January. And there were 
recommendations for balancing infrastructure with PI science, 
individual investigators and so on. And their recommendation 
was that, because we had previously had on the table maybe 
building three new research vessels, was to do two vessels so 
we could lower the infrastructure and operating costs and focus 
the rest of the budget on individual investigator science.
    Mr. Culberson. Also produced by the National Academy?
    Dr. Cordova. Yes, it was sponsored by the National Academy. 
But when you say produced, we and other agencies fund the 
National Academies to do studies. OK? So that is the way it 
works.
    Mr. Culberson. So then do you collaborate with NOAA, for 
example, to decide what portion of the oceanographic decadal 
that they will fund and follow versus the portions you----
    Dr. Cordova. Well I do not know how NOAA does it. They will 
have these decadal----
    Mr. Culberson. You do not talk to them?
    Dr. Cordova. We do. In fact we have a committee that we co-
chair, an infrastructure committee. It is called the 
Interagency Working Group for Facilities and Infrastructure 
that NSF and NOAA co-chair, I believe. And this sets out the 
priorities for using all scientific inputs for the academic 
research fleets, actually for the whole Federal research fleet. 
And they produce a report every three years and I believe one 
is almost ready for Congress. It is about to be released. And 
so that will talk about specific things for NOAA, specific 
items for NSF, and ONR, and so forth. But yes, there is a lot 
of collaboration. It is just that we need to appreciate that we 
have different missions.
    Mr. Culberson. Correct. Of course.
    Dr. Cordova. Yes.
    Mr. Culberson. But there is no formal standardized 
procedure to collaborate with either NOAA or NASA to decide 
what portion of the decadal you are going to work on versus 
NASA or NOAA?
    Dr. Cordova. Yes.
    Mr. Culberson. It sounds like it is sort of an informal 
process.
    Dr. Cordova. It is very collaborative and these working 
groups they have written a very elaborate report. So I think I 
would call it formal----
    Mr. Culberson. OK.
    Dr. Cordova [continuing]. In that sense.
    Mr. Culberson. The reason I ask is I want also to avoid 
directorate level funding.
    Dr. Cordova. Right.
    Mr. Culberson. I think it is important that we not insert--
--
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. Political agendas from either 
end of the political spectrum, from any part of the political 
spectrum, in the work that the scientific community does. But I 
am very impressed with the work of the decadal survey that the 
National Academies have done in their decadal surveys. And that 
is why I included language in our 2016 bill to ensure that the 
National Aeronautics and Space Administration, we gave them 
direction to follow the decadal recommendations because of the 
superb quality of the work. It is a blueprint for the next 
decade.
    Dr. Cordova. Yes.
    Mr. Culberson. It allows us as members of Congress----
    Dr. Cordova. Right.
    Mr. Culberson [continuing]. To recognize what the 
priorities are of the scientific community in their best 
objective judgment and fund those priorities and make sure that 
they are carried out. Because these discoveries, as the 
gravitational wave discovery, has taken a couple of decades to 
achieve.
    Dr. Cordova. Right.
    Mr. Culberson. These are long term, very expensive, very 
difficult achievements that we cannot always be sure----
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. When we make the investment at 
the front end where it is going to wind up at the back end.
    Dr. Cordova. Yes.
    Mr. Culberson. And we do need to keep political judgment 
out of the work that you do as much as possible. I mean, there 
is a lot of concern on our side, for example, we do not want 
for example the climate change work that is being done to be 
driven by political agenda from either direction. We just want 
the facts, as Joe Friday said, on Dragnet. We just want the 
facts so we can make----
    Dr. Cordova. Right.
    Mr. Culberson [continuing]. It is our job as policy makers 
to make good decisions based on accurate, objective, factual 
data. That is all we are looking for. So the decadal survey is 
of keen interest to me and I am glad Mr. Jolly asked the 
question. Because that was something I intended to pursue with 
you separately and privately and I am glad he brought it up. 
Because we need to have, I think, a decadal survey, or find a 
way to have a decadal survey for the National Science 
Foundation, as NASA has for the space program, so we can see as 
policy makers what the next decade----
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. What the needs are for the next 
decade--
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. What amount of money will be 
necessary. Frankly I would love to also, I have been working 
with Mr. Fattah and Mr. Honda, all the members of this 
subcommittee, I really want to cut the Office of Management and 
Budget out of the loop for NASA and the National Science 
Foundation. I do not think the bean counters, the bureaucratic 
bean counters at OMB should be substituting their judgment for 
the work that you do or the work that NASA does. They ought to 
be able to give us an accurate, honest assessment----
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. Of what your needs are----
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. And what the, you should be 
able to tell us directly what your financial needs are so we 
can fund those based on a blueprint from the National Academy 
of Sciences in a decadal survey format so we can make an 
honest, objective assessment of what the needs are and then 
fund those and then get out of the way. And just the facts, 
ma'am, as Joe Friday said. I am there. I am with you, 110 
percent, and want us to get there.
    So anyway, I did not mean to take so much time. I am going 
to pass it to Mr. Fattah. But do be thinking about how do we 
create a decadal survey type program? And if it is already 
there, obviously for astrophysics, heliophysics----
    Dr. Cordova. Yes.
    Mr. Culberson [continuing]. The planetary sciences, you 
know, terrestrial and outer planets, how do we divide that up, 
then? How do we make sure that there is a formal process in 
place where you are handling portions of those decadals that 
already exist? What kind of decadal do we need to create for 
the National Science Foundation in general for the hard 
sciences, math, you know, the-- oh excuse me, I have got to go 
back to Mr. Honda. Forgive me. But nevertheless, be thinking 
about it. Because I really think it is important that we have 
objective peer reviewed scientific recommendations for this 
committee and the Congress that give us just the facts so we 
can then make the policy decisions about what money is 
necessary to be sure America preserves its leadership role in 
space and scientific research. Mr. Honda.
    Mr. Honda. Thank you, Sergeant Friday.
    Mr. Culberson. Sergeant? I like that. Sergeant Friday, 
everyone.
    Mr. Honda. I still remember Jack Webb.
    Mr. Culberson. Yes.

                 SOCIAL SCIENCE AND GEOSCIENCE FUNDING

    Mr. Honda. Dr. Cordova, I think there is a lack of 
understanding about what sort of research is funded by social 
science directorate. Much of this research has an impact on 
issues as broad as national security, responses to major 
disasters, and strategies to save taxpayers money. And, 
briefly, can you give us some examples of ways that social and 
behavioral science funding is researching problems?
    And let me hook up with the second part of my question. 
Geoscience funding is important to the training of many 
researchers in the academic field, I also understand that many 
industries in areas as broad as energy exploration, 
construction, and risk mitigation depend on NSF funded training 
for their employees.
    Can you tell us about the importance of geoscience funding 
to the private sector? It is sort of a follow up on all this 
discussion about the directorate, but I wanted to break out the 
social and behavioral science and the earth science.
    Dr. Cordova. Sure. Well, I think you all know that the 
Social, Behavioral, and Economic Sciences Directorate is the 
smallest, lowest funded of our research directorates; 
representing under five percent of the total of NSF's research 
and related activities account.
    But its significance, its importance, to all the other 
fields belies that fact because we think that almost every area 
of science is increasingly dependent on social sciences coming 
into the picture to help make decisions, evaluations, 
assessments, and optimization of very important decisions.
    For example, in how technology is used. As technology 
becomes more complex, it is increasingly important to have a 
social science component. Not just how it is used, but why and 
what kind of decisions have to be made. Also in public health, 
including personalized medicine, there are social science 
questions about how people are going to adapt to this, and what 
kind of decisions people have to make.
    There are questions in energy independence, questions in 
cyber security--another committee had a hearing on this 
recently and it was discussed that half of the problem in cyber 
security is a social science problem--how systems are made more 
secure, and we protect our privacy and all, depends on people. 
And so understanding this, and how human beings behave in 
context, is important to understanding how to make ourselves 
more secure.
    You asked for some examples. In social science I think 
there is a famous example of auction of the wireless spectrum, 
which is now a $60 billion industry, and the FCC has really 
benefitted from algorithms that were developed by our social 
scientists that are applied to the auctioning now.
    Another area where social science has really helped us is 
matching algorithms to support kidney and other organ 
exchanges. Our social scientists have strategies for assigning 
students to public schools in urban settings. Those are three 
examples that are very important social science contributions.
    And I think that, for me, it is very interesting that in 
all of our new initiatives that we have put forward, whether it 
is in risks and preparations for earthquakes and disasters, or 
our food, water, energy, nexus programs, or understanding the 
brain, that social science plays an enormous role together with 
the other sciences in making progress in science in these 
fields.
    And the final example for social and behavioral sciences is 
in measurement and data linkage and integration. The Department 
of Defense has said, in its operation relevance document, that 
the fusion of both hard and soft forms of data is critical. The 
ability to fuse intelligence data with social media, mass 
media, and behavioral survey data is critical to forming a more 
comprehensive situational awareness.
    For the geosciences, it could not be more important to 
understand everything about our planet, including the oceans, 
which is so important to our economy. It is important to our 
understanding our climate, it is important to understanding 
life itself because we suspect that the origins of life may be 
in our oceans, and we study extremophiles, very unusual 
organisms that live on the bottom of the ocean floor that can 
tell us a lot about how life evolved.
    We study, of course, geology, and rocks, and minerals, and 
earthquakes. I mean, the planet comprises so much from the 
bottoms of the ocean to the top of the atmosphere that just has 
so many mysteries that we do not understand. And we have a big 
emphasis, of course, on planetary science, NASA does as well, 
but in order to understand other moons and planets we have to 
understand our own planet a lot better. So for human viability 
as well as our understanding of our solar system and planets 
and beyond, we really need to understand the geosciences.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much. [Audio malfunction in 
hearing room.]

                    FOOD, ENERGY, AND WATER RESEARCH

    Ms. Roby. Thank you. Thank you, Dr. Cordova, for being here 
today. My home state of Alabama, in the district that I 
represent in particular, agriculture is the number one 
industry. And so there is a pressing need to understand the 
connectedness of food, and energy, and water, and of particular 
interest is the production, resilience, safety and security of 
food, energy, and water resources. And so I continue to make 
the point that agriculture is a major part of our national 
security.
    Farmers, and those in the agriculture industry, must 
provide not only the food for the nation, but the entire world. 
And from the recent droughts and heavy rains throughout the 
U.S. to global market fluctuations and the corresponding 
impacts on water, our food production and the energy sector is 
an example of these challenges.
    And so in your budget request, you outline $62.18 million 
for the innovations at the nexus of food, energy, and water 
systems. And so I would love for you to explain to me how this 
program, the first of its kind, will study the 
interconnectedness of food, energy, and water, and how do you 
plan to help educate and disseminate the results of your work?
    Dr. Cordova. Thank you. Yes, it is a problem in many areas 
of the country including Alabama, like the American Southwest 
with its droughts and all, and in many places of the world.
    So we started with our SEES program, which dealt with those 
resources, food, water, and energy, separately and we learned 
from those that you really have to--and that program is winding 
down this year--we learned from that program--which has been 
funded the last several years--that we really have to think of 
food, water, and energy as a total system.
    You know, of course, water can produce energy and it also 
can consume energy, and food uses energy and water. We now 
have, with our revolution and capability in computer sciences--
specifically data analysis and computer simulation--the ability 
to put together a more holistic picture of how all these 
quantities are dependent on each other and what kind of trade-
offs can be made.
    So there will be basic research that is done under food, 
energy, water, and understanding these connections better. And 
there will also be a lot more attention to computer simulation 
and modeling, and more attention to how one optimizes the 
decisions one has to make. So let me give you a very specific 
example to put some concreteness to it.
    I was at a university where we funded a decision center, 
and it is in a middle of an area that has a lot of water 
shortage problems, has a nuclear power plant to boot, close by 
which needs water for cooling, it is in a big agricultural 
area, and it has to worry about both the aquifer as well as 
ground water that comes from another state.
    So it wants to produce food, it wants to use water for all 
these different purposes. Every county in the state has 
slightly different needs depending on whether it has a strong 
aquifer that can last for some time, or it is getting water 
from another state and having to pay for it. How do you put all 
that together to make a model to optimize the decisions that 
mayors and elected officials, county officials, have to make?
    And so they have all come together. It is a partnership of 
the whole state with the university leading it in order to do 
computer modeling on when and what situations of drought or 
more water, rainfall and all, one would be using one resource 
versus another resource. That is just one example.
    Ms. Roby. Sure. And then the second part of the question 
is, how do you disseminate this information once you begin to 
see the fruits of the research, and educate the very people 
that you just alluded to?
    Dr. Cordova. Right. Well, there are several ways to do 
that. One is the scientists themselves are good at having 
workshops, and I attended one in D.C. not more than a month ago 
on food, energy, and water. And they have all these great 
scientific proposals that they are asking NSF and others to 
fund, and I think they will make a lot of progress.
    And so then the next step in getting that information out 
is to make sure that we do a good job of disseminating results. 
And, frankly, you have hit on a very important point, Ms. Roby, 
a lot of what we learn, we learn as scientists and we share it 
with other scientists. But especially in this area, and also 
risk and resilience where we are trying to have people be safer 
when they have disasters and be more prepared and utilize those 
results, is really going to depend on more communication.
    So I am hopeful that we will, through all the social media 
that is available to us, put a real emphasis on communicating 
our results in very clear ways so that the public can use it. 
In this field, you learn more all the time, the more research 
you do. But the results we do have, and what we are learning 
from it, need to be put out to the public more. So thank you 
for underscoring that.
    Ms. Roby. Absolutely. And, Mr. Chairman, that is certainly 
our responsibility to continue to follow up with you as you do 
reach some conclusions, and ensure that Alabama's farmers, and 
those that utilize these resources, have the ability to benefit 
from the research that you have done. So----
    Dr. Cordova. Now the nation does have strong agriculture 
schools, a lot of our universities do, and they are the best, 
historically, from the old land grant concept, at getting out 
words to farmers and all. This would be a very good avenue also 
through their engagement with communities. And I know Alabama 
does as well.
    Ms. Roby. Thank you. I yield back.
    Mr. Culberson. Thank you, Ms. Roby.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. Welcome, again.
    Dr. Cordova. Hello.

                          NEUROSCIENCE FUNDING

    Mr. Fattah. I was at a hearing a few minutes before I 
arrived here with my colleague from Alabama, where we had Dr. 
Francis Collins in front of the Labor and Health Education 
Committee, but it is a pleasure to again thank you for your 
tremendous leadership as a public spirited scientist in leading 
the most important basic science organization in the world.
    I am interested in a couple of things. One is, I am 
interested, first and foremost, of course, around my number one 
priority, the work you are doing in terms of neuroscience. And 
in particular not just what you propose in this year's budget, 
but how the work that you are doing in partnership with the 
national labs around the creation of what we have called a 
National Brain Observatory, how that work is going on.
    And then finally, I am interested in the efforts at the 
agency to continue to engage women in the sciences through 
making adjustments that have been done in terms of the grant 
process so that we don't lose women to other activities in 
their lives, like developing families and so on, but that we 
keep them, even as they go through these various phases, 
engaged in--the National Science Foundation, I think, has taken 
a fairly revolutionary approach to this, and I want you maybe 
to share a little with the committee on that.
    Dr. Cordova. All right. Yes. Thank you, Mr. Fattah. So you 
might know that NSF has doubled its investments in research on 
the brain from $71 million to $147 million between the years 
2012 to 2016. And we think that on a percentage basis, that is 
very, very responsive when compared with others. Our current 
roadmap for understanding the brain extends to fiscal year 
2017, and we are going to spend much of this year assessing the 
investments we have made to determine which ones yield the most 
impactful science.
    And this gets back to Ms. Roby's question too, indirectly, 
at some point you have to evaluate and assess what you have 
done, gather people around that understanding, and decide what 
directions to go next. When I get to your women example and 
inclusion of women, I will use that as another example, but let 
me continue on the brain for a bit.
    In fiscal year 2016, Congress added $3 million to our 
request budget to fund this effort that you described. And NSF 
has supported and attended several workshops to determine how 
the neuroscience community would envision and benefit from a 
collective approach. Through these activities, the six research 
directorates--that is all of our directorates--released a Dear 
Colleague Letter just recently in the last few days called a 
Phased Approach for Developing a National Research 
Infrastructure for Neuroscience. We will see what that call 
brings out. And this articulates a vision for an effort that is 
supported across all our disciplines.
    So we have been successful in formulating a strategy, and 
there is strong convergence for this vision. We are excited to 
finish our analysis and let you know where we see the real 
strength and new directions. As we go towards new programs on 
the brain, we want to learn from what we have invested in the 
past few years.
    And on women. We have had a program for some time that is 
called ADVANCE, which is specific funding to universities to 
increase the progress of women through academic science 
careers. It has been very, very successful. That is, women 
starting out as assistant professors and how do you give them 
the encouragement, the mentorship, the funding in order for 
them to be successful as scientists, engineers, and then end up 
as full professors and leaders. And we have many metrics we can 
share with you that--how successful that has been.
    I think, in my mind, the most successful part of that has 
been insisting on institutional commitment, because once you 
get the whole institution engaged from the very top--and I, as 
president of Purdue University, was the PI on our ADVANCE 
grant--that sends a big message to the whole university that 
this is something that the leadership cares about.
    So we translate that aspect of it to a new program that you 
alluded to called INCLUDES. And we just put out the Dear 
Colleague Letter on INCLUDES. Again, I sent a letter to all the 
presidents and chancellors of universities asking them to be 
the PIs to make this an institutional commitment, and its goal 
is increasing the number of women and underrepresented 
minorities, the disabled, all people who are not part of the 
current statistics about who is in the science and engineering 
workforce, through really innovative programs.
    And the other thing that we have learned from past programs 
we have done on broadening participation, is how important 
partnerships are with the broader community. This cannot be 
something that is done in one department of one college of one 
university; it has to be something that is done in a regional 
sense using what they call collective impact: the whole 
community really cares about this and comes together, all the 
way from K through 12, the community colleges definitely.
    And some university presidents, Mr. Fattah, have a real 
vision about how to embrace community college students in this. 
Because some of our very brightest, but let's say financially 
handicapped students, end up in community colleges because that 
is where the resources are, and they are close to home, and so 
we want to engage them in this. So you can see that I have some 
passion around this and I am really hoping for some innovation 
in this space to do things more differently than we have done 
in the past.
    Mr. Fattah. Well, I know that the whole committee wants to 
work with you in this regard. Our country, in terms of 
production of people with terminal degrees, would be at a 
standstill except for the inclusion of women who are now 
earning terminal degrees in a variety of disciplines, that 
heretofore had not been the case. If we are going to compete 
with big and populated nations like India and China, we cannot 
leave people on the bench that need to be in the game. So thank 
you very much.
    Dr. Cordova. Thank you.
    Mr. Culberson. Mr. Jolly.

                      DISASTER RESILIENCE RESEARCH

    Mr. Jolly. Thank you, Mr. Chairman. Couple of quick 
questions on the disaster resilience research you are doing, a 
little bit of that portfolio. And I am particularly interested 
that, if you can discuss it generally, but on the 
infrastructure side if there are areas of pursuit that NSF is 
pursuing or following?
    Dr. Cordova. I would have to get back to you on that. I do 
not know what, in detail, what kind of infrastructure. I know 
that our engineering directorate is very involved in this 
together with our geosciences directorate. And so part of this 
is about identifying risk and part of it is how we can become 
more resilient.
    I know our computer sciences directorate is also very 
involved and they are doing modeling on what we know and how to 
improve our knowledge ahead of time for disasters. And our 
social and behavioral sciences is telling us how people can 
adapt their behaviors to impending disasters, or ones that have 
already happened, in order to save lives. I know we fund drone-
like things to go into disaster areas.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
   
    
    Mr. Jolly. Sure, sure.
    Dr. Cordova. But as far as other forms of infrastructure, I 
just don't know what that would be.
    Mr. Jolly. OK. If you could, and no rush.
    Dr. Cordova. Sure.
    Mr. Jolly. It is from within the portfolio, specifically in 
the infrastructure area. And I know infrastructure a lot is 
connected communities and IT and so forth. But my district, in 
particular, it is one county, it is a peninsula, we are ground 
zero for everything from flood insurance to other issues 
related to being essentially at sea level.
    And so much of what is debated regarding climate change, 
and what is the appropriate response to that, ultimately that 
response ends up resting on some very small municipalities and 
local jurisdictions that have to address infrastructure issues 
from underground and utilities to whether you use cement or 
asphalt on the roads, to whatever those issues might be. So I 
would be curious if, within the portfolio, there are advances, 
or at least areas of pursuit, within what I would call hardened 
infrastructure or actual infrastructure.
    Dr. Cordova. Right. What I would surmise--and this goes 
back to the Chairman's comments about cooperation with other 
agencies, because this is certainly an area where a number of 
agencies are engaged--is that we do the basic research on 
understanding the phenomenon, and doing the modeling and the 
simulation, and we would translate that understanding to 
agencies that are more engaged in actually building things.
    Mr. Jolly. Sure.
    Dr. Cordova. And so that's what I would----
    Mr. Jolly. No, and I understand the role of basic insurance 
and I understand modeling of extreme events, but as it 
translates then into basic--or into applied and actual, 
ultimately, products, that hardened infrastructure in a 
community like ours. Those are areas of strong interest.
    And, again, I use the asphalt/cement example because it was 
a recent conversation I had about the cost benefit of roads and 
infrastructures using cement as opposed to asphalt and the 
ability to withstand certain environmental events, if you will, 
what it means for infrastructure. And decisions that local 
cities, counties, municipalities are able to make in the long 
run. Ultimately, what you are doing on the basic side advances 
their ability to make decisions years from now.
    Dr. Cordova. And the evaluation of what kind of cement or 
asphalt to use, right?
    Mr. Jolly. Sure.
    Dr. Cordova. And we do fund centers on optimization of 
materials, on optimization of power and different power 
supplies, and so forth. But we do not actually make the 
things----
    Mr. Jolly. Of course.
    Dr. Cordova [continuing]. And then others.
    Mr. Jolly. Fully appreciate that. But to know that there is 
basic science research in that field is, frankly, very 
encouraging for a community that is coastal. And real quickly, 
I know my time is almost up. If you could elaborate at all on 
the two research vessels----

                            RESEARCH VESSELS

    Dr. Cordova. Sure.
    Mr. Jolly [continuing]. And the type of ocean research that 
might support.
    Dr. Cordova. Yes. Well, so I alluded earlier to an 
interagency working group on facilities and infrastructure for 
the ocean sciences. And we presently have something on the 
order of 30, or 30 and a few, vessels that are in the academic 
fleet, and that is not NSF alone, we just have a small portion 
of that, but everybody, agencies, academic institutions, and so 
on. That number is going to go down over the next decade or 
two--two decades, to about 18 vessels, so about half. So we 
start out about 35 and it is down to about 18.
    The vessels that we have are very old and they are just 
falling apart, and some of them are sold off for other uses, 
and some of them are scrapped. And so this interagency group is 
always looking ahead, in the planning sense that the Chairman 
alluded to, with how do you plan for the next decade. What kind 
of vessels do we really need?
    So we have come up with these smaller research vessels, 
which are very efficient, can do observations more quickly, 
scientific observations, and are less costly than other bigger 
ships that are not so nimble, and these will be able to do 
many, many deployments out into the ocean, and many different 
types of science.
    We had a decadal review from the ocean sciences that said 
that we should build two of these in order to replace a number 
of research vessels. So that is in our 2017 budget is to get 
started with those two research vessels. They are more near-
the-coastline-type vessels, and they will be deployed as needed 
around our coastline, because there's only two of them.
    Mr. Jolly. Sure.
    Dr. Cordova. Yes.
    Mr. Jolly. Thank you very much. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.
    Mr. Honda.

                     COMPUTER SCIENCE AND BIG DATA

    Mr. Honda. Let me just say this has been really 
interesting. I appreciate that. Dr. Cordova, advanced computing 
has played an essential role in powering science and innovation 
across disciplines and industries, and I commend the 
administration for pushing advanced computing forward through 
the national strategic computing initiative to ensure we have 
the next generation tools, and ecosystem needed to continue 
world leadership on this.
    It is my understanding that the NSF plays a key role in 
this initiative, researching new technologies, training future 
developers and users, and supporting computing infrastructure 
to enable groundbreaking discoveries across science and 
engineering. What are your plans to ensure NSF continues to 
fulfill these critical roles as the U.S. moves forward in the 
next generation of advanced computing?
    Dr. Cordova. Mr. Honda, we have a very vibrant computer and 
computing and information science and engineering directorate, 
and they have been supporting high performance computing and 
its evolution, incorporating newer technology and newer ways of 
handling software for a very long time.
    We believe that--let me put it this way. When I look over 
NSF and what are the really new things, new contributions, that 
we can make to the nation, I think you hit on an area that is 
at the core of everything that we do, and it is going to make 
just a tremendous difference.
    We already have, of course, with NSF Net, which followed 
ARPANET, made a transformation in taking something that was 
very localized for a specific group of people and making it 
available nationwide. NSF was a seminal part of the whole 
computer infrastructure revolution, and we have kept up with 
that kind of profile by funding really powerful supercomputers 
across the nation: Texas, like the one at UT Austin, Stampede, 
and the Blue Waters at the University of Illinois, and Comet in 
San Diego, all around the nation, Wyoming, and so forth, each 
of which has a different capability, a different way of 
functioning, and, therefore, different access by the scientific 
community, depending on what their scientific question, what 
their goal is.
    And so these are very, very utilized--in fact, hard to keep 
up with the demand on these--that the real feature of these is 
that they incorporate the newest technology, the newest 
software platforms. They are always evolving because we have 
very, very smart people in the computer community that come 
together constantly and have new ways of making operations much 
more efficient. Presently under review are a couple of 
supercomputers and how to refurbish them and go to the next 
level. And so I think we are very much leading this field and 
being led by scientists in this.
    And one of the other really encouraging things to see is 
that our facilities can be made better by advanced computing, 
and we have brought together--again with the science 
community's leadership--groups of people from very different 
fields to talk about how we can have platforms that are more 
common and that are shared in order to make our facilities, 
like NEON, LSST, the solar observatory, all the big facilities 
that we have, to make them function faster and more optimally 
and have access for the community.
    As you know, big data is just getting more and more 
important, and it presents opportunities for discoveries in 
itself, and so we are right on that frontier. We just funded a 
half dozen big data centers across the country, and so that's 
another approach besides building the computers themselves is 
to have approaches to analyzing and extracting maximum 
information from all the big data that is being generated, by 
us and everybody else.
    I think you can sense the excitement that we have for this. 
It is a very exciting frontier, and I have really challenged 
the computer directorate to come up with some big, bold ideas 
for the next decade that will be transformative in the 
architecture of the software that will be embraced to do big 
data faster and to be on top of the very latest developments in 
this. You know we can't use last century's architecture 
anymore, we have to really look everywhere for the latest 
developments.
    Mr. Honda. Thank you. Thank you, Mr. Chairman.

               FUNDING RESEARCH IN THE NATIONAL INTEREST

    Mr. Culberson. Thank you, Mr. Honda.
    Dr. Cordova, I am aware that National Science Foundation, 
under your leadership, has implemented new policies to clarify 
that the abstract for an award must serve the public--as the 
public justification for NSF funding by articulating how the 
project serves the national interest and that NSF has also 
issued a resolution in May 2015 that strongly endorses the 
principle that all foundation funded research and education 
must further the national interest by contributing to the 
foundation's mission.
    Could you explain to us what processes NSF has implemented 
to ensure that all grants funded are in the national interest?
    Dr. Cordova. Yes, Mr. Chairman, we have done several things 
in the past year and a half or so. But let me start with the 
establishing language for the National Science Foundation, 
which is our mission. And that is a mission by definition, as 
we were established by Congress, to serve the national 
interest; so the language says ``to promote the progress of 
science; to advance the national health, prosperity, and 
welfare; to secure the national defense and for other 
purposes.'' So all NSF funded research and education must 
further the national interest by contributing to that mission, 
NSF's mission.
    I have taken several steps to ensure that the national 
interest permeates NSF and our peer review process to make it 
more explicit. More than a year ago, I implemented a written 
policy for NSF staff. So this would be in what is a manual that 
our program officers use to ensure that every award includes, 
``a non-technical description of the project, which explains 
the project's significance and importance.'' This description 
also serves as a public justification for NSF funding by 
articulating how the project serves the national interest, as 
stated by NSF's mission ``to promote the progress of science,'' 
and so on.
    And in January, our public guidance was updated to conform 
with the established policy by requiring that, ``an NSF award 
abstract with its title is an NSF document that describes the 
project, and justifies the expenditure of Federal funds, by 
articulating how the project serves the national interest.'' So 
those words ``serve the national interest,'' are both in the 
policy for internal guidance to our program officers and in the 
external guidance to the community. In fact, I released what we 
call important notices to the community every so often, and one 
called Number 137, was to all the presidents of universities 
reminding them of just the language that I said.
    In addition, we have made a number of changes. We are right 
on top of how the titles should be written and we have done 
statistics on how many titles have changed to make it clear 
that they serve the national interest; and the abstracts too. 
And let me give you just one statistic. This past year, our 
review showed that the titles of 24 percent of our proposals 
were changed in order to make them clearer, and many more, a 
fraction-wise, of the abstracts because we now have a new rule 
that an abstract has to have a non-technical paragraph as well 
as a technical paragraph.
    And the non-technical paragraph addresses the justification 
that follows our solicitation requirements. I want to say, on 
the solicitation requirements--because it is very, very 
interesting with respect to the bill--that every solicitation 
says that the proposal will be judged on intellectual merit, so 
that is serving the progress of science--that is the scientific 
argument--and that it will be justified on the basis of broader 
impact. And we actually define in the solicitation what broader 
impact means.
    We have ten things listed under broader impact; eight of 
those things are listed in the bill itself. So we are already 
including, in our language for the solicitation, all of those 
things in the bill, plus a couple more on education and the 
STEM workforce that are not included in the bill, as a 
justification. And so I think all those things, the guidance, 
the policy, the changes, the cooperation of all the staff, and 
the solicitation announcement itself, has all the elements that 
are in the bill.
    Mr. Culberson. Thank you.
    Mr. Honda.

                               SUBAWARDS

    Mr. Honda. The NSF makes awards for large [indiscernible] 
projects, and awards are numerous sub-awards to the communities 
responsible for various parts of the project, and, the costs of 
those sub-awards are often the most significant cost of the 
project.
    What is NSF doing to monitor such sub-awards to ensure that 
Federal requirements are being followed that costs incurred are 
reasonable, allowable, and allocable? And sub-awards typically 
constitute a substantial portion of award costs, sometimes as 
much as 80 percent, I understand. So when it conducts cost 
audits, will NSF commit to examining the costs of both the 
awardee and any of the sub-awardees?
    Dr. Cordova. I can get back to you with more detail on the 
specific sub-awards. I know for the overall awards that we are 
about to do incurred costs audits and all.
    Mr. Honda. I would appreciate that.
    Dr. Cordova. But I would like to get back to you on the 
specific sub-award question.
    [The information follows:]
                            subawardee costs
    NSF has not conducted its own incurred cost audits to date. The 
NSF's Office of Inspector General (OIG) auditors along with audit 
support from the Defense Contract Audit Agency have reviewed subawardee 
expenditures during their audits of NSF prime awardees. A number of OIG 
audit reports issued between FY2010 and FY2016 have included a review 
of subawardee costs that has resulted in questioned subawardee costs.
    As the NSF starts to procure its own incurred cost audits in the 
future, NSF will develop a methodology to determine when subaward 
incurred costs should be reviewed.

                       INTERDISCIPLINARY RESEARCH

    Mr. Honda. Thank you. Science has become very--as you have 
been explaining all this morning--have become very multi-
disciplinarian in nature, and I believe the NSF recognizes that 
many of the proposal receives combine elements of multiple 
scientific disciplines. And when Mr. Fattah was here, he talked 
about neural research also, and it sort of reminded me that 
that is part of the social sciences in terms of how people 
think and they determine policies.
    And I am just of diverging a little bit from my core, my 
question, but it seems to me that when we look at these kinds 
of things, and we look at our--the way we do studies, that it 
is important that we have women involved because if it is 
purely men, we tend to think in certain ways with certain 
structures and certain biases, if you will, much of it is 
learned.
    And so having this diversity of thinkers and folks who are 
present makes a big difference, I think, in the total outcome. 
But in terms of the multiple scientific disciplines, can you 
give the subcommittee a few examples, particular where 
proposals combine elements of physical, chemical, biological, 
and computer sciences with social behavioral sciences?
    Dr. Cordova. Uh-huh. And you said very, very well, Mr. 
Honda, the importance of diversity. Big business has stepped up 
and said how important it is to our economic health to have a 
diverse work force. And, as you know, industry is very 
concerned about having more women in leadership positions, 
specifically.
    And certainly in science, it is just tremendously important 
that we include the different approaches of people in order to 
do very innovative and new things, and not just be doing what 
we have been doing in the past.
    So your question is about examples. We have--I mentioned 
already our food, energy, water initiative, which includes many 
directorates in it, and that has a big social science component 
in it for-- and as Ms. Roby was saying, how do you assess what 
you have learned? How do you get the information out? What do 
people do with the information? And is that enough? Is that 
enough to change things and to really optimize our use of these 
very precious resources and how they are interdependent?
    I mentioned our initiative on risk and resilience, and how 
important it is to have social scientists assess--well, it is 
great to know a tornado is coming, and even something about its 
probable pathway and intensity, but if people do not know what 
they should do, and when they should do it, and how to respond 
afterwards, then lives can be lost. And many assessments have 
shown that, in the case of disasters, new knowledge is not 
necessarily saving lives, but it is new understanding of what 
to do with that knowledge that can save lives.
    We have programs I have not mentioned. Programs like our 
BioMaPS program, which is an interdisciplinary opportunity 
between our biological directorate and our math and physical 
sciences--that is the MaPS part of it--to do projects in 
synthetic biology to understand materials better, especially to 
develop biologically inspired new materials, would be one 
example.
    And there--I think social science also has a role to play, 
and I have seen it at universities, actually be a part of such 
collaborations to assess how can technology be used to benefit 
us rather than be used in ways that are potentially harmful. 
And students now at some universities are being required to 
take ethics courses so that they can help make those kind of 
decisions.
    As I said earlier, I think social sciences is permeating 
the ways that we think about just about everything that is a 
grand challenge that has to do with people. And so I expect 
that it is going to become even more important to our portfolio 
in the future than it is now.
    Mr. Honda. Thank you, Mr. Chairman.

                NATIONAL ECOLOGICAL OBSERVATORY NETWORK

    Mr. Culberson. Thank you, Mr. Honda.
    I will do one more set of questions and I believe we need 
to wrap up. Mr. Honda has a commitment. And I do want to focus, 
if I could, Dr. Cordova, on the National Ecological Observatory 
Network. Last year, NSF identified an $80 million cost overrun 
for the NEON project. And as a result, as required by the NSF, 
NEON will de-scope the project, which includes decreasing the 
number of sites from 106 to 82, and I know you have also 
brought on new management.
    If the network is not entirely built, why do you need $65 
million additional funding for operations, especially if the 
network is going to include nearly 25 percent fewer sites than 
originally planned? And what steps has NSF taken to ensure the 
program is, quite frankly, properly run, and that you have got 
a greater degree of rigor in management, and to prevent cost 
overruns?
    Dr. Cordova. Uh-huh. Well, as you know, the whole process 
of having opportunity for entities to propose for new 
management was because we didn't think things were headed in 
the right direction because of scheduling and cost overruns. 
And there were, of course, potential schedule and especially 
potential cost overruns. The schedule is related to cost, and 
it looked like the schedule was getting out of hand.
    And so we had a very intensive process, and we selected a 
new management entity, Battelle. We have signed an initial 
agreement, an initial award, to them that was just put into 
place last Friday so they can assume management responsibility 
for the project. There will be a 90-day transition period where 
the final costs to construct and operate NEON will be 
negotiated between Battelle and the National Science 
Foundation.
    And that has always been the plan--to get them on board as 
soon as possible because, in their proposal, they have new 
ideas about how to accelerate the scheduling and, thereby, it 
may not cost as much. So it is just essential to get them going 
as soon as possible, but we also have to give them the 
opportunity to really understand the full cost.
    As far as the science is concerned, when we realized last 
spring/summer that we were facing a potential $80 million cost 
overrun, we asked the advisory committee to the biology 
directorate to stand up a task force, if you will, a 
subcommittee, under their aegis, of top scientists. I mean, 
these are National Academy standing scientists from around the 
country to come together and to look at what was proposed 
originally for NEON and what the budget constraints and all 
were now, and that we did not want to have a cost overrun, and 
considering that there was a de-scoping plan on the table, 
could they assess the de-scoped plan and let us know whether 
there was a lot of transformative science to be had with the 
de-scoped plan.
    And so they did that. They did that on an amazingly short 
time scale, which just shows the power of the science community 
to come together and to quickly do such an important 
assessment. And they came back, and they said that absolutely 
that they thought that great science could be achieved with the 
proposed de-scoping from the number of sites that you 
mentioned, but no more de-scoping because we do have to 
preserve the original mission of NEON.
    And so we think that by accelerating schedule and also--
just to go back to the discussion about computers, and Mr. 
Honda's questions about how we were involving the best 
computational capabilities--we think by revolutionizing the 
computer approaches to this observatory as well, that we can 
also realize some efficiency in gains.
    And so, you know, time will out: we will find out how well 
we have done, but we think that Battelle has produced an 
exceptional proposal in every aspect, including involving the 
science community. And we have very high hopes, and with our 
very close involvement--and believe me, I have weekly meetings 
with my senior staff on NEON--that this is an all-hands effort 
to make sure that this problem is resolved in short order of 
any potential overruns, and that this program delivers 
incredible value to the public.
    Mr. Culberson. So in addition to weekly meetings, what 
other steps have you formally instituted to be sure that you 
have got the proper oversight to ensure that Battelle is not--
you do not have the same problem you did before with the other 
management?
    Dr. Cordova. Yes. Yes, very good. So a number of changes 
have been made in the project management at NSF. We have a new 
program officer, and that person then reports to a project 
leader who has all the certifications, is very, very competent 
in project management. We have transferred the location of the 
oversight of the project from the main office of biology to the 
biological infrastructure division where it can be treated as 
any other project and real project management can be assumed.
    I have to say, our large facility office has been splendid 
under the leadership of Matt Hawkins, and they have hired more 
people who are certified to help not only with NEON, but with 
all of our large facilities. We have not talked in this hearing 
about the NAPA report. As you know, the National Academy of 
Public Administration gave us a report of recommendations for 
improving our oversight and management of large facilities, and 
we have also had biweekly meetings on implementing that plan.
    So we are going to, in some sense, adopt every 
recommendation. Maybe not to the letter, some will be complex 
and challenging, but we intend to--we have adopted their 
recommendations as a whole. And those really apply to NEON as 
well. So we have a lot of changes.
    And the last thing I will say is that what I was most 
concerned with is oversight up to the level of the Director. I 
want to know what is going on. We are a de-centralized, for the 
most part, institution. So you can think of a university where 
the colleges have a lot of decentralization: we are a lot like 
that.
    Through this effort, we are trying to more centralize the 
things that really affect the entire agency, like large 
facilities. And so you will see at the end of the day, not 
today, not tomorrow, but certainly in the next several months, 
because we have groups working outside, external groups, doing 
studies of what kind of oversight and internal management 
structure is optimum, to make sure that everyone knows what 
everyone else is doing, what's going on more broadly.
    Mr. Culberson. Thank you very much, Dr. Cordova.
    Do have one more question?
    Mr. Honda. Just one last.
    Mr. Culberson. Sure.

                    SEXUAL HARASSMENT OF RESEARCHERS

    Mr. Honda. You mentioned NAPA and--thank you, Mr. Chairman 
for the last opportunity. But very quickly, I have been reading 
some articles for the past few months and there have been a 
number of examples of women in science coming forward to bring 
to life cases of sexual harassment by professors on women 
researchers. And the three basic questions as to what is NSF 
doing to combat such harassment in the research community? 
Should the NSF give grants to researchers who have been found 
guilty of sexual harassment? And can NSF do more to change this 
kind of a culture? And I know it is a very sensitive question, 
but I think it is a----
    Dr. Cordova. A very important one.
    Mr. Honda. It is a situation that needs to be discussed, I 
think, publicly when we talk about everything else. We talk 
about diversity and women's input, and things like that.
    Dr. Cordova. Right.
    Mr. Honda. I think that that reading, as sensitive as it 
is, I would like to know what your response.
    Dr. Cordova. Thank you for the discussion of this issue. 
NSF and NASA have put out recent statements about sexual 
harassment and how we view this, so that is on our website, and 
we take a very strong position as does NASA. And we do say what 
our expectations are, and then we say that in principle, if 
universities--you know, we don't make individual grants, we 
make the grant to the university and then they fund the 
person--but that if universities do not take this seriously, we 
have the option to withdraw their funding. So that is one step 
we have done.
    And another step is that in every case that where NSF is 
the funder, that we are working, as we really always have, 
through our office of diversity and inclusion, and with the 
Department of Education, because they have a lot of 
jurisdiction in this matter. And, by the way, I mentioned that 
I talked with Secretary King yesterday, and this was an issue I 
also brought up to him. And I think you are going to see more 
interaction on this issue with Department of Education as well.
    So we take these cases very seriously. As you know, there 
are privacy laws that are involved, so we have to, you know, be 
careful about what we say goes out there. But each case is 
taken on its own merits, or demerits, and we are making 
adjudications--as far as our role allows us--with the 
Department of Education on what we can do to show how serious 
we are to universities and other entities we fund.
    And the last thing, I think this is very important, is that 
the National Science and Technology Council has a committee on 
science, which I cochair with Francis Collins at NIH and Jo 
Handelsman at OSTP. And we, at our March 31st meeting of this 
month, we will take this up as one of the main issues and I 
will lead the discussion, so that everyone knows how seriously 
we take this.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. I hope your policy is zero tolerance.
    Dr. Cordova. Yes, of course. But I meant the role as far as 
what kind of punishments would be meted out, that sort of 
thing, but, of course, it is. And it has affected women 
tremendously.
    Mr. Culberson. It is terrific that you are focusing on this 
and ensuring that everyone is treated with professionalism, 
respect, and courtesy. Thank you very much for your service to 
the country. We will have a series of questions we will submit 
for the record. I ask you to respond to in writing, and with 
greater specificity. But above all, we thank you for your 
service. And the hearing is adjourned. Thank you.
    Dr. Cordova. Thank you.
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
  


                           W I T N E S S E S

                              ----------                              
                                                                   Page

Bolden, Hon. Charles.............................................   124

Cordova, Hon. France.............................................   207

Elachi, Charles..................................................    69

Lunine, Jonathan.................................................    76

Pritzker, Hon. Penny.............................................     1

                                  <all>
</pre></body></html>
